<html>
<title> - ADVANCING U.S. ENGAGEMENT AND COUNTERING CHINA IN THE INDO-PACIFIC AND BEYOND</title>
<body><pre>[Senate Hearing 116-315]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-315

              ADVANCING U.S. ENGAGEMENT AND COUNTERING 
               CHINA IN THE INDO PACIFIC AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                           SEPTEMBER 17, 2020

                               __________



       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-239 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

                           C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

    Prepared Statement...........................................     3

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     5

    Prepared Statement...........................................     7

Stilwell, Hon. David R., Assistant Secretary for East Asian and 
  Pacific Affairs, U.S. Department of State, Washington, DC......     9
    Prepared Statement...........................................    13

Reeker, Hon. Philip T., Senior Bureau Official, Bureau of 
  European and Eurasian Affairs, U.S. Department of State, 
  Washington, DC.................................................    20
    Prepared Statement...........................................    23

Chung, Julie J., Principal Deputy Assistant Secretary for Western 
  Hemisphere Affairs, U.S. Department of State, Washington, DC...    25
    Prepared Statement...........................................    27

              Additional Material Submitted for the Record

Responses of Assistant Secretary David R. Stilwell to Questions 
  Submitted by Senator Robert Menendez...........................    57

Responses of Ambassador Philip T. Reeker to Questions Submitted 
  by Senator Robert Menendez.....................................    59

Responses of Principal Deputy Assistant Secretary Julie J. Chung 
  to Questions Submitted by Senator Robert Menendez..............    60

Responses of Ambassador Philip T. Reeker to Questions Submitted 
  by Senator Ben Cardin..........................................    62

Responses of Assistant Secretary David R. Stilwell to Questions 
  Submitted by Senator Edward J. Markey..........................    65

Responses of Ambassador Philip T. Reeker to Questions Submitted 
  by Senator Edward Markey.......................................    66

Responses of Assistant Secretary David R. Stilwell to Questions 
  Submitted by Senator Ted Cruz..................................    68

Responses of Assistant Secretary David R. Stilwell to Questions 
  Submitted by Senator Cory Booker...............................    69

                                 (iii)

  

 
              ADVANCING U.S. ENGAGEMENT AND COUNTERING 
                  CHINA IN THE INDO-PACIFIC AND BEYOND

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2020

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-106 and videoconference, Dirksen Senate Office 
Building, Hon. James E. Risch, chairman of the committee, 
presiding.
    Present: Senators Risch [presiding], Gardner, Romney, 
Portman, Young, Cruz, Perdue, Menendez, Cardin, Shaheen, Coons, 
Murphy, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. Senate Foreign Relations Committee will come 
to order. And welcome, everyone, and good morning.
    We are going to have Senators participating both live and 
virtually. As a result of that, since it is difficult to 
determine when they showed up virtually, what we are going to 
do is go on seniority. So, if that is agreeable with everyone, 
that is what we will do.
    And today, we welcome three witnesses to talk with us: 
David Stilwell, who is Assistant Secretary of State for East 
Asian and Pacific Affairs; Philip Reeker, Senior Bureau 
Official for the Office of European and Eurasian Affairs; and 
Julie Chung, Principal Deputy Assistant Secretary for Western 
Hemisphere Affairs. Appreciate all of you being here this 
morning.
    Today, of course, we are going to be talking about China. 
And obviously, China presents us with many challenges--with 
opportunities also, but, right now, challenges. And there has 
been a lot of legislation that has been introduced, as far as 
China is concerned. What we are--there was a bill that we 
introduced earlier this year that tries to bring together as 
many as possible. I am told that, just recently as maybe today 
or yesterday, that the Minority introduced a bill, of which 
Senator Schumer is the lead sponsor of the bill. But, in any 
event, this is not a partisan issue. This is an American issue. 
And when I put the bill together originally, I did so to bring 
together the thought process from all sides. And we consulted 
with a number of people, both on this side of the aisle and on 
the other side of the aisle, and there is a lot of input from a 
lot of bipartisan effort in the bill. In addition to that, we 
went out to the think tanks, both Republican, Democrat, 
conservative, liberal, and got those in the bill. I am glad to 
hear that there has been this bill introduced by the Minority. 
I am hoping we can bring them all together into one bill that 
we can all get behind, because, as I said, this is an American 
issue, it is not a partisan issue.
    In July, Deputy Secretary Biegun testified before the 
committee on the Administration's strategy for advancing 
effective competition with China. Today, we will take a deeper 
look at U.S. strategy in three important regions: the Indo-
Pacific, Europe, and the Western Hemisphere.
    This hearing has three objectives. First, I look forward to 
Department's assessment of China's impact in these regions, 
what China's interests are, and what it is doing to secure 
those interests. A lot of those activities, of course, are 
common knowledge, and they are in the popular press, but there 
are other things going on that I think it is important that we 
drill down to.
    Secondly, and even more important, we are here today to 
better understand in concrete and specific terms how the United 
States is advancing our interests, expanding our alliances and 
partnerships, and countering China's attempts to undermine 
prosperity, security, and good governance in these regions. 
Again, that is an important thing to shed light on for the 
American people. Certainly, those of us who deal in these kinds 
of things are well aware of China's activities everywhere. We 
all know that virtually everywhere you go in the world, China 
is there, attempting to better its position. And I think it is 
important that we shine a light on this.
    In the Strategic Act of the bill I talked about, that I 
introduced earlier, I make clear that we must address China as 
a global challenge. It is my view that our highest priority in 
American foreign policy must be the Indo-Pacific region. The 
future of the region is decisive for the United States, both 
economically and in terms of security. Prioritizing the Indo-
Pacific means several things. It means expanding our economic 
engagement in the region's growing markets, especially in 
Southeast Asia. It means consistently demonstrating the 
political will to deepen existing treaty alliances and grow 
other security partnerships. And it means ensuring the region 
is resourced properly as a proportion of the State Department's 
budget and personnel. China's primary foreign policy objective 
is to achieve regional supremacy in the Indo-Pacific, and then 
to use that dominant position to propel itself into becoming a 
leading world power. Getting our policy right in this region 
impacts our policy in the other regions we are examining today.
    On Europe, one of my major priorities is to help advance a 
constructive agenda with our transatlantic partners on the 
shared challenges China presents. We are already moving in that 
direction, and I have met with numerous leaders from European 
countries, and exchanged ideas, and I can tell you that that 
idea is hitting a welcoming audience.
    On both sides of the Atlantic, we have strengthened 
investment screening to protect critical infrastructure and 
technologies. We are cooperating to uphold the integrity of 
international institutions, and the United Kingdom, France, 
Germany, and others are deepening their engagement in the Indo-
Pacific. This is a good foundation. We can, and must, build on 
it together and thwart the Chinese government's efforts to 
divide us from one another. I am very encouraged that the 
United States has agreed to join the new dialogue on China that 
was proposed by the European Union, and I look forward to 
hearing about that and other efforts today.
    In the Western Hemisphere, the negative effects of Chinese 
influence are clear. This includes China's predatory finance 
mechanisms for infrastructure projects all around the world, 
projects that are often of questionable value and create high 
debt burdens, severe environmental damage, and social unrest. 
Aggressive and illegal Chinese fishing practices violate 
territorial integrity of coastal Latin American countries, 
raising significant long-term security concerns. And China's 
blatant efforts to trade on the lives of Canadians citizens of 
Michael Spavor and Michael Kovrig are appalling. I am 
encouraged by President Trump's efforts to reaffirm U.S. 
leadership in the region and his willingness to collaborate 
with our neighbors to promote a more prosperous future through 
transparent and accountable frameworks.
    Finally, this hearing is an opportunity to conduct 
oversight of the Department's coordination of U.S. strategy and 
initiatives across these different regions. This coordination 
is important to ensuring that our strategy is articulated 
coherently and executed effectively.
    Again, thank you, to the witnesses, for being here.
    And I am going to turn it over now to Senator Menendez, who 
I know shares many, many of my concerns in this regard. And 
hopefully, we will be able to work together to create an 
American answer to these.
    So, Senator Menendez.
    [The prepared statement of Chairman Risch follows:]

             Prepared Statement of Chairman James E. Risch

    Welcome everyone and good morning.
    We are going to have senators participating both live and 
virtually. As a result of that, since it's difficult to determine when 
they showed up virtually, what we're going to do is go on seniority. So 
if that's agreeable with everyone, that's what we will do.
    Today, we welcome three witnesses to talk with us: David Stilwell, 
who's Assistant Secretary of State for East Asian and Pacific Affairs; 
Philip Reeker, Senior Bureau Official for the Office of European and 
Eurasian Affairs; and Julie Chung, Principal Deputy Assistant Secretary 
for Western Hemisphere Affairs. I appreciate you all being here this 
morning.
    Today we're going to be talking about China, and obviously China 
presents us with many challenges. With opportunities also, but right 
now challenges.
    There's been a lot of legislation that has been introduced as far 
as China is concerned. There was a bill that we introduced earlier this 
year that tries to bring together as many as possible. I'm told that 
just recently, maybe today or yesterday, the minority introduced a bill 
of which Senator Schumer is the lead sponsor of the bill, I'm told.
    But in any event, this is not a partisan issue. This is an American 
issue. When I put the bill together originally, I did so to bring 
together a thought process from all sides. We consulted with a number 
of people, both on this side of the aisle and on the other side of the 
aisle, and there's a lot of input from a bipartisan effort in the bill.
    In addition to that, we went out to the think tanks, Republican, 
Democrat, conservative, liberal, and got those in the bill. I'm glad to 
hear there has been this bill introduced by the minority. I'm hoping we 
can bring them all together into one bill that we can all get behind. 
Because as I said, this is an American issue. It is not a partisan 
issue.
    In July, Deputy Secretary Biegun testified before the committee on 
the Administration's strategy for advancing effective competition with 
China. Today we will take a deeper look at U.S. strategy in three 
important regions: the Indo-Pacific, Europe, and the Western 
Hemisphere.
    This hearing has three objectives.
    First, I look forward to the Department's assessment of China's 
impact in these regions--what China's interests are and what it is 
doing to secure those interests. A lot of those activities, of course, 
are common knowledge and they're in the popular press. But there are 
other things going on that I think it's important we drill down to.
    Second, and even more importantly, we are here today to better 
understand--in concrete and specific terms--how the United States is 
advancing our interests, expanding our alliances and partnerships, and 
countering China's attempts to undermine prosperity, security, and good 
governance in these regions.
    Again, that's an important thing to shed light on for the American 
people. Certainly, those of us who deal in these kinds of things are 
well aware of China's activities everywhere. We all know that virtually 
anywhere you go in the world, China is there attempting to better its 
position. I think it's important that we shine a light on this.
    In the STRATEGIC Act, the bill I talked about that I introduced 
earlier, I make clear that we must address China as a global challenge. 
It is my view that our highest priority in American foreign policy must 
be the Indo-Pacific region. The future of the region is decisive for 
the United States--both economically and in terms of security.
    Prioritizing the Indo-Pacific means several things. It means 
expanding our economic engagement in the region's growing markets, 
especially in Southeast Asia. It means consistently demonstrating the 
political will to deepen existing treaty alliances and grow other 
security partnerships. And it means ensuring the region is resourced 
properly as a proportion of the State Department's budget and 
personnel.
    China's primary foreign policy objective is to achieve regional 
supremacy in the Indo-Pacific, and then to use that dominant position 
to propel itself into becoming a ``leading world power.'' Getting our 
policy right in this region impacts our policies in the other regions 
we're examining today.
    On Europe, one of my major priorities is to help advance a 
constructive agenda with our transatlantic partners on the shared 
challenges China presents. We're already moving in that direction, and 
I've met with numerous leaders from European countries and exchanged 
ideas. I can tell you that that idea is hitting a welcoming audience.
    On both sides of the Atlantic, we have strengthened investment 
screening to protect critical infrastructure and technologies. We are 
cooperating to uphold the integrity of international institutions. And 
the United Kingdom, France, Germany, and others are deepening their 
engagement in the Indo-Pacific.
    This is a good foundation. We can and must build on it together, 
and thwart the Chinese government's efforts to divide us from one 
another. I am very encouraged that the United States has agreed to join 
the new dialogue on China that was proposed by the European Union, and 
I look forward to hearing about that and other efforts today.
    In the Western Hemisphere, the negative effects of Chinese 
influence are clear. This includes China's predatory finance mechanisms 
for infrastructure projects all around the world. Projects that are 
often of questionable value, and create high debt burdens, severe 
environmental damage, and social unrest. Aggressive and illegal Chinese 
fishing practices violate the territorial integrity of coastal Latin 
American countries, raising significant long-term security concerns. 
And China's blatant efforts to trade on the lives of Canadian citizens 
Michael Spavor and Michael Kovrig are appalling.
    I am encouraged by President Trump's efforts to reaffirm U.S. 
leadership in the region and his willingness to collaborate with our 
neighbors to promote a more prosperous future through transparent and 
accountable frameworks.
    Finally, this hearing is an opportunity to conduct oversight of the 
Department's coordination of U.S. strategy and initiatives across all 
these different regions. This coordination is important to ensuring 
that our strategy is articulated coherently and executed effectively.
    Again, thank you to the witnesses for being here. I'm going to turn 
it over now to Senator Menendez, who I know shares many of my concerns 
in this regard, and hopefully we'll be able to work together to create 
an American answer.



              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. And my thanks 
for convening today's hearing.
    As you and I have discussed, we share a common view that we 
have entered a new and more competitive era with China, China 
now displaying global ambitions, which is why I think many on 
this committee have concerns that the Administration's 
strategies and policies to deal with this new China still fall 
well short of answering the enormity of the challenge.
    China today, led by the Communist Party and propelled by Xi 
Jinping's hyper-nationalism, is unlike any challenge we have 
faced as a Nation before. And, as we will have an opportunity 
to discuss today, China is more active and more assertive 
around the globe than ever before.
    Unfortunately, during the last 4 years, the Trump agenda 
has served to only empower Chinese aggression, weaken U.S. 
influence, and fail American workers. This moment demands a 
strong, strategic response that can begin to rebuild American 
leadership and invest in our ability to out-compete China in 
the generation ahead.
    That is why today I have joined with a number of my 
Democratic colleagues to introduce the America LEADS Act. This 
bill seeks to do three things: invest in American 
competitiveness, invest in American alliances and partners, 
invest in our values, and invest, I would add, in our economic 
statecraft and ensure China pays a price for its predatory 
actions.
    America LEADS provides a comprehensive and coherent 
strategy and strategic approach for addressing the new 
competitive U.S.-China relationship, and defines policies and 
allocate critical resources that combine and mobilize all 
aspects of U.S. national power, starting with the recognition 
that American competitiveness starts with investments here at 
home--in our workers, in education, in science and technology, 
and in innovation--and driven by the need, after almost 4 years 
of destruction under President Trump, to retool the U.S. 
economy and workforce to compete in the 21st century. The 
broader diplomatic and security architecture of our strategic 
approach in America LEADS is grounded in getting China right by 
first getting the Indo-Pacific strategy right, centered in our 
alliances and partnerships, animated by the values that make 
America exceptional, and furthered by a forward-leaning 
approach to our economic statecraft and a tough, pragmatic, and 
realistic appraisal of how to best combat China's predatory 
economic and trade policies.
    Critically, and relevant to today's hearing, the 
legislation also includes provisions for the development and 
implementation of robust regional strategies to meet the 
challenge that China poses in Europe, the Western Hemisphere, 
Africa, the Middle East, the Arctic, and, of course, the Indo-
Pacific itself. I know the Chairman has China-centered 
legislation, as well, that addresses many similar issues. And, 
as we discussed at the hearing with Mr. Biegun the other month, 
I look forward to working with him on areas of convergence 
between our bills to forge a strong, unified, and bipartisan 
approach on this issue.
    Turning more specifically to the hearing today, I am very 
interested in hearing from Ambassador Reeker and Ms. Chung to 
get a sense of their perspective on where we stand in their 
respective regions of responsibility, Europe and Western 
Hemisphere. There is a lively debate across EU countries, and 
between Europe and the United States, on the right approach to 
China. So, as we are here in the U.S.--so, as we here in the 
U.S. fully come to grips with developing the right policy, our 
friends in Europe should be among our closest partners.
    I do not know that anyone would argue that the President's 
destructive approach to the transatlantic relationship has made 
our efforts to advance a joint agenda on China any easier. 
Imposing tariffs on our allies is not a good recipe for 
success. Personally and publicly insulting leaders across 
Europe is not a recipe for success. An essential building block 
of our China response must have at its core a strong 
transatlantic alliance, which today, of course, does not exist 
as it has in the past.
    And, for too long, the U.S. has sought to pressure Europe 
without providing real alternatives to China. 5G is perhaps the 
best example where the United States did not adequately 
emphasize European alternatives to Huawei while simply 
pressuring our allies. That sort of approach is not sustainable 
for forging a joint strategy on China.
    But, even within the strained confines of President Trump's 
idea of transatlantic relations, we have to endeavor to make 
progress. I welcome the call by EU's Josep Borrell for a U.S.-
EU Working Group on China. That is an important first step. The 
details will matter to ensure that it is not just another talk 
shop, and I look forward to hearing more about this initiative 
from Ambassador Reeker.
    The power of the American economy and European economy, 
working together, provides formidable negotiating leverage, 
vis-a-vis China. In fact, it may be the sole factor that truly 
moves the needle with Beijing. We should be laser focused in 
enhancing that leverage to the fullest extent possible.
    Here in our own hemisphere, U.S. diplomatic and economic 
engagement and China's presence need not be viewed through the 
solitary lens of a zero-sum game. However, when we fail to show 
up, as, under President Trump, we have, we should not be 
surprised that China's influence expands at our expense. And 
the President's misguided belief that every challenge needs to 
be solved with a sledge hammer, whether it was placing punitive 
tariffs on our North American neighbors or cutting foreign 
assistance off to our Central American partners, has only 
inflicted damage on the very relationships we need to counter 
the more corrosive elements of China's engagement in our 
hemisphere. And, frankly, the Trump administration's results 
speak for themselves.
    Since 2017, at a rate of one per year, Panama, the 
Dominican Republic, El Salvador have broken diplomatic 
relations with Taiwan at the behest of Beijing. In Venezuela, 
utilizing the ZTE surveillance technology in the form of the 
``carnet de la patria,'' the Maduro regime has expanded its 
social control over the Venezuelan people, and remains firmly 
in control of its criminal cabal. When our allies in Canada 
rightfully arrested Huawei CFO Meng Wanzhou for extradition to 
the United States, the Trump administration responded with 
little more than press statements as Beijing placed tariffs on 
Canadian trade and kidnapped Canadian citizens under fabricated 
criminal charges.
    And, most recently, as Latin America and the Caribbean has 
become the epicenter of the global COVID-19 pandemic, the Trump 
administration has overpromised and under-delivered on 
coronavirus assistance, while China's government committed a 
billion dollars in new lending to governments in the region for 
vaccine access and delivery.
    And the Development Finance Corporation, which Congress 
stood up precisely to provide a new and reinvigorated approach 
to international finance and development assistance, in part so 
that we could better compete with China, has yet to make 
significant investments in our own hemisphere.
    When it comes to addressing China's presence in our 
hemisphere, the Trump administration's rhetoric has outpaced 
its actions, and its attempts at swagger have surpassed the 
need for substance. We must course-correct. That is why, last 
month, I was proud to introduce the Advancing Competitiveness, 
Transparency, and Security in the Americas, with Senators 
Rubio, Cardin, Cruz, and Kaine. This groundbreaking bipartisan 
bill will strengthen U.S. diplomatic, economic, and security 
assistance in the Americas and help our closest partners 
acquire the tools they need to defend their national interests 
from China's predatory practices.
    Given the shortcomings of President Trump's ``all bluster 
and tactics, no strategy'' approach to China in Europe, in the 
Western Hemisphere, and elsewhere, it is more and more clear by 
the day that we need a real strategy to cope with the 
competitive challenge of China.
    So, I look forward to a genuine conversation with our 
witnesses about how we can work together to develop a 
comprehensive approach to China, to reset our strategy and 
diplomacy, to reinvest and replenish the resources of our 
national strength and competitiveness at home, to place our 
partnerships and allies first, that reflects our fundamental 
values as Americans.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Menendez follows:]

             Prepared Statement of Senator Robert Menendez

    Mr. Chairman, my thanks for convening today's hearing. As you and I 
have discussed, we share a common view that we have entered a new and 
more competitive era with China . . . a China now displaying global 
ambitions . . . and where I think many on this Committee have concerns 
that the Administration's strategies and policies to deal with this new 
China still fall well short of answering the enormity of the challenge.
    China today, led by the Communist Party and propelled by Xi 
Jinping's hyper-nationalism is unlike any challenge we have faced as a 
nation before--and as we will have an opportunity to discuss today 
China today is also more active and more assertive around the globe 
than ever before.
    And unfortunately, during the last 4 years, the Trump agenda has 
served to only empower Chinese aggression, weaken U.S. influence, and 
fail American workers. This moment demands a strong, strategic response 
that can begin to rebuild American leadership and invest in our ability 
to out-compete China in the generation ahead.
    That is why today I have joined with a number of my Democratic 
colleagues to introduce the America LEADS Act. This bill seeks to do 
three things: (1) invest in American competitiveness; (2) invest in 
American alliances and partners; (3) invest in our values, and (4) 
invest in our economic statecraft and ensure China pays a price for its 
predatory actions.
    America LEADS provides a comprehensive and coherent strategic 
approach for addressing the new, competitive, U.S.-China relationship 
and to define policies and allocate critical resources that combine and 
mobilize all aspects of U.S. national power--starting with a 
recognition that American competitiveness starts with investments here 
at home--in our workers, in education, in science and technology, and 
in innovation . . . and driven by the need, after almost 4 years of 
destruction under President Trump, to re-tool the U.S. economy and 
workforce to compete in the twenty-first century.
    The broader diplomatic and security architecture of our strategic 
approach in America LEADS is grounded in getting China right by first 
getting the Indo-Pacific strategy ``right,'' centered on our alliances 
and partnerships, and animated by the values that make America 
exceptional, and furthered by a forward-leaning approach to our 
economic statecraft and a tough, pragmatic and realistic appraisal of 
how to best combat China's predatory economic and trade practices.
    Critically, and relevant to today's hearing, the legislation also 
includes provisions for the development and implementation of robust 
regional strategies to meet the challenge that China poses in Europe, 
the Western Hemisphere, Africa, the Middle East, the Arctic, and, of 
course, the Indo-Pacific itself.
    I know the Chairman has China-centered legislation as well that 
addresses many similar issues, and, as we discussed at the hearing with 
Mr. Biegun the other month I look forward to working with him on the 
areas of convergence between our bills to forge a strong, unified, and 
bipartisan approach on this issue.
    Turning more specifically to the hearing today, I am very 
interested in hearing from Ambassador Reeker and Ms. Chung to get a 
sense of their perspective on where we stand in their respective 
regions of responsibility, Europe and the Western Hemisphere.
    There is a lively debate across EU countries--and between Europe 
and the United States--on the right approach to China. So as we here in 
the U.S. fully come to grips with developing the right policy, our 
friends in Europe should be among our closest partners.
    I don't know that anyone would argue that the President Trump's 
destructive approach to the transatlantic relationship has made our 
efforts to advance a joint agenda on China any easier. Imposing tariffs 
on our allies is not a good recipe for success. Personally and publicly 
insulting leaders across Europe is not a recipe for success. An 
essential building block of our China response must have at its core a 
strong transatlantic alliance. Which today of course does not exist.
    And for too long, the U.S. has sought to pressure Europe without 
providing real alternatives to China. 5G is perhaps the best example 
where the U.S. did not adequately emphasize European alternatives to 
Huawei while simply pressuring our allies. That sort of approach isn't 
sustainable for forging a joint strategy on China.
    But even within the strained confines of President Trump's idea of 
transatlantic relations, we must endeavor to make progress. I welcome 
the call by the EU's Joseph Borrell for a U.S.-EU working group on 
China. This is an important first step. The details will matter to 
ensure that it is not just another talk shop and I look forward to 
hearing more about this initiative from Ambassador Reeker.
    The power of the American economy and European Union economy 
working together provides formidable negotiating leverage vis a vis 
China. In fact, it may be the sole factor that truly moves the needle 
with Beijing. We should be laser focused in enhancing that leverage to 
the fullest extent possible.
    Here in our own hemisphere, U.S. diplomatic and economic engagement 
and China's presence need not be viewed through the solitary lens of a 
zero-sum game. However, when we fail to show up--as under President 
Trump we have--we should not be surprised that China's influence 
expands at our expense. And the President's misguided belief that every 
challenge needs to be solved with a sledgehammer--whether it was 
placing punitive tariffs on our North American neighbors or cutting off 
foreign assistance to our Central American partners--has only inflicted 
damage on the very relationships we need to counter the more corrosive 
elements of China's engagement in our hemisphere.
    And, frankly, the Trump administration's results speak for 
themselves.
    Since 2017, at a rate of one per year, Panama, the Dominican 
Republic, and El Salvador have broken diplomatic relations with Taiwan 
at the behest of Beijing.
    In Venezuela, utilizing ZTE's surveillance technology in the form 
of the Carnet de la Patria, the Maduro regime has expanded its social 
control over the Venezuelan people and remains firmly in control of its 
criminal cabal.
    When our allies in Canada rightfully arrested Huawei CFO Meng 
Wanzhou for extradition to the United States, the Trump administration 
responded with little more than press statements as Beijing placed 
tariffs on Canadian trade and kidnapped Canadian citizens under 
fabricated criminal charges.
    And, most recently, as Latin America and the Caribbean has become 
the epicenter of the global COVID-19 pandemic, the Trump administration 
has over-promised and under-delivered on coronavirus assistance, while 
China's government committed $1 billion in new lending to governments 
in the region for vaccine access and delivery.
    And the Development Finance Corporation, which Congress stood up 
precisely to provide a new and reinvigorated approach to international 
finance and development assistance in part so that we can better 
compete with China, has yet to make significant investments in our own 
hemisphere.
    When it comes to addressing China's presence in our hemisphere, the 
Trump administration's rhetoric has outpaced its actions and its 
attempts at swagger have surpassed the need for substance. We must 
course correct.
    That's why last month, I was proud to introduce the Advancing 
Competitiveness, Transparency, and Security in the Americas with 
Senators Rubio, Cardin, Cruz, and Kaine. This groundbreaking bipartisan 
bill will strengthen U.S. diplomatic, economic, and security assistance 
in the Americas, and help our closest partners acquire the tools they 
need to defend their national interests from China's predatory 
practices.
    Given the shortcomings of President Trump's ``all bluster and 
tactics, no strategy'' approach to China in Europe, in the Western 
Hemisphere, and elsewhere, it is more and more clear by the day that we 
need a real strategy to cope with the competitive challenge of China . 
. . so I look forward to a genuine conversation with our witnesses 
about how we can work together to develop a comprehensive approach to 
China . . . to reset our strategy and diplomacy . . . to reinvest and 
replenish the sources of our national strength and competitiveness at 
home . . . to place our partnerships and allies first . . . and that 
reflects our fundamental values as Americans.
    Thank you, Mr. Chairman.

    The Chairman. We will now turn to our first witness.
    David Stilwell is the Assistant Secretary of State for the 
Bureau of East Asian and Pacific Affairs. Prior to his 
appointment as Assistant Secretary, he served in the Air Force 
for 35 years. He retired in 2015, with the rank of brigadier 
general, as the Asia Advisor to the Chairman of the Joint 
Chiefs. He served multiple tours of duty in Japan and Korea, 
and with the Defense Attache at the U.S. Embassy in Beijing. 
Most recently, he served as the Director of the China Strategic 
Focus Group at U.S. Indo-Pacific Command in Hawaii.
    Assistant Secretary Stilwell, we welcome you. The floor is 
yours.

 STATEMENT OF HON. DAVID R. STILWELL, ASSISTANT SECRETARY FOR 
   EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Stilwell. Thank you, Chairman Risch, Ranking Member 
Menendez, and members of the Foreign Relations Committee.
    We appreciate the opportunity to testify before this 
committee to discuss the threat posed by the Chinese Communist 
Party, that threat to the United States and the global order, 
and what we are doing about it.
    I am here to tell you--today with several Department 
colleagues. The fact that the three of us are testifying on CCP 
malign influence across three different geographic regions is a 
testament to the global challenge we face and how the 
Department is adjusting to meet this challenge.
    For years, we and the international community credited 
Beijing's commitments that facilitating China's entry into the 
rules-based international order would lead to increasing 
domestic reform and opening. Beijing's persistent flouting of 
these commitments has shattered those illusions. It is now 
clear to us, and to more and more countries around the world, 
that PRC foreign and security policy seeks to reshape the 
international environment around the narrow interests and 
authoritarian values of a single beneficiary; that is, the 
Chinese Communist Party.
    Beijing's malign conduct is increasingly being noticed: 
bullying behavior of foreign companies and governments, 
manipulation of international organizations, silencing critics 
abroad, buying, stealing, or forcing tech transfers, spreading 
disinformation, egregious human rights abuses, stabilizing--or 
destabilizing territorial revisionism. Beijing's cover-up of 
the outbreak of COVID-19 especially highlighted the global 
dangers of the CCP's lack of transparency and use of 
disinformation.
    Today, we are engaging with the Chinese Communist Party as 
it is, and not as we wish it would be or as it seeks to present 
itself rhetorically. Our competition with the People's Republic 
of China need not lead to conflict. In fact, by competing, we 
are restoring balance and stability in areas where the United 
States and the world previously allowed Beijing to foment 
imbalance and instability.
    At the State Department, our China policy efforts are 
guided by the 2017 National Security Strategy and grouped 
around four pillars laid out in that Strategy: protect American 
people, homeland, and way of life; promote American prosperity; 
preserve peace through strength; and advance American 
influence. We have organized to ensure that all our officers 
have sufficient policy clarity, training, resources, data, and 
messaging direction to successfully tackle the China challenge. 
This has meant breaking down bureaucratic barriers, shifting 
resources, and developing new coordination mechanisms. We have 
developed new data-driven diplomacy tools to give our officers 
the information and analysis they require. We have asked all of 
our posts to designate officers to focus specifically on China 
policy portfolio. In response, they have drastically increased 
their diplomatic reporting on CCP activities and influence. We 
are also tripling our cadre of forward-deployed, regionally-
focused China experts who support our posts and identify 
regional trends in Chinese Communist Party behavior.
    In the information space, the battle against CCP malign 
activities requires messaging that is well-informed, well-
crafted, and well-executed around the world. Our public 
diplomacy teams work with the Bureau of Global Public Affairs 
and the Global Engagement Center to promote a positive vision 
of U.S. leadership, expose PRC malign conduct, and counter 
propaganda and disinformation.
    In the economic sphere, PRC state-led lending and 
investment distorts markets, encourages corruption, and creates 
an uneven playing field for American companies and local 
competitors. We are on the forefront of raising global 
awareness about this. With bipartisan congressional support, we 
and other agencies are deploying new and innovative mechanisms 
in key areas, including strategic infrastructure, energy, 
commercial competition, and investment screening.
    In the technology arena, we have taken important measures 
to deny the PRC the ability to acquire sensitive technologies 
to further its mil-civ strategy. These measures include 
ensuring PLA-affiliated STEM students and researchers are not 
able to enter the United States for graduate-level study in 
fields related to military modernization and informing 
universities of the risks of partnering with PRC institutions.
    For over 2 years, we have called on countries to secure 
their 5G networks from untrusted vendors, and more and more 
countries and companies are doing--and companies are doing just 
that. Last month, Secretary Pompeo announced the Clean Networks 
Initiative, focused on safeguarding citizens' privacy and 
companies' most sensitive information from manipulation or 
disruption by foreign adversaries, including via apps in app 
stores, cloud service providers, and undersea cables. We are 
also bringing transparency and reciprocity to Beijing's vectors 
of malign influence, including propaganda outlets, Confucius 
Institutes, United Front organizations, state-owned 
enterprises, and more. Since February, we have designated as 
foreign missions the U.S.-based operations of nine propaganda 
outlets and the Confucius Institutes U.S. Center. In March, we 
capped the number of PRC nationals allowed to work at these 
designated state media outlets. In July, we closed the PRC 
consulate in Houston due to serious concerns about the 
inappropriate activities of its diplomats. We now require 
senior PRC diplomats to seek permission before many meetings, 
large events, and visits to academic institutions, as Beijing 
has long done to our diplomats in China.
    In support of these efforts, we sincerely appreciate 
congressional leadership in establishing the new Counter China 
Influence Fund in Fiscal Year 2020 appropriations bill. This 
very important provision provides the Department with a 
flexible mechanism that will bolster our efforts to strengthen 
our partners' resiliency to Chinese malign influence worldwide. 
The initial round of CCIF funding solicitation resulted in over 
400 project submissions from around the globe, with demand far 
outstripping the appropriated funding.
    If I can just continue, there is a lot to go over, here.
    Turning to the broader region, the resilience and strength 
of our global alliances and partnerships is paramount to 
addressing strategic competition with China, and in no region 
is this more true than the Indo-Pacific. Our Indo-Pacific 
vision is about supporting the sovereignty, autonomy, and 
pluralism of Indo-Pacific states facing Beijing's attempts to 
dominate the region. We support a region that is open to trade 
and investment, free from coercion, and secure. The United 
States and a diverse cohort of allies and partners now speak 
clearly in terms of the Indo-Pacific.
    Similar concepts have been put forward by Japan, India, 
Australia, Taiwan, and South Korea, as well as by ASEAN in the 
ASEAN Outlook for the Indo-Pacific, showing remarkable 
alignment across our partners. We advanced our economic 
initiatives in lockstep with our allies and partners in areas 
like high-standard infrastructure, energy security, investment 
screening, and many more. We are strengthening commercial 
diplomacy to boost alternatives to PRC predatory economics that 
leaves countries saddled with unsustainable debt and vulnerable 
to political and economic pressure.
    To promote good governance, we launched the Indo-Pacific 
Transparency Initiative, 2 years ago, which has programs 
focused on particular vectors of PRC influence, including 
corruption, disinformation, and information control, and 
coercive financing.
    We are reinforcing our security commitments. Security 
assistance helps partners protect their sovereignty and 
maritime resources. We have doubled development assistance to 
Pacific island partners through the Pacific Pledge. We are 
developing new arrangements to coordinate with like-minded 
partners. In September 2019, the first quad ministerial-level 
meeting of the United States, Australia, India, and Japan 
marked a new milestone in Indo-Pacific diplomatic engagement.
    Respecting Taiwan, our U.S. commitment to implementing the 
Taiwan Relations Act and the Six Assurances is firm, as is our 
commitment to the one-China policy, including our insistence 
that cross-Strait issues be resolved peacefully, without 
coercion or intimidation. Recent visit by Secretary Azar 
demonstrates that the United States will work with Taiwan on 
vital issues, such as global health. Upcoming dialogues will 
further advance our robust economic ties. We will also continue 
to vigorously support Taiwan's meaningful participation in 
international organizations.
    On the South China Sea, Secretary Pompeo, this summer, 
announced a change in U.S. policy on maritime claims, making 
clear that Beijing's claims to offshore resources across most 
of the South China Sea are unlawful, as is its campaign of 
bullying to control them. Last month, the Secretary also 
announced visa restrictions for employees of PRC state-owned 
enterprises involved in South China Sea militarization, 
including the China Communications Construction Company. This 
was coordinated with Department of Commerce additions to the 
Entity List.
    In all of our efforts, outreach to other countries is 
critical, and we are seeing results. Dozens of countries have 
now taken action to restrict untrusted Beijing-linked vendors 
from their 5G networks. We have also seen stricter investment 
screening mechanisms in the EU and more than a dozen other 
countries. Some 54 countries came together to deny the PRC 
candidate to the top leadership position in the World 
Intellectual Property Organization. Twenty-three countries 
joined us in cosigning a joint event on Xinjiang at the U.N. 
Third Committee. More and more countries are taking action 
against Confucius Institutes, United Front organizations, and 
propaganda outlets. We have released several joint statements 
on Hong Kong with allies and partners, many of whom have 
suspended extradition treaties with Hong Kong and imposed 
export controls. We are encouraging all countries to push for 
transparency and reciprocity in the relations with the PRC, and 
to expose and counter CCP vectors of influence and 
interference, including by PRC state media personnel, 
diplomats, PLA researchers, and state enterprise and employees, 
and others.
    In conclusion, the United States continues to have an 
important relationship with the PRC, as do most countries in 
the world. We are not asking countries to choose between the 
United States and China, but to hold Beijing accountable for 
its malign behavior and, in the process, to protect their own 
national sovereignty, security, and long-term economic well-
being. We are asking the international community to join us in 
standing up for universal rights and the rules-based 
international system, and have provided for the world's 
collective peace, security, and prosperity for generations. We 
are making great strides toward this goal, and we deeply 
appreciate this committee's support to our continued efforts.
    Thank you.
    [The prepared statement of Mr. Stilwell follows:]

                Prepared Statement of David R. Stilwell

    Chairman Risch, Ranking Member Menendez, and Members of the 
Committee: Thank you for the opportunity to testify before the 
Committee to discuss the threat posed by the Chinese Communist Party 
(CCP) to the United States and the global order, and what we are doing 
about it. I am joined by my Department colleagues, PDAS Julie Chung 
from our Bureau of Western Hemisphere Affairs, and A/S Philip Reeker 
from our Bureau of European and Eurasian Affairs. The fact that the 
three of us are testifying on CCP malign influence, representing three 
different geographic regions, is a testament to the global challenge we 
face and how the Department is adjusting to meet this challenge.
    As Secretary Pompeo has repeatedly said, China is the first foreign 
policy challenge he thinks about each morning. Every one of us at the 
Department of State is focused on succeeding in this critical effort. I 
will center my testimony on an overview of our China policy, the CCP's 
actions globally and how State is responding, and then focus 
specifically on what we are doing in the East Asia and Pacific region.
                            how we got here
    For years, we and the international community operated under the 
assumption that facilitating China's entry into the rules-based 
international order would lead to increasing domestic reform and 
opening. We agreed that China, under the CCP, would abide by its 
international commitments at the WTO and elsewhere. The persistent 
flouting of these commitments, increasing under President Xi Jinping, 
demonstrated that it has failed to meet those expectations. It is now 
clear to us, and to more and more countries around the world, that the 
CCP under General Secretary Xi Jinping is not seeking to join the free 
and open international order we and our allies and partners have fought 
and died to defend for generations. Instead, PRC foreign and security 
policy seeks to disrupt and reshape the international environment 
around the narrow self-centered interests and authoritarian values of a 
single beneficiary, the Chinese Communist Party.
    Today we are engaging with the Chinese Communist Party as it is, 
not as we wish it to be, or as it seeks to present itself rhetorically. 
Secretary Pompeo summed up this strategic shift in his October 30, 2019 
speech: ``It is no longer realistic to ignore the fundamental 
differences between our two systems and the impact that . . . the 
differences in those systems have on American national security . . . 
Today, we are finally realizing the degree to which the Communist Party 
is truly hostile to the United States and our values.'' This requires a 
clear-eyed view of the CCP's motives and actions around the world, not 
only by the U.S. government, but by our companies, our institutions, 
and by our citizens. And to be truly successful in this effort, it 
requires that we work together with our allies and partners around the 
world to recognize and meet the CCP challenge.
    We must also be clear what is at stake: The United States has 
maintained a position of global leadership for generations because our 
actions have benefited countless nations around the world and 
strengthened the international system. The CCP is now using any and all 
means to undermine the international rules-based order and project 
power across the world, especially in the Indo-Pacific region. All 
nations should worry how this outcome would negatively affect the 
global community and the values we share.
                       increasing ccp aggression
    A few months ago, as the world was coming to grips with the reality 
of the global pandemic, one of China's leading virologists warned that 
the coronavirus was ``just the tip of the iceberg.'' She was speaking 
as an epidemiologist and urging a global response to prevent future 
outbreaks, but that analogy is a useful way to think about CCP 
aggression and malign activities globally.
    For each visible example of CCP malign activity worldwide, there 
are many more lurking beneath the surface. Part of our job in the 
Department, and especially in the EAP Bureau, is to help bring more of 
that iceberg into the open for other nations to see the CCP for what it 
truly is--an aggressive, autocratic, ambitious, paranoid, hostile 
threat to free and open societies and the free and open international 
order.
    Beijing's aggressive behavior takes many forms, including assaults 
on foreign companies and governments; manipulation of international 
organizations; silencing of critics abroad; buying, stealing, or 
forcing the transfer of technology to further its military and economic 
ambitions; and spreading disinformation. Beijing's cover-up of the 
outbreak of COVID-19 has made urgently clear to the international 
community the dangers of the CCP's lack of transparency and use of 
disinformation to global health and security. This is not an 
aberration; this is a reflection of how the CCP operates.
    The past several months alone have seen particularly egregious 
examples of Beijing's conduct: violence on the border with India; 
aggressive moves in the South China Sea and around Taiwan and the 
Senkakus; a push to wipe out Mongolian and Tibetan culture and language 
in China; and a continued campaign of repression and forced labor in 
Xinjiang. Australian journalists have fled China due to harassment by 
security services. Beijing unilaterally imposed a draconian National 
Security Law in Hong Kong, including clauses that allow the PRC to 
issue extraterritorial arrest warrants for those criticizing the 
government while in other countries. These are not the actions of a 
responsible global actor but a lawless bully.
                       how our policy has changed
    At the Department of State, we are working hard every day to 
counter the CCP's malign activities around the world. In implementing 
the President's 2017 National Security Strategy, we are pushing back on 
revisionist powers, such as the PRC, who use technology, propaganda, 
and coercion to shape a world antithetical to our interests and values. 
We are holding the CCP to its commitments, both to us and to global 
rules, norms, and organizations. We will call them out publicly when 
they fall short. And we will vigorously defend our interests and those 
of our friends and allies when they are threatened. Not since the Cold 
War have we focused our efforts so intently on a single foreign policy 
challenge, and I can assure you we are firing on all cylinders across 
the full spectrum of the China challenge.
    Let me be clear: The American and Chinese people have close ties 
going back generations, and we continue to welcome Chinese students, 
visitors, investors, and immigrants. We have an important relationship 
with China, as do most countries in the world. We are not asking 
countries to choose sides, but rather to stand up to protect their own 
national sovereignty, security, values, and economic well-being. We are 
also asking the international community to join us in standing up for 
the international rules, norms, and organizations that have provided 
for our collective peace, security, and prosperity for generations.
    This clear-eyed approach to China means we are insisting on 
reciprocity across the entirety of our relationship, from trade and 
investment to visas and diplomatic access. We will continue to uphold 
the rights and freedoms the United States has always stood for, whether 
exposing human rights abuses in Xinjiang and Tibet, fighting for press 
freedom, or supporting individual freedoms and democratic processes in 
Hong Kong.
    Our competition with the People's Republic of China need not lead 
to conflict. In fact, by competing, we are restoring balance and 
stability in areas where the United States and the world previously 
allowed Beijing to foment imbalance and instability, to the detriment 
of us all. We will also seek to cooperate with China in those areas 
where our interests align, and remain committed to achieving progress 
on a broad range of topics, including resolving trade inequities, 
achieving DPRK denuclearization, and stemming the deadly, unacceptable 
flow into the United States of fentanyl, whether manufactured in China 
or made elsewhere with Chinese precursors.
              internal policy framework and reorganization
    Our China policy efforts at the Department of State are guided by 
the 2017 National Security Strategy (NSS) and grouped around the four 
pillars laid out in that strategy: 1) protect the American people, 
homeland, and way of life; 2) promote American prosperity; 3) preserve 
peace through strength; and 4) advance American influence. On May 20, 
the White House published a report on the United States Strategic 
Approach to the People's Republic of China detailing efforts across the 
government.
    Within the State Department, we have organized to ensure that all 
of our bureaus, offices, and posts around the world have sufficient 
policy clarity, training, resources, data, and messaging direction to 
successfully tackle the China challenge in their areas of operation. 
This has meant breaking down bureaucratic barriers, shifting resources, 
and developing new coordination mechanisms.
    I co-chair a new coordination body with all of our regional and 
functional bureaus to coordinate our lines of effort on China policy 
across the Department. Other agencies also coordinate on these lines of 
effort. The mechanism has a special focus on bringing together the 
policy and messaging sides of the house to ensure the two are working 
hand in glove. We've also asked all of our posts around the world to 
designate reporting and public diplomacy officers to focus specifically 
on the China policy portfolio in their host country, and to ensure 
posts' interagency leadership teams are sufficiently focused and 
coordinated on our number one foreign policy challenge.
    On the analytical side, we've developed new data-driven diplomacy 
tools to give our officers the information and analysis they require. 
Our posts have also drastically increased their diplomatic reporting on 
CCP activities and influence in every country, providing a trove of 
additional information to inform our understanding of the China 
challenge. We're also tripling our cadre of forward-deployed, 
regionally focused China experts, who play a critical role in 
supporting our posts and identifying regional trends in CCP behavior.
              general state department china policy areas
Public Diplomacy and Counter Propaganda and Disinformation
    The battle against CCP malign activities requires messaging that is 
well-informed, well-crafted, and well-executed all around the world. 
Accordingly, our public diplomacy teams are working in partnership with 
the Bureau of Global Public Affairs and the Global Engagement Center 
(GEC) to promote a positive vision of U.S. leadership, expose malign 
conduct, and counter propaganda and disinformation.
    From the Secretary on down, all of our leaders and public diplomacy 
practitioners are empowered to convey these messages. Our Ambassadors 
in the field across all geographic regions have been particularly 
effective in taking this challenge on. The Bureau of Global Public 
Affairs (GPA) supports our team in the field by regularly disseminating 
topline messages and senior leader statements. GPA also publishes 
original content that describes American values and contrasts CCP 
behavior with global norms.
    The GEC has significantly expanded its work on the China challenge 
over the last year. GEC works in partnership across the Department, our 
posts overseas, the NSC, and relevant departments and agencies to 
coordinate strategies and tactics. GEC's efforts to counter CCP 
propaganda include increasing awareness of the problematic aspects of 
the One Belt One Road initiative, human rights abuses in Xinjiang, 
Tibet, and elsewhere in China, and Beijing's abuse of open research and 
academic environments to achieve its military objectives. GEC programs 
build global resilience to PRC disinformation through media training 
and other support to investigative journalists and to map PRC influence 
in the information environment to guide current and future approaches.
    The GEC also supports efforts to provide accurate information about 
U.S. policies and contributions of U.S. businesses to local communities 
to restrict the space where CCP propaganda can take root. Across the 
Department, we leverage GEC's analytical tools and networks of credible 
partners and local voices overseas.
Economic Actions
    Globally, one of the CCP's most insidious and powerful influence 
vectors is its economic clout, which it uses as leverage in other 
strategic areas. PRC state-led lending and investment often distort 
markets, encourage corruption, avoid transparency, and create an uneven 
playing field for American companies and local competitors. PRC 
initiatives like ``One Belt One Road'' seek to fuse Beijing's economic 
and strategic goals to the detriment of host country sovereignty, 
security, and sustainable economic growth. The United States has been 
on the forefront of raising global awareness about the dangers of this 
type of PRC lending and investment.
    The United States levels the playing field for American companies 
by promoting free enterprise and transparent, private sector investment 
through improved market access and competitiveness and increased 
business-to-business ties. With bipartisan congressional support, the 
United States Government is deploying new and innovative mechanisms in 
key areas:

  <bullet> Strategic Infrastructure: The Department works across the 
        U.S. Government to maximize resources to attract more private 
        sector investment into emerging markets, such as through the 
        Development Finance Corporation (DFC) and USAID. The 
        Infrastructure Transaction and Assistance Network (ITAN) is 
        another great example of this. This group of 11 agencies has 
        identified and advanced more than $125 billion in 
        infrastructure deals in the Indo-Pacific. We have launched 
        complementary efforts like the Strategic Ports Initiative to 
        focus on infrastructure that is critical to U.S. interests.

  <bullet> Energy Sector: Programs like Asia EDGE, Power Africa, and 
        America Crece advance the energy security of partners and 
        create new markets for U.S. liquefied natural gas (LNG).

  <bullet> Blue Dot Network: The Blue Dot Network, or BDN, launched at 
        the Indo-Pacific Business Forum in November 2019 with partners 
        Japan and Australia, is a multi-stakeholder initiative to 
        certify quality infrastructure investment projects.

  <bullet> Deal Teams: Through the Deal Team initiative launched by the 
        Departments of State and Commerce in February, we are improving 
        interagency collaboration at posts and between our overseas 
        missions and Washington, to help U.S. firms win projects abroad 
        against firms that use unfair practices to capture contracts.

    We also seek to equip states to resist coercive economic practices, 
unsustainable debt burdens, and other dangers:

  <bullet> Investment Screening Outreach: The Department works closely 
        with the Treasury Department to encourage foreign governments 
        to implement investment-screening mechanisms that are rigorous, 
        transparent, and national-security focused.

  <bullet> Debt Service Suspension Initiative: The United States is 
        faithfully implementing the G20-Paris Club Debt Service 
        Suspension Initiative (DSSI) by suspending official bilateral 
        debt payments from the poorest countries to year-end 2020. This 
        provides countries fiscal space to fund social, health, and 
        other measures to respond to the pandemic. With partners, the 
        World Bank, and the IMF, we are leveraging the DSSI to increase 
        debt transparency and tackle opaque and unsustainable PRC 
        lending.
Military-Civil Fusion and Sensitive Tech
    Through its Military-Civil Fusion development strategy the PRC is 
working to ``fuse'' its economic and social development strategies with 
its security strategies to build an integrated national strategic 
system and capabilities in support of Beijing's goals. In doing so the 
PRC exercises subterfuge in its international economic and academic 
collaboration, as well as in its investments in key advanced, 
sensitive, and emerging technologies. The PRC's intent is to divert 
technology acquired through civilian trade and/or exchanges--including 
through both licit and illicit means--to military end uses. The PRC 
seeks to render ineffective traditional U.S. tools to protect our 
economy, such as export controls, visa screening, and investment 
screening for proliferation risk.
    The Department has taken important measures to safeguard our 
critical infrastructure and technology and deny the PRC the ability to 
target and acquire sensitive technologies in the United States to 
further its military and commercial capabilities. These included the 
suspension of entry of certain PRC students and researchers seeking J 
and F visas for work in fields relevant to military modernization.
    For over 2 years, the United States has called on countries around 
the world to secure their 5G networks from untrusted vendors, such as 
the PRC's Huawei and ZTE. On April 29, Secretary Pompeo announced the 
5G Clean Path initiative to protect the voice and data traversing 5G 
standalone digital cellular telecommunications systems and networks 
that service U.S. diplomatic communications at home and abroad. More 
and more countries and companies around the world are putting in place 
strong measures to secure their 5G networks.
    But 5G infrastructure is only one part of a broader 
telecommunications and emerging technology landscape and these same 
risks of untrusted vendors subject to the unchecked powers of 
compulsion of authoritarian states like the PRC apply across this 
ecosystem. To address this broader threat, on August 5 Secretary Pompeo 
announced the Clean Network initiative, a comprehensive approach to 
safeguarding citizens' privacy and companies' most sensitive 
information from manipulation or disruption by foreign adversaries. 
This Department and interagency effort addresses important and 
previously overlooked technology areas including apps and app stores, 
cloud services providers, and undersea cables.
Combatting Malign Influence
    Malign CCP influence manifests itself through a diversity of 
organizations, from PRC diplomatic missions to propaganda outlets, 
Confucius Institutes, United Front organizations, state-owned 
enterprises and more.
    On the media front, since February we have designated the U.S.-
based operations of nine PRC propaganda outlets--including Xinhua, 
People's Daily, and China Global Television Network--as foreign 
missions. In March, we capped the number of PRC nationals allowed to 
work at these designated state media outlets to more closely match the 
number of independent American journalists Beijing allows to operate in 
the PRC.
    We have likewise designated the Confucius Institutes U.S. Center 
(CIUS) as a foreign mission. While claiming no other aim than to teach 
Americans about Chinese language and culture, the Confucius Institutes 
also promote the Chinese Communist Party's agenda and subvert academic 
freedom.
    We must recognize these entities for what they are--organizations 
under Beijing's control and vectors for CCP propaganda and influence. 
Americans should know that they are not independent media or simple 
educational institutions. We are also encouraging social media 
companies to label PRC official media accounts clearly so that everyone 
recognizes them as propaganda tools of the CCP. In July, we closed the 
PRC Consulate in Houston due to serious concerns about the 
inappropriate activities of its diplomats. We now require senior PRC 
diplomats to seek permission for many meetings, large events, and 
visits to academic institutions. Of course, the longstanding barriers 
that Beijing imposes on U.S. diplomats in China remain far more severe.
    We appreciate Congressional leadership in establishing the new 
Counter Chinese Influence Fund (CCIF) in the FY 2020 appropriations 
bill. This very important provision provides the U.S. interagency with 
a flexible mechanism that will bolster our efforts to strengthen our 
partners' resiliency to China's malign influence worldwide.
    The Director of Foreign Assistance at the State Department is 
currently leading the effort to review proposals from Washington and 
posts around the world. The Department and USAID are prioritizing 
proposals in four areas: Commercial Engagement, Good Governance, 
Promoting Security and Resilience, and Winning the Technology 
Competition. There is strong demand from the field. The initial round 
of CCIF funding solicitation resulted in over 400 project submissions 
from around the globe, with demand far outstripping the appropriated 
funding. Initial allocation decisions are planned by early October.
Hong Kong
    We have led the global response to the PRC's crackdown in Hong 
Kong, including by spearheading joint statements with like-minded 
countries, imposing financial sanctions and visa restrictions on PRC 
officials in both Beijing and Hong Kong, including Chief Executive 
Carrie Lam, cancelling our extradition treaty and exchange programs, 
and instituting export restrictions. Our efforts paved the way for many 
other countries to speak out against PRC actions, and to take similar 
measures of their own.
Xinjiang
    More than any other government, the United States has taken 
concrete action to respond to the human rights crisis in Xinjiang. In 
October 2019, the Department announced visa restrictions on officials 
responsible for, or complicit in, human rights abuses. This complements 
the Department of Commerce's addition to its Entity List of 48 entities 
in the PRC, including elements of the Public Security Bureau and 
commercial companies, implicated in human rights abuses.
    U.S. Customs and Border Protection has issued Withhold Release 
Orders (WROs) prohibiting imports of specified merchandise produced by 
several companies who operate in Xinjiang based on information that 
reasonably indicated the use of forced labor in their operations. We 
issued a business advisory to caution businesses about the risks of 
supply chain links to human rights abuses, including forced labor, in 
Xinjiang and elsewhere in China. The Treasury Department sanctioned two 
PRC government entities and six current or former government officials 
in connection with serious rights abuse against ethnic minorities in 
Xinjiang, including Politburo member Chen Quanguo.
Indo-Pacific
    The resilience and strength of our global alliances and 
partnerships is paramount to addressing strategic competition with 
China, and in no region is this more true than the Indo-Pacific--a 
region that accounts for more than half the world's population and GDP. 
As we take account of China's efforts globally, we must continue to 
remember that the Indo-Pacific is the frontline in our strategic 
competition with China.
    In recognition of the geopolitical importance of the Indo-Pacific, 
President Trump announced the U.S. Strategic Framework for the Indo-
Pacific 3 years ago in Da Nang, Vietnam, to advance a vision for the 
Indo-Pacific region in which all countries prosper side by side as 
sovereign, independent states. The Indo-Pacific Strategy is 
fundamentally about supporting the autonomy of Indo-Pacific states 
facing PRC attempts to dominate the region. It rests on cooperation 
with allies and partners, as well as the centrality of ASEAN, APEC, and 
other institutions in the regional architecture.
    The Indo-Pacific Strategy has defined a shared vision for a region 
that is open to trade and investment, free from coercion, and secure. 
The United States and a diverse cohort of allies and partners now speak 
clearly in terms of the ``Indo-Pacific.'' This is significant in 
semantic and strategic terms. Similar concepts have been put forward by 
Japan, India, Australia, South Korea, and Taiwan, as well as the 
``ASEAN Outlook on the Indo-Pacific,'' showing remarkable alignment 
across our partners. These efforts set forth consistent principles to 
guide the region's future that push back on the PRC's authoritarian, 
state-led development model.
    We have advanced our economic initiatives in lockstep with our 
allies and partners. I have already mentioned the Blue Dot Network--
launched with Australia and Japan--as one example. In the Indo-Pacific 
region, we are working together on the ground, for example through a 
five-country partnership with Japan, Australia, and New Zealand, to 
bring electricity to the people of Papua New Guinea.
    To promote good governance, which is integral to U.S. foreign 
policy and national security interests and in line with U.S. values, we 
launched the Indo-Pacific Transparency Initiative 2 years ago. With it, 
we are optimizing longstanding programs and launching new ones focused 
on particular vectors of PRC influence, including corruption, 
disinformation and information control, and coercive financing. These 
programs promote civil society, rule of law, respect for human rights 
and fundamental freedoms, and transparent and accountable governments 
across the region.
    We are also reinforcing our security commitments. Our security 
assistance to South China Sea claimant states helps partners protect 
their autonomy and maritime resources.
    State and USAID have doubled development assistance to our Pacific 
Island partners through the Pacific Pledge. Never before have we had so 
many people on the ground, in so many Pacific Island countries.
    We are developing new arrangements to coordinate with like-minded 
partners. In September 2019, the first ministerial-level meeting of the 
United States, Australia, India, and Japan at the Quadrilateral 
Consultations marked a new milestone in Indo-Pacific diplomatic 
engagement.
Mekong
    Building on the successes of the Lower Mekong Initiative, the five 
Mekong partner countries and the United States launched the Mekong-U.S. 
Partnership on September 11 as a strategic forum for cooperation.
    The Partnership will continue existing work and expand our areas of 
cooperation, including economic connectivity, energy security, human 
capital development, and transboundary water and natural resources 
management. This includes supporting these countries in holding the CCP 
accountable for sharing water data from China's massive upstream dams 
in Tibet and elsewhere.
    We will also cooperate on emerging threats such as health security 
capacity building and pandemic response, countering transnational 
crime, cyber security, and countering trafficking in persons, illicit 
drugs, and wildlife.
South China Sea
    On July 13, Secretary Pompeo announced a change in U.S. policy on 
maritime claims in the South China Sea, making clear that Beijing's 
claims to offshore resources across most of the South China Sea are 
unlawful, as is its campaign of coercion to control them. We are 
standing with Southeast Asian states to uphold their sovereign rights 
under international law. We welcomed your joint statement on the South 
China Sea, Chairman Risch and Ranking Member Menendez, reflecting our 
resolve in clarifying the United States' position that the PRC's 
maritime claims in the South China Sea are unlawful. We have seen 
Southeast Asian countries speak out more vocally as a result of our 
policy change.
    On August 26, the Secretary announced visa restrictions for certain 
employees of PRC SOEs involved in South China Sea militarization and 
land reclamation activity, including the China Communications 
Construction Co. (CCCC), which was coordinated with Department of 
Commerce additions to its Entity List. And we've seen results. In the 
Philippines, in Malaysia, and as far afield as Panama and Costa Rica, 
media, think tanks, and even government officials have raised questions 
about CCCC activity and its impact on their economies. We can expect 
them to subject future dealings with CCCC to greater scrutiny, and to 
think a bit more deeply about the potential downsides of PRC 
infrastructure assistance in the future.
Taiwan
    Notwithstanding China's aggressive behavior in the region, our 
relationship with Taiwan stands on its own and our relationship with 
Taiwan is not a subset of U.S.-China relations. We have made clear that 
the United States will continue to advance our engagement with Taiwan. 
The recent visit by Secretary Azar to Taiwan demonstrates that the 
United States will work with Taiwan on international issues, such as 
global health, and upcoming economic engagements will further deepen 
our robust ties.
    We also will continue to vigorously support Taiwan's meaningful 
participation in international organizations, especially where public 
health, safety, and security are concerned. Taiwan's commendable COVID-
19 response demonstrates it has much to offer to the global community, 
as does its commitment to democracy, human rights, and free markets.
    On July 9, the Administration formally notified Congress of a 
defense arms sale to Taiwan, just one recent example of how, consistent 
with the Taiwan Relations Act (TRA), we will continue to provide Taiwan 
defense articles and services to enable Taiwan to maintain a sufficient 
self-defense capability. The U.S. commitment to implementing the Taiwan 
Relations Act and the Six Assurances is firm, as is our commitment to 
the U.S. one-China policy, including our insistence that cross-Strait 
issues be resolved peacefully and without coercion or intimidation.
Indo-Pacific Business Forum
    We also engage closely with the private sector in advancing our 
policies and values. The Indo-Pacific Business Forum has emerged as a 
premier annual event bringing together leaders from the private and 
public sectors from economies across the Indo-Pacific region, including 
the United States, to share knowledge, build relationships, and explore 
opportunities. This year we are co-sponsoring the IPBF together with 
the government of Vietnam and with leading business organizations as a 
virtual conference in late October.
    The IPBF supports and extends our Indo-Pacific strategy, as one 
important tool to make our economic case to the region for the 
transparent, private sector-driven model we promote, and its proven 
track record for delivering sustainable growth, reducing poverty, and 
fostering technological innovation. This model provides a clear and 
compelling alternative to the PRC's state-led approach to development 
that all too often leaves countries in the Indo-Pacific region saddled 
with unsustainable debt and vulnerable to political and economic 
pressure. American businesses also find significant value in new 
markets in this dynamic region.
                       global outreach successes
    In all of our policy efforts, outreach to other countries is 
critical. We have been vigorously engaging our allies and partners on 
the full scope of CCP malign activities, including 5G, military-civil 
fusion, human rights abuses, environmental degradation, propaganda and 
disinformation, and international organizations, among many other 
issues.
    In the technology realm, dozens of countries have now taken action 
to restrict untrusted Beijing-linked vendors from their 5G networks. 
We've also seen stricter investment screening mechanisms instituted in 
the EU and more than a dozen other countries to help protect critical 
technology or infrastructure, including from CCP control. On 
international organizations, some 54 countries came together to deny 
the PRC candidate the top leadership position of the World Intellectual 
Property Organization. Twenty-three countries joined us in co-signing a 
joint statement on Xinjiang at the U.N. Third Committee. Allies and 
partners have also joined together to oppose Beijing's efforts to 
insert language promoting CCP ideology and unilateral policy 
initiatives in United Nations documents.
    Regarding CCP influence and interference, more and more countries 
are taking action against Confucius Institutes, United Front 
organizations, and other vectors of CCP malign influence and 
disinformation, including CCP influence efforts on university campuses. 
On Hong Kong, we have released several joint statements with allies and 
partners, many of which have also suspended extradition treaties with 
Hong Kong and imposed export controls. In line with what we have done 
in these areas, we encourage all countries to push for transparency and 
reciprocity in their relations with the PRC, and to expose and counter 
CCP vectors of influence and interference, including by PRC state media 
and PRC diplomats.
                               conclusion
    The United States has an important relationship with the PRC, as do 
most countries in the world. We are not asking countries to choose 
sides but simply to hold Beijing accountable for its malign behavior, 
and in the process to protect their own national sovereignty, security, 
and long-term economic well-being. We are also asking the international 
community to join us in standing up for universal rights and the rules-
based international system that have provided for the world's 
collective peace, security, and prosperity for generations. We are 
making great strides toward this goal, and we deeply appreciate the 
Committee's support of our continued efforts.

    The Chairman. Thank you, Secretary Stilwell. That was 
certainly a good tour around the issues that we deal with here, 
and I think there is a lot to unpack here, as your statement 
indicates.
    We will now turn to Ambassador Philip Reeker, who has led 
the Bureau of European and Eurasian Affairs since March 2019. 
Immediately prior, Ambassador Reeker was posted in Germany, 
advising the Commander of U.S. European Command. He has served 
in numerous posts throughout Europe, including U.S. Ambassador 
to North Macedonia and Counsel General in Milan.
    Ambassador Reeker.

  STATEMENT OF HON. PHILIP T. REEKER, SENIOR BUREAU OFFICIAL, 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Reeker. Good morning, Chairman Risch, Ranking 
Member Menendez, members of the committee.
    To my knowledge, this is the first time that the head of 
the European Bureau has testified at a hearing on Chinese 
influence. And I think this speaks, itself, in the terms of 
underscoring the scope and scale of the challenge we face from 
the Chinese Communist Party.
    Assistant Secretary Stilwell has done an excellent job 
laying out how the Department is implementing the 
Administration's strategy on China, and I will focus my remarks 
on how we see the challenge in Europe, what we are doing about 
it, in coordination with our allies, and really why Europe 
matters so much in an era of renewed strategic competition 
between major powers.
    Europe is home to most of America's closest and oldest 
allies. As you know, it is the largest export market for U.S. 
goods and services, and the United States and Europe are each 
other's primary source and destination for foreign direct 
investment. Together, the United States and the 27 members of 
the European Union account for over 40 percent of the world's 
GDP. The U.S. FDI in the EU and the UK of $3.6 trillion in 2019 
is more than four times the U.S. investment in the Asia-Pacific 
region.
    Like Russia, the Chinese Communist Party has realized that 
the transatlantic relationship is really the beating heart of 
the West, and perhaps the biggest obstacle to the PRC's designs 
for the future world order. China's global ambitions are simply 
not possible if the transatlantic alliance remains strong and 
united in opposing Chinese authoritarian overtures. China does 
not necessarily seek new allies in Europe--they prefer vassals, 
not partners--but it does want to drive a wedge between the 
United States and our allies.
    The starting point of our engagement with the Europeans 
must be our shared values and basic conceptions about how 
governments ought to behave toward their citizens and the 
world. The U.S. and Europe may sometimes disagree on specific 
policies or approaches, but we generally agree on the 
fundamental concepts, like the importance of the rule of law, 
transparent and accountable government, and basic human rights. 
The Chinese Communist Party does not.
    We must think of Europe not just in terms of what we can do 
together elsewhere in the world, but as a theater of strategic 
competition in its own right. Allies face malign influence and 
pressure in their own countries that we must work with them to 
counter. Using platforms like the One Belt, One Road 
Initiative, the Chinese Communist Party endeavors to create 
dependencies and cultivate client-state relationships. Through 
the 17+1 Initiative, which involves 12 countries that are both 
NATO and EU members, primarily in Central and Eastern Europe, 
China aims to achieve access and ownership over valuable 
transportation hubs, critical infrastructure, ports, and 
industries.
    Over the last 3 years, we have seen an increased awareness 
in many European countries, what Secretary Pompeo has referred 
to as a ``Transatlantic Awakening'' to the China challenge. 
U.S. diplomats, from the Secretary on down, have been pounding 
the pavement, or--virtually or otherwise, throughout Europe, 
and the tide has turned. Our substantial and successful 
diplomatic engagement contrasts sharply with the growing 
backlash we are seeing caused by China's heavy handed ``mask 
diplomacy'' during the pandemic throughout Europe. European 
audiences are getting to see firsthand just how the CCP handles 
criticism and questions, and they do not like what they see.
    Our engagement is bearing fruit. Just to touch on a few 
highlights:
    Using authorities granted by legislation members of this 
committee introduced, as mentioned, the bipartisan BUILD Act 
and the European Energy Security and Diversification Act, we 
have been able to begin leveraging the new Development Finance 
Corporation to try to catalyze key investments in strategic 
projects. Most notable, I would point to Secretary Pompeo's 
pledge at the Munich Security Conference, earlier this year, of 
$1 billion, a commitment to the Three Seas Initiative. In the 
Czech Republic, where Secretary Pompeo visited just last month, 
they have transformed from a target of Chinese influence to a 
leader in the European Awakening. Seven countries have signed 
bilateral memoranda of understanding with the United States on 
5G security. The Secretary signed the most recent one, just 
yesterday, with Lithuania Foreign Minister Linkevicius's 
visiting here in Washington.
    Fifteen European nations have adapted best practices from 
our own CFIUS and FIRMMA legislation as models to draft their 
own laws to protect their industries from malign foreign 
investment. And, as Foreign Secretary Raab and Secretary Pompeo 
discussed in their meeting here yesterday, the United Kingdom 
plans to secure its networks from Huawei. France and Germany 
both recently unveiled formal Indo-Pacific strategies that 
reflect the changing consensus on the threat posed by China. 
And I am told that France, Germany, and the UK, just this 
morning, filed a Joint Note Verbale at the United Nations, 
rejecting China's sweeping claims over the South China Sea.
    NATO has formally agreed to address the opportunities and 
challenges stemming from the Chinese Communist Party's growing 
influence. The EU has referred to the PRC as a ``systemic 
rival.'' And Sweden recently closed the last of the Confucius 
Institutes present in that country.
    More and more European nations are coming to the same 
conclusion we have about the nature of the threat to our 
values, our security, and our prosperity. They are doing so 
because they want to, not because we tell them to. Our role has 
been to share information, exchange experiences, and provide 
the support and encouragement necessary to empower them to make 
the right decisions.
    As we confront the growing China challenge in Europe, we 
must not forget that Europe is also the central focus of 
ongoing Russian aggression and malign influence. Although 
China's GDP is about eight times the size of Russia's, Russia 
remains the primary military threat to Europe and the strategic 
priority for most of our allies and partners, particularly 
those in Central and Eastern Europe.
    Russia and China are more closely aligned strategically 
than at any point since the 1950s, and we see growing 
cooperation across a range of diplomatic, military, economic, 
and information activities. Russia and China are not a 
monolithic bloc, and there are certainly tensions and friction 
points in that relationship. But, their growing strategic 
convergence is more than a simple marriage of convenience. It 
is based on a shared assessment of the threat the United States 
and our allies pose to their ambitions through our strength, 
our prosperity, and our values. This dynamic is not going away 
anytime soon, and we must understand and account for it in our 
diplomacy and policies in this era of great-power competition 
in Europe.
    And regardless of whether we are talking about competition 
against the Chinese Communist Party or the Kremlin or any other 
rival, perhaps our greatest advantage remains, as has been 
mentioned, our system of alliances, particularly in Europe. As 
the President and the Secretary have stated on many occasions, 
our allies need to shoulder their share of the burden, and they 
are making progress in doing so.
    The fact remains that the United States has friends. The 
Kremlin and the CCP do not. This is a fundamental and enduring 
difference between us and them, between the democratic West and 
the authoritarian powers trying to divide us. The 
Administration's efforts to support, empower, and consult our 
European allies in countering the PRC are working. Progress is 
not always immediate. And engaging with our allies on these key 
issues sometimes leads to hard conversations and choices. But, 
having these hard conversations now ensures that we have an 
alliance that--and partnerships that are able to defend the 
shared democratic values and traditions that define the West 
and underpin the free world.
    Mr. Chairman, Ranking Member, thank you for the opportunity 
to testify, and I will look forward to your questions.
    [The prepared statement of Ambassador Reeker follows:]

           Prepared Statement of Ambassador Philip T. Reeker

    Good morning Chairman Risch, Ranking Member Menendez, and Members 
of the Committee. It is a pleasure to be here today with Assistant 
Secretary Stilwell and Principal Deputy Assistant Secretary Chung to 
discuss the Chinese Communist Party's malign activities around the 
world. As far as I am aware, this is the first time the head of the 
European bureau has testified at a hearing on Chinese Communist Party 
influence, and I think this fact speaks for itself in terms of 
underscoring the scope and scale of the challenge we face from the 
Chinese Communist Party.
    Assistant Secretary Stilwell has done an excellent job laying out 
the Administration's broader strategy on China and the ways in which 
the Department is implementing it. I will focus my remarks on how we 
see the Chinese Communist Party challenge in Europe, what we are doing 
about it in coordination with our Allies, and why Europe matters so 
much in an era of renewed strategic competition between major powers.
    With its advanced economies, international influence, and high-tech 
industries, Europe has emerged as arguably the central front in the 
Chinese Communist Party's efforts to supplant U.S. global leadership, 
and re-order the international system to its benefit. It is therefore 
critical that we frame our efforts to counter the Chinese Communist 
Party in Europe around policies and language Europeans understand and 
support, such as shared values and adherence to international norms. 
Europe is home to most of America's closest allies. It is the largest 
export market for U.S. goods and services, and the United States and 
Europe are each other's primary source and destination for foreign 
direct investment (FDI). Together the United States and the EU27 
account for over 40% of GDP. The U.S. FDI in the EU and UK of $3.6 
trillion in 2019 is more than four times the U.S. investment in the 
Asia-Pacific region.
    Like Russia, the Chinese Communist Party understands that the 
transatlantic relationship is the beating heart of Europe and perhaps 
the biggest obstacle to Chinese Communist Party designs for the future 
world order. The Chinese Communist Party's global ambitions are simply 
not possible if the transatlantic alliance remains strong and united in 
opposing their authoritarian overtures. China does not necessarily seek 
new allies in Europe--the Chinese Communist Party prefers vassals not 
partners--but it does want to drive a wedge between the United States 
and our allies and limit Europe's ability to unite against it.
    For this reason, we must think of Europe not just as a force 
multiplier for our policies in other parts of the world, but as a 
theater of strategic competition in its own right. Through intensive 
diplomatic engagements, using platforms such as the One Belt One Road 
initiative, the Chinese Communist Party endeavors to create 
dependencies and cultivate client-state relationships. Through its 17+1 
initiative, involving 12 countries that are both NATO and EU members, 
the Chinese Communist Party aims to achieve access and ownership over 
valuable transportation hubs, critical infrastructure, ports, and 
industries in Central and Eastern Europe. The Chinese Communist Party 
is demonstrating its strategic interest in creating divisions between 
EU member states and in multilateral institutions over issues such as 
both traditional and non-conventional warfare, hybrid activities, the 
South China Sea, internet security, and human rights.
    Chinese foreign direct investment in Europe has grown from about $1 
billion in 2008 to a high of approximately $42 billion in 2016, before 
dropping again in recent years. The Chinese Communist Party's economic 
engagement in Europe is significant. It pursues its economic goals 
through predatory investments, intellectual property theft, and trade-
dependent relationships that leave governments, companies, and 
economies open to coercion. Over the last 12 years, the Chinese 
Communist Party has gained increasing influence over European markets 
and supply chains. Since the 2008 financial crisis, Chinese Communist 
Party industrial policy, such as Made in China 2025, has targeted 
investments in strategic European industries, critical infrastructure, 
such as ports, and emerging technologies such as robotics, artificial 
intelligence, 5G, green energy, and nuclear energy.
    The Chinese Communist Party relies on a network of overseas 
networks for influence, surveillance, and control, including United 
Front Work organizations and actors. Europe has more Confucius 
Institutes than any other region of the world, with more than 190 
institutes in 44 countries. In addition, the Chinese Communist Party 
exploits corrupt institutions and individuals, where possible, to 
achieve policy objectives and thwart efforts to stop them. The Chinese 
Communist Party's use of strategic corruption, which is also a defining 
feature of the Kremlin's regional strategy as well, plays an essential 
but often understated role in facilitating the more high-profile 
symbols of Chinese influence and power.
    Over the last 3 years we have seen an increased awareness in many 
European countries, what Secretary Pompeo has referred to as a 
``Transatlantic awakening to the China Challenge.'' U.S. diplomats from 
the Secretary on down have been pounding the pavement--virtual or 
otherwise--throughout Europe. Our substantial diplomatic engagement and 
the resulting positive results contrast sharply with the growing 
backlash caused by China's heavy-handed ``mask diplomacy'' and angry 
reaction to European criticism of its COVID response. European 
audiences got to see firsthand just how the Chinese Communist Party 
handles criticism and questions, and they didn't like what they saw.
    This engagement is bearing fruit.

  <bullet> Using authorities in legislation authored by Members of this 
        Committee, the bipartisan Build Act and European Energy 
        Security and Diversification Act, we have been able to begin 
        leveraging the new Development Finance Corporation (DFC) to try 
        to catalyze key investments in strategic projects, most notably 
        the $1 billion commitment to the Three Seas Initiative 
        Secretary Pompeo pledged at the Munich Security Conference.

  <bullet> The Czech Republic, which the Secretary visited last month, 
        has transformed from a target of Chinese influence to a leader 
        of the European Awakening. The recent visit of the Czech Senate 
        President to Taiwan is merely the latest in a series of strong 
        actions by the Czech Republic to stand up to Chinese bullying 
        and cement its status as a regional leader in combatting 
        Chinese Communist Party influence.

  <bullet> More than 30 nations contributed to the Prague Proposals to 
        build secure 5G network infrastructure by not using vendors 
        from authoritarian states like the Chinese Communist Party. 
        Further, 5G MOU's are being planned with Ukraine, Georgia, and 
        Serbia, to gain commitment from these partner countries to 
        avoid using prohibited technologies. The 27 nations of the EU 
        agreed to an investment screening framework in 2019, and a 
        number of European nations have adapted best practices from our 
        CFIUS and FIRMMA legislation as models to draft their own laws 
        to protect their industries from malign foreign investment.

  <bullet> France and Germany both recently unveiled formal Indo-
        Pacific Strategies that reflect the changing consensus on the 
        threat posed by China.

  <bullet> The United Kingdom is planning to secure its networks from 
        Huawei.

  <bullet> At NATO's December 2019 London Leaders' Meeting, NATO Heads 
        of State and Government formally declared for the first time 
        the need for NATO to address ``the opportunities and 
        challenges'' stemming from the Chinese Communist Party's 
        growing influence. The EU has labeled China as a ``systemic 
        rival.''

  <bullet> Denmark has bravely stood up to the Chinese Communist 
        Party's attempts to censor Danish newspapers. The Swedes have 
        closed all of the Confucius Institutes that resided on their 
        soil.

  <bullet> The U.S. has supported and empowered European-led 
        initiatives to take infrastructure development into their own 
        hands, and platforms such as the new Inter-Parliamentary 
        Alliance on China to check Chinese Communist Party malign 
        influence in legislatures around the world. We've engaged the 
        Department of Commerce and USAID to get more countries to 
        ensure that nations and their citizens control their critical 
        infrastructure.

    This list is not exhaustive. The point is that more and more 
European nations are coming to the same conclusion we have about the 
nature of the threat to our values, our security, and our prosperity. 
They are doing so because they want to--not because we tell them to. 
Our role has been to share information and provide the support and 
encouragement necessary to empower them to make the right decision.
    Despite these successes, there is still more work to do. The 
challenge the Chinese Communist Party poses to the United States is 
long-term, and the U.S. and our Allies need to be ``in it for the long-
haul.'' It will require sustained focus and willpower to maintain the 
momentum that we have gained over the past 3 years.
    Nor can we focus our efforts on the relative simplicity of a one-
on-one competition like we did in the Cold War. In addition to 
confronting the growing challenges from the Chinese Communist Party, we 
must not forget that Europe is also the central focus of ongoing 
Russian aggression and malign influence. Although China's GDP is about 
eight times the size of Russia's. Russia remains the primary military 
threat to Europe and a strategic priority for most of our Allies and 
partners, particularly those in Central and Eastern Europe. Russia and 
China are more closely aligned strategically than at any point since 
the 1950s, and we see growing cooperation across a range of diplomatic, 
military, economic, and information activities.
    While Russia and China are not a monolithic bloc, or even a formal 
alliance, and there are certainly tensions and friction points in this 
relationship, their growing strategic convergence is more than a simple 
``marriage of convenience.'' It is based on a shared assessment of the 
threat the United States and our allies pose to their ambitions--
through our strength, our prosperity, and our values. We have to 
understand this dynamic, particularly when it comes to great power 
competition in Europe.
    While the growing Russia-PRC convergence presents challenges, it 
also presents opportunities to maximize the impact and cost-
effectiveness of our policies and assistance programs in Europe. To 
give one example: the Chinese Communist Party and the Kremlin exploit 
similar vulnerabilities--weak or corrupt institutions, elite capture, 
non-transparent or unaccountable governance structures, etc. Therefore, 
focusing our efforts on addressing problems like this--which we are 
doing through our assistance programs, including the Countering Russian 
Influence Fund and USAID's Countering Malign Kremlin Influence 
Development Framework--enables us to counter two threats for the price 
of one.
    And regardless of whether we are talking about competition against 
the Chinese Communist Party, or the Kremlin, or any other rival, 
perhaps our greatest advantage remains our system of alliances, 
particularly in Europe but also throughout the world. As the President 
and Secretary have stated on many occasions, our allies need to 
shoulder their share of the burden, and they are making progress in 
doing so. But the fact remains that the United States has numerous 
friends; the Kremlin and the CCP do not. This is a fundamental and 
enduring difference between us and them, between the democratic West 
and the authoritarian powers trying to divide us.
    The Administration's efforts to support, empower, and consult our 
European Allies in countering the Chinese Communist Party's influence 
are working. Progress is not always immediate, and engaging with our 
allies on these key issues sometimes leads to hard conversations and 
choices. But the result of these hard conversations and tough choices 
will be an alliance and partnerships that are better prepared for the 
challenges that lie ahead and more capable of defending the shared 
democratic values and traditions that define the West and underpin the 
free world.
    Mr. Chairman, Ranking Member, thank you for the opportunity to 
testify here today. I look forward to your questions.

    The Chairman. Thank you, Ambassador Reeker.
    We will now hear from our third witness.
    Julie Chung is Principal Deputy Assistant Secretary in the 
Bureau of Western Hemisphere Affairs, and brings a wealth of 
experience from both the Indo-Pacific and Latin America. She 
was previously the Director for Japan in the Bureau of East 
Asian and Pacific Affairs. She previously held positions as the 
Deputy Chief of Mission in Cambodia, the Economic Counselor on 
Thailand, and the Deputy Political Counselor in Colombia.
    Principal Deputy Secretary Chung, the floor is yours.

    STATEMENT OF JULIE J. CHUNG, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Chung. Chairman Risch, Ranking Member Menendez, and 
members of the committee, thank you for the opportunity to 
testify about China in the Western Hemisphere today.
    This issue is one of our most pressing priorities, and one 
that requires close coordination with our neighbors, allies, 
and our global partners. It also requires strong cooperation 
between the Administration and Congress, so I welcome your 
engagement and the chance to be with you today.
    In the Western Hemisphere, we are implementing both the 
Administration's National Security Strategy and its vision for 
free and open Indo-Pacific. We have two strategic objectives: 
one, to reinforce our position as the region's partner of 
choice; and two, to counter China's malign activities, because 
they threaten the region's prosperity, security, sovereignty, 
and democracy. Today, Secretary Pompeo is on his way to 
countries in our hemisphere--Guyana, Suriname, Brazil, and 
Colombia--to reaffirm these values and partnerships.
    The United States and the Western Hemisphere enjoy a 1.9 
trillion trade in goods and services, and a stock--foreign 
direct investment of $350 billion. In comparison, China has a 
330 billion trade and a 120 billion FDI.
    And over the past decade, we have seen a dramatic increase 
in China's engagement in the region. China has sought regional 
commodities, critical minerals, and export markets to fuel its 
domestic growth. Chinese state-owned enterprises are investing 
heavily in strategic sectors and pushing Latin American and 
Caribbean countries to join its One Belt, One Road Initiative. 
We have also seen an increase in questionable Chinese loans for 
infrastructure projects.
    All of this is concerning because of the way China does 
business. China's corrosive capital and predatory lending 
undermine the rule of law and erode good governance. A region 
hungry for investment funds finds Chinese loans attractive, but 
the sticker price on these deals does not reflect their hidden 
costs. Further, China's corrupt practices threaten the region's 
hard-won gains in the rule of law, labor rights, and the 
environment, issues important to the citizens of the region.
    Faced with this challenge, an important part of our 
approach is to share with our partners information about the 
risks of doing business with China. We also aim to demonstrate 
that the United States and our allies and American businesses 
provide better alternatives when quality, transparency, and 
respect for national sovereignty are taken into account. We are 
catalyzing private-sector financing and capacity-building for 
the region's energy and infrastructure needs through the 
Development Finance Corporation and the America Crece 
Initiative, working with U.S. companies and the interagency to 
enhance the region's competitiveness and revitalize its 
economies.
    Chinese engagement is particularly egregious in information 
and communications technology. You know, companies like Huawei 
and ZTE have significant market share in the region already, 
and we are working with our partners so that they understand 
the national security and human rights concerns about Chinese 
vendors, many of which are state-owned and controlled by the 
Chinese Communist Party. These concerns speak to the 
sovereignty and human rights of the citizens in the region.
    5G in the region is still in its infancy, so we do have an 
opportunity to ensure our partners understand the risk of 
opening their data to Chinese vendors, and they also know the 
availability of trusted alternatives.
    We continue to draw attention to China's fishing practices 
that do not adhere to international norms in our region and 
around the world. The massive Chinese fishing fleet of over 300 
ships near the Galapagos this summer alarmed governments, the 
fishing community, and environmentalists, alike. We are working 
with our partners to increase cooperation and expand the 
capacity to detect and deter illegal and under-regulated 
fishing.
    Support for democracy and human rights is a critical pillar 
of our engagement. We continue to support civil society, fight 
corruption, boost investigative journalism, and strengthen 
oversight of procurement processes. Open and transparent 
governance makes it harder for China to exploit our partners 
through bribery or unfair deals.
    Working with democratic partners from Asia, including 
Taiwan, Japan, and the Republic of Korea, is an important tool 
to raise awareness about China. The hemisphere is home to nine 
of Taiwan's 15 diplomatic partners. We maintain vigilance as 
China pressures these countries to flip recognition to Beijing. 
Maintaining the status quo of Taiwan's diplomatic relations and 
highlighting our shared democratic values and showcasing 
Taiwan's regional engagement and partnerships are top 
priorities.
    Finally, our public diplomacy, especially our people-to-
people diplomacy, advances the fourth pillar of our strategy, a 
hemisphere that embraces democracy and views the U.S. as a 
valued partner in the region. We are forging relationships that 
will reduce the space for China to spread its malign influence 
and reinforce why our shared values are so important. Our 
exchange programs, public-private partnerships, and grants help 
showcase the innovation of the United States, the vitality of 
our entrepreneurship, and the power of the individual to make a 
difference in their community, strengthening our relationships 
with civil society, businesses, and especially the youth. This 
is the time to strengthen academic and professional exchanges, 
more than ever, so we remain well-positioned for generations to 
come.
    Thank you for the opportunity to testify, and for your 
support for our efforts, and I look forward to your questions.
    [The prepared statement of Ms. Chung follows:]

                   Prepared Statement of Julie Chung

    Chairman Risch, Ranking Member Menendez, and Members of the 
Committee: Thank you for the opportunity to testify on China's 
engagement in the Western Hemisphere. This issue is one of our most 
pressing priorities and one that requires close coordination with our 
interagency colleagues, hemispheric neighbors, and global partners. 
Just as important, it requires strong cooperation between the 
Administration and Congress, so I welcome your engagement on these 
issues and the chance to be with you today. I joined the Bureau of 
Western Hemisphere Affairs (WHA) in November 2018 to serve as Principal 
Deputy Assistant Secretary (PDAS). I brought to WHA a specific focus on 
China in the Western Hemisphere that drew on my years of service in 
both our East Asia and Pacific and Western Hemisphere Affairs Bureaus. 
China had been viewed for years as a regional issue for Asia, but we 
are acutely aware that its actions have global implications that 
require global coordination and action. There are extensive linkages 
between the Indo-Pacific and the Western Hemisphere, through trade, 
diaspora communities, and multilateral groupings like the Asia Pacific 
Economic Cooperation (APEC). In WHA we have been leading an interagency 
effort to implement in the Western Hemisphere the principles of the 
Administration's National Security Strategy and Vision for a Free and 
Open Indo-Pacific. At the highest level, we have two strategic 
objectives: reinforce the position of the United States as the region's 
partner of choice and counter China's malign activities because they 
threaten hemispheric prosperity, security, and democracy.
    Our approach to China is guided by our broader regional strategy, 
which seeks a Hemisphere that is prosperous, secure, democratic, and 
receptive to U.S. leadership and values. We must, of course, work with 
likeminded partners in this effort. I would like to highlight some of 
the challenges we face and successes we have had in each of these 
areas.
                                economic
    Over the past decade, we have seen a dramatic increase in China's 
interest in the region as it has sought access to natural resources, 
raw materials, and commodities, and markets for its exports to fuel 
domestic growth. The United States remains the top trading partner for 
over half of the 34 countries in the region, but China is now the top 
trading partner for Brazil, Chile, and Peru. The United States has free 
trade agreements with 12 countries in the Western Hemisphere. China has 
three--Chile, Costa Rica, and Peru--and is negotiating with other 
governments.
    The United States is far and away the largest cumulative source of 
foreign direct investment in the region. However, Chinese state 
companies are investing heavily in the region and aggressively pursuing 
Latin American and Caribbean participation in its One Belt One Road 
initiative (OBOR), which is focused on infrastructure development 
around the world. Nineteen Latin American and Caribbean countries 
currently participate in the OBOR. We have also seen an increase in 
Chinese concessional loans for infrastructure investment, funding 
dozens of large-scale projects including roads, ports, and dams.
    All of this is concerning because of the Chinese government's 
predatory approach to lending and development, the way the Chinese 
government does business, and its motivations. The Inter-American 
Development Bank estimates the infrastructure investment gap in the 
region is about 2.5 percent of GDP or $150 billion per year. A region 
hungry for infrastructure investment finds Chinese concessional loans 
attractive, but the ``sticker price'' on these deals does not reflect 
their full and hidden cost. China's way of doing business threatens to 
undermine the region's hard-won gains in transparency, the rule of law, 
labor rights, and the environment. Chinese companies are frequently 
backed by the Chinese Communist Party and are therefore rife with 
corruption and human rights abuses. Their investments in the region 
frequently come with excessive debt and opaque terms, low-quality 
infrastructure, and environmental damage, and they crowd out local 
development with an influx of Chinese materials, equipment, and 
workers.
    Faced with this challenge, an important part of our approach is to 
share with our Latin American and Caribbean partners information on how 
the PRC's behavior is out of line with internationally recognized best 
practices for governance and sustainability and not in their best 
interests. Our engagement has helped several countries, including Chile 
and El Salvador, make better decisions for U.S. and regional interests. 
We also aim to demonstrate that the United States, our allies, and our 
businesses provide better alternatives when factors such as good 
governance, quality, and transparency are taken into account. We are 
working with partners to press for China's economic engagement to meet 
high standards in terms of transparency, adherence to the rule of law 
and anti-corruption practices, debt sustainability, labor rights, 
environmental best practices, and the needs and concerns of local 
communities. We have established a program to facilitate timely, 
targeted bilateral engagements at the technical level to advance U.S. 
interests and values on sensitive economic issues. Our delegations have 
helped some of our partners in the region considering legislation on 
foreign investment screening. A delegation to Ecuador focused on data 
privacy, and a delegation to Peru illustrated best practices in 
infrastructure procurement.
    The Administration launched in December 2019 an expanded initiative 
called Growth in the Americas (``America Crece'' in Spanish). This 
whole-of-government effort aims to catalyze the private sector as the 
primary engine of growth to develop infrastructure in Latin America and 
the Caribbean. The focus is on improving the investment climate for all 
types of infrastructure, including energy, airports, seaports, roads, 
water, social, telecom, and digital networks. The effort incorporates 
the expertise and resources of nine agencies across the federal 
government. The U.S. International Development Finance Corporation 
(DFC) is a critical tool in these efforts. We expect DFC to deploy at 
least $12 billion in financing in the region. We need to align State 
and USAID efforts and resources to fully leverage DFC's new 
capabilities. We are also working to expand the Digital Cybersecurity 
and Connectivity Partnership (DCCP) to the region, modeled on the work 
the initiative has already accomplished in Asia. Under the DCCP, U.S. 
Government agencies promote open, reliable, and secure communications 
networks in Latin America and the Caribbean, one critical area where 
prosperity and security intersect. I joined Deputy Secretary Sullivan 
and Senior Advisor Ivanka Trump last year in South America and saw 
firsthand the lives of women entrepreneurs transformed through 
financing through the W-GDP 2X Initiative.
                                security
    Chinese influence in the Americas is particularly strong in 
information and communications technology (ICT). Chinese companies like 
Huawei and ZTE have significant market share in their respective 
industries in many parts of the region, and they are aggressively 
expanding with mass advertising campaigns and promises of investment 
and job creation. The United States works with Latin American and 
Caribbean countries on ICT issues, and our well-established concerns 
with Chinese companies focus primarily on their security implications. 
Increasingly interconnected countries, economies, and communities are 
vulnerable to interference if the companies managing their networks do 
not follow the law or adhere to international norms. This threat is 
especially great in emerging 5G networks.
    Most Latin American and Caribbean countries are still focused on 
expanding 4G networks based on significant previous investments. Some, 
however, are eager to make space for 5G deployment and will hold 
spectrum auctions within the next year. With 5G in Latin America and 
the Caribbean still in its infancy, we have an opportunity to ensure 
the region understands the risks of Chinese vendors and the 
availability of trusted alternatives. Chinese firms might offer 
attractive technology and pricing, but they create opportunities for 
the Chinese government to tap into--and exploit--data flows, including 
sensitive political, business, and military information. Companies such 
as Huawei deny their intention to misuse the information they manage on 
a daily basis, but Chinese law clearly states the obligation of all of 
its companies to subordinate themselves to the State. Numerous 
independent news reports have detailed the willingness of Huawei 
officials to assist repressive regimes in spying on political 
opponents.
    We also are working with our regional partners on the security 
risks of Chinese surveillance technology, which even democratic 
countries like Uruguay and Argentina have installed. We remain 
concerned about the Chinese government's attempts to export advanced 
surveillance and monitoring systems as part of a broad effort to spread 
its authoritarian model and influence foreign countries. Chinese 
companies like Huawei and ZTE are selling, loaning, or transferring to 
foreign governments so-called ``smart city'' and ``safe city'' 
systems--a broad array of surveillance and monitoring technologies, 
including cameras with facial recognition and artificial intelligence 
systems. These systems can be used to monitor individuals and 
potentially violate human rights as the PRC is doing now, for example, 
in Xinjiang. Latin American governments that accept Chinese projects 
need to be vigilant about the potential for similar surveillance 
technology to be included without protections for civil liberties.
    We continue to draw media attention, coordinate with our partners 
in the region, and conduct outreach with regard to the PRC's fishing 
practices off the Ecuadorian EEZ surrounding the Galapagos and 
elsewhere in our region to pressure the PRC to impose strong governance 
over their distant water fishing fleet. The massive Chinese fishing 
fleet that has been operating on the highs seas off the Ecuadorian EEZ 
surrounding the Galapagos this summer appears to be leaving the area 
for the year, but given its extractive capability, we are working with 
our partners to prepare for when the fleet returns in future seasons, 
as it has for many years. Some of these Chinese-flagged fishing vessels 
were reportedly disabling collision avoidance transponders and leaving 
marine debris. Fishing authorities continue to seek concrete evidence 
of any illegal fishing connected to the Chinese fleet. The United 
States is supporting and encouraging this effort through regional 
cooperation to combat illegal, unreported, and unregulated (IUU) 
fishing, such as improving monitoring, control, and surveillance 
related measures of the South Pacific Regional Fisheries Management 
Organization charged with managing the region's fishery. The U.S. 
Ambassador to Ecuador traveled to the Galapagos earlier this month and 
met with government officials, NGOs, researchers, and others in order 
to bring focus on IUU fishing and maritime issues. The U.S. Coast Guard 
cutter Bertholf was part of a military maneuver (passing exercise) with 
the Ecuadoran Navy that took place near where the Chinese fleet was 
located. NGOs are organizing and providing equipment, funds, and boats 
needed in Galapagos National Park to detect and intercept illegal 
fishing vessels in the Galapagos Marine Reserve. This is about the rule 
of law, transparency, and the harmful exploitation of the environment 
of our region.
                         democratic governance
    Support for democracy and human rights is a pillar of U.S. 
engagement in our overwhelmingly democratic hemisphere. With engagement 
and programs, we continue to support civil society, counter corruption, 
boost investigative journalism, strengthen oversight of procurement 
processes and tenders, and support regional democracy. China has 
directly contributed to regional instability and corruption by 
bankrolling the illegitimate dictator of Venezuela, Nicolas Maduro, 
with more than $62 billion in loans between 2007 and 2017. As Secretary 
Pompeo noted, China's treatment of Muslims, including the Uighurs, in 
western China is an enormous human rights violation, and we will 
continue to raise the issue, highlighting how the Chinese Communist 
Party's values clash with those of our Latin American partners.
          working with democratic partners: japan, taiwan, rok
    Working with democratic partners from Asia--including Taiwan, 
Japan, and South Korea--is an important tool to raise awareness of 
China's malign activities and promote transparent private investment in 
the region. In August 2019, we launched the U.S.-Japan Dialogue on 
Latin America and the Caribbean. We agreed to operationalize an 
existing OPIC-JBIC MOU to co-finance an infrastructure project in the 
region. Latin America has the largest regional contingent of countries 
that recognize Taiwan: nine out of Taiwan's remaining 15 diplomatic 
partners are in Latin America and the Caribbean. We see China 
pressuring these countries with financial incentives to flip diplomatic 
recognition to Beijing. Maintaining the status quo in terms of Taiwan's 
diplomatic relations is a top priority, and we are finding innovative 
ways to support Taiwan's position in the region. Last year, we 
organized an October 16 ``Friends of Taiwan'' roundtable for Taiwan's 
nine Western Hemisphere diplomatic partners to discuss what is working, 
and what needs to change, for them to maintain ties with Taiwan rather 
than the PRC, the first time we ever held such a meeting. We partnered 
with Taiwan to bring its Global Cooperation and Training Framework 
(GCTF) to Latin America and the Caribbean in September 2020, to 
highlight the benefits of welcoming Taiwan's expertise into the region. 
Although COVID-19 required a shift to a virtual format, the first 
session, the U.S.-Taiwan Workshop on Digital Economy and COVID-19 
Response, took place on September 8 with over 200 participants from 25 
countries. This was the first time this flagship U.S.-Taiwan-Japan 
development assistance training program has been held in the Western 
Hemisphere. GCTF participants are drawn from countries that recognize 
Taiwan, countries where Taiwan maintains unofficial relations, and 
countries we believe are interested in expanding ties with Taiwan.
    I have traveled so far to Argentina, Belize, Brazil, the Bahamas, 
Costa Rica, El Salvador, Haiti, Paraguay, and St. Lucia to promote our 
shared values and hold public meetings with ambassadors of Taiwan, 
Japan, and South Korea, government leaders, journalists, the private 
sector, and especially the youth. Together we raise awareness of the 
dangers of malign Chinese engagement--stressing good governance, the 
environment, worker rights, freedom of expression, privacy, debt 
sustainability, and sovereignty--and we encourage local voices to speak 
up. The need for this engagement with our partners remains crucial as 
we have seen the PRC attempt to increase its outreach and rewrite the 
narrative in the Hemisphere during the COVID-19 pandemic. Our 
partnership based upon shared values with countries in the region will 
be a key to returning the region to economic health and prosperity 
following the crisis.
                            public diplomacy
    Our public diplomacy advances the fourth pillar of our regional 
strategy--a Hemisphere that continues to embrace U.S. values and 
leadership--by forging relationships that reduce the space for China to 
spread its malign activities. We have several successful programs that 
are building these bonds for future generations. The Young Leaders of 
the Americas Initiative (YLAI) expands ties between emerging 
entrepreneurs and U.S. counterparts to support job creation and 
economic growth. The Department's Academy for Women Entrepreneurs (AWE) 
provides women the knowledge, tools, and networks they need to turn 
their ideas into successful businesses. And the very successful 100,000 
Strong in the Americas (100K) Innovation Fund, a public-private 
partnership, supports educational exchanges that strengthen the links 
between education, workforce development, and social inclusion to 
address opportunity gaps.
    Our exchange programs, extensive network of American Spaces and 
American Space partnerships, and robust offering of post-identified and 
managed small grants all help foster and deepen U.S. relationships with 
influencers and target audiences. The Global Engagement Center (GEC) 
supports our efforts to address propaganda and disinformation in the 
Hemisphere by providing original research and working with U.S. public 
diplomacy officers in the field. The PRC has recognized its cultural 
capital deficit in the region and attempted to duplicate our playbook, 
making huge investments to expand its network of Confucius Centers. 
These networks allow the PRC to increase its cultural influence in the 
Hemisphere and to send thousands of young people to China on academic 
and professional exchanges. But we will not cede to the PRC the next 
generation of leadership in our Hemisphere. From my meetings with young 
hackathoners in Haiti to women entrepreneurs in the Bahamas to student 
activists in Nicaragua, this is the generation who turns to the United 
States for our innovation, opportunity, and values. This is the time to 
strengthen our public diplomacy strategy so we remain well positioned 
for generations to come. We must remain engaged in the Western 
Hemisphere, and our diplomats in the field and those who support them 
in Washington both need and appreciate your continued support.

    The Chairman. Thank you, Secretary Chung.
    We are now going to do a--as advertised, a round of 5-
minute questions, and it will be done on the seniority basis, 
due to the fact that members are attending virtually.
    First question I have is--and anyone can take a shot at 
this--if you can tell me what--the new EU-U.S. dialogue on 
China that is coming down the pike, where are we in the 
planning stages, and what is estimated to be the--well, when 
the first dialogue will occur?
    Ambassador Reeker. Thanks, Mr. Chairman. I saved this for 
your question, and kept it out of my spoken remarks.
    As you know, the High Representative/Vice President of the 
European Union, Mr. Borrell, proposed this dialogue. It was 
shortly after the Secretary had joined the Foreign Affairs 
Committee of the EU during the summer, and we have spent the 
last couple of months working out the parameters of this 
through our Mission in Brussels, through the EU Mission here in 
Washington, and in direct contacts. We developed a set of 
pillars that we plan to focus on: recovery, of course, from the 
pandemic; focusing on reciprocity steps; and then resilience--
how do we deal with supply chains and other things? 
Disinformation is a major topic that everyone has said we need 
to discuss. And, of course, human rights. The Europeans have 
also suggested we include a discussion on international 
organizations and Chinese efforts to dominate those, and then 
just share our experiences in dealing with China. So, the idea 
is to have a forum where we can really review all aspects of 
the Chinese presence in Europe, globally, and how we deal with 
that.
    The Secretary and High Rep. Borrell plan to kick this off. 
We are looking for a date in the near future, trying to do 
scheduling. I think we are resigned to the fact that this may 
have to be virtual instead of in person, just given the 
pandemic requirements. And then we will go from there to other 
levels of engagement. The Deputy Secretary has also agreed to 
participate. He has had a number of conversations with his 
counterpart, Helga Schmidt, at the EU. The political directors 
of all of the EU member states will gather and have this on 
their agenda at the end of the month, under the German 
presidency. And that is an opportunity for, then, the member 
states to engage, as well. As you know, with the EU, we have to 
look at both member-state experiences as well as overall 
Brussels approach.
    So, there are a number of fora there. Like I said, I hope 
we can kick this off, if not at the end of this month, early 
next month, and see this as a long-term project that engages in 
a formal structure several times a year, and at working-group 
levels, as well, so that we can really exchange ideas, 
experiences, and strategies, going forward.
    The Chairman. Thank you. I do not think anyone would 
disagree that this is going to be a long-haul project, versus 
instant gratification.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Deputy Assistant Secretary Chung, as you know, I and 
members of this committee introduced bipartisan legislation 
last month to strengthen U.S. competitiveness in Latin America 
and the Caribbean, and to address China's economic, security, 
and intelligence engagement. I believe that our efforts on this 
bipartisan basis are complementary. ACTSA requires the 
Departments of State and Treasury to provide technical 
assistance to regional partners to help them safeguard their 
infrastructure from predatory foreign investments, similar to 
the Committee for Foreign Investment in the United States, 
CFIUS. Can you tell me what initial steps have been carried out 
on this front?
    Ms. Chung. Thank you for your question, Senator.
    On CFIUS and investment screening, this is something that 
is a very important issue throughout the region, and throughout 
the world, of course, and we thank you for the ACTSA bill. We 
will consider that--the details of that, and discuss with our 
staff on some feedback regarding that bill.
    But, in terms of CFIUS and investment screening, we have 
extensive engagements in the region. We have been sending 
technical delegations to countries in the region to explain how 
public procurement processes and transparent processes work. We 
have helped governments build that capacity through the America 
Crece Initiative. We have ten MOUs now signed with countries 
throughout the region, and that is part of the tool to use in 
addressing the corruption issues that China is bringing to the 
region. How do we ensure the countries have the right tools in 
place, the practices in place, the procurement practices and 
regulatory framework so that private-sector companies will want 
to come and invest in those countries and ensure they have a 
level playing field?
    Senator Menendez. Thank you.
    Ms. Chung. So, we are working through the America Crece 
Initiative.
    Senator Menendez. Thank you.
    ACTSA also strengthens the DFC's engagement in Latin 
America, and authorizes additional eligibility for Caribbean 
countries. Can you briefly outline how the Administration 
prioritizes DFC engagement in the region?
    Ms. Chung. Thank you, Senator, for the question.
    DFC has been a wonderful tool and resource that we have 
been able to now utilize more than ever and, from the former 
OPIC's utilities, now expanding that broad--a broader base in 
Latin America and the Caribbean. So, DFC, in our vision, has 
already invested, and has pledged to invest $12 billion in just 
the Western Hemisphere, alone; and, in Central America, $3 
billion. So, it is already invested in Central America--in El 
Salvador, for instance, on an LNG project, and other projects 
that are forthcoming. But, we are working strategically with 
DFC to ensure that these are strategic, that they have purpose, 
and that they bring the right competitiveness and transparency 
to the region.
    Senator Menendez. ACTSA also requires a designation of a 
China Engagement Officer at the Western Hemisphere Embassies to 
report on China's presence in the region. Can you briefly 
outline for us the reporting officers you have in the region?
    Ms. Chung. Thank you, Senator.
    We do have one China officer, China--officer based in the 
Western Hemisphere, in Lima. We just got approval to get three 
additional positions in the region. So, we are very excited to 
be placing those three positions in Panama, Uruguay, and 
Barbados.
    In addition to that, every Embassy in the Western 
Hemisphere has a China Working Group who does regular reporting 
through our cable channels, and we coordinate all the messages 
throughout the Western Hemisphere in our monthly message.
    Senator Menendez. And finally, ACTSA requires the executive 
branch to provide our regional partners with assistance on 
cybersecurity and cyber defense. Can you briefly outline any 
initial efforts in that regard?
    Ms. Chung. On cyber issues, we have two very new 
initiatives that we took from the Indo-Pacific that we are now 
launching in the Western Hemisphere. One is the DCCP, the 
Digital Cybersecurity Partnership. Now, that was only planned 
for the eastern--for the EAP region. But, realizing the 
importance of cybersecurity and 5G issues in the Western 
Hemisphere, we launched this for the first time now in our 
region, with an initial investment of $10 million. But, this 
will provide for cybersecurity training and shared--best shared 
practices, and working with our partners to make sure they are 
aware of the cyber issues and have the right tools to address 
them.
    Senator Menendez. Well, I appreciate your responses. And it 
is good to see that our bill and the Administration's 
initiatives are mutually reinforcing. I will look forward to 
working with the Chairman, hopefully, to schedule a markup on 
ACTSA so we can have congressional support for some of these 
initiatives.
    Secretary Stilwell, as you know, authoritarian nations, 
such as China and Russia, are utilizing emerging technologies 
in new ways to surveil and repress both domestic and foreign 
populations, as well as manipulate democratic elections. 
Furthermore, these countries are now spreading their models for 
digital authoritarianism to other countries who may be 
attracted to these new modes of social control. What is the 
Administration's strategy to counter the spread of digital 
authoritarianism in the malign use of digital products and 
services in the Indo-Pacific?
    Mr. Stilwell. Senator, thank you for that question.
    As my colleague from the Western Hemisphere noted, that 
this strategy is not limited to EAP, but it has been 
throughout--globally. We have been executing this effort to 
take down things like Hikvision, DJI--these names are all well 
known to us because we have been shining a light on these 
activities that would otherwise seem benign but are, in fact, 
nefarious.
    The most recent, I think you will find you have seen is 
identifying apps, seemingly innocuous--TikTok and others--as--
for what they are: massive collection platforms for information 
used by the Chinese Community Party. I will point to--
yesterday, New Zealand discovered that their Prime Minister had 
been targeted by this.
    So, the strategy involves not just focusing on China, 
itself, but helping the world defend from these things. I think 
you may remember, Keith Krach and I, confirmed together 18 
months ago, and he has been leading the way on many 
initiatives--the Clean initiatives--you have heard that series 
already--that also bring all these ideas into one place. And he 
is uniquely qualified to talk about digital security.
    Thank you.
    Senator Menendez. Well, I am happy to hear from him in the 
future.
    I will just simply say, I was more focused on digital 
authoritarianism, the use of technology to try to control 
people, and nations that seem to be following China's lead and 
accepting China's technology. So, I would love to hear from 
that, for the record, as soon as you can.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    And I think you hit on a really important issue on the 
cyber matters regarding control of massive groups of people. 
This is a technology that is right in the wheelhouse of those 
authoritarian countries that want to do that. So, I think that 
is really important that we focus on that. So, thanks for that 
line of questioning.
    I am told Senator Johnson is with us virtually. Is that 
true?
    [Pause.]
    The Chairman. Apparently not.
    [Laughter.]
    The Chairman. Let us--but, the next one on my list is 
Senator Gardner.
    Senator Gardner. Hey, Chairman Risch. Thank you very much 
for this.
    And thank you, to the witnesses, for testifying today.
    As Chairman of the Senate Foreign Relations Committee, 
Subcommittee on East Asia, the Pacific, and International 
Cybersecurity, we have obviously been working with our 
colleagues on efforts to shape new policy toward the Indo-
Pacific. China is now an emerging global power that is broadly 
challenging the United States in nearly every domain--military, 
economic, technological, and ideological. China now intimidates 
countries across the globe, leverages its economic largesse to 
coerce large and small countries, alike. It has embarked on an 
initiative to seek submission and domination.
    China's ``Made in 2025'' policy has leveraged cyber 
industrial espionage and coercive technology transfer 
practices, with the aim of dominating the global market share 
of critical future technologies. Their Belt and Road Initiative 
cultivates economic and political dependence, and threatens 
participant sovereignty. Beijing's military modernization 
programs comprise the most rapid military buildup in history, 
threatening the stability and security of the most prosperous 
region of the world. It is more important than ever to ensure 
the United States maintains leadership in the Indo-Pacific 
region and beyond, reaffirms alliances, bolsters economic links 
between the world's advanced democracies, and promotes human 
rights and the rule of law.
    Now, the Administration and Congress must be united on 
implementing a long-term strategy that will benefit the 
American national security interests, promote American 
businesses, and create jobs through trade opportunities, and 
project American values of respect for the human rights and 
freedom for--respect for human rights and freedom across the 
globe. This includes countering China's malign influence, from 
the Indo-Pacific to Europe to the Western Hemisphere. In 
addition to maintaining a strong military that deters Chinese 
coercion and expansionism, the U.S. must pursue a strategy that 
secures U.S. technological primacy and economic security in the 
coming decades.
    Legislation like my Asia Reassurance Initiative Act ensures 
that the United States Government will speak with one voice to 
reassure our allies that we will continue to lead militarily, 
economically, and technologically in the Indo-Pacific region. 
As we recognize the increasingly global nature of this 
competition with China, it is more important than ever that we 
continue to lead the free and democratic countries of the 
world, and shape the global economic and security landscape.
    The first question I would ask--Secretary Stilwell, if you 
would like to do this--ARIA incorporates and elaborates on the 
Administration's Indo-Pacific Strategy, the defining element of 
which is the enduring United States commitment to uphold 
international law, to maintain an Indo-Pacific that is free of 
coercion, military, economic, or in violation of basic human 
rights and freedom. Could you talk about how this 
Administration has implemented ARIA to work with the allies to 
promote that networked vision of security cooperation and 
counter Chinese coercion? Talk a little bit about how the free 
and open Indo-Pacific and--strategy can better be--better be 
adopted by our allies throughout the region or other countries 
throughout the region that may be hesitant to be caught up in a 
great-power competition, and how we can make sure that we are 
upholding a free and open region.
    Mr. Stilwell. Senator, thank you for that. And it is good 
to see you virtually.
    Senator Gardner. Good to see you, man.
    Mr. Stilwell. The great part about all of this is that 
the--ARIA and on--much of the legislation comports quite well, 
aligns and meshes well with the Indo-Pacific Strategy. You 
know, that tells the Chinese that Congress and the 
Administration, on both sides of the aisle, are absolutely 
aligned on the large majority of these efforts.
    Executing this is much easier if we do it in networks, if 
we do it, as you say, in groups. And I can point out any number 
of examples in the region, but outside of the region as well. 
You have seen India has come on very strong in this regard. The 
concept of the Indo-Pacific has incorporated India into the 
larger solution. Getting the word out matters. I have been very 
encouraged by our colleagues in Europe that have understood the 
threat, have come to, not just understand it, but act on it if 
you have seen very positive activity that--you heard Minister 
Borrell may say some very helpful things. A number of other 
folks in Europe have come on strong in this regard. And it is 
only going to continue. And that is because we are doing this 
as a group effort, and not as a one--as the U.S. by itself, and 
we are not doing it as just the Administration. It is the 
entire government doing it.
    So, we welcome legislation like ARIA and all the 
cooperation between the Administration and the Congress.
    Thank you.
    Senator Gardner. Thank you, Secretary.
    Beijing's hostility toward Taipei has been 
counterproductive, obviously, and dangerous. The international 
community in Beijing are progressively realizing that Taiwan 
and China are on different trajectories and espouse wholly 
incompatible systems of governance and values. And so, building 
on the longstanding bipartisan support in the U.S. Congress for 
Taiwan and the Taiwanese people, my Taipei Act, which recently 
passed into law, expands Taiwan's links with the international 
community and its presence in the global organizations.
    You talked about that in your opening statement. But, how 
important do you think something like a bilateral trade 
agreement with Taiwan is? And what do you think the economic 
benefits are? And can we see progress on that from the 
Administration in the coming weeks and months ahead?
    Mr. Stilwell. Senator, that is a very important point. As 
you see the--Keith Krach, again, who I just mentioned, is in 
Taiwan right now to celebrate the life and legacy of former 
President Lee Teng-hui. And the relationship with Taiwan--one, 
our goal is to comply with the law. That Taiwan--that law is 
the Taiwan Relations Act and the Taiwan Travel Act and the 
Taipei Act--all these things, to make sure that we allow Taiwan 
the space--international space to deal with its larger neighbor 
to the west in a way that resolves their differences through 
dialogue and not through coercion--we mentioned taking--picking 
off partners in the past--not through coercion or definitely 
not through use of force. And so, cooperation between the 
Administration and the Hill on things like arms sales and the 
rest are, one, completely in line with all of our agreements; 
and, two, ensure that this--that the situation, the issue 
between the mainland and Taiwan is resolved peacefully.
    Thanks.
    Senator Gardner. Yeah.
    And, Mr. Chairman, how am I doing on time? Am I still--do I 
still have time left, or have I run--I am sorry.
    The Chairman. Not so good.
    [Laughter.]
    Senator Gardner. Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner. We appreciate 
that.
    Senator Cardin is somewhere out there in cyberspace, 
apparently. Am I right?
    Senator Cardin. I am right here, Mr. Chairman.
    The Chairman. All right.
    Senator Cardin. Thank you very much.
    And I thank all of our witnesses. This is a critically 
important hearing.
    China presents so many challenges to the United States. We 
have human rights issues, where they violate the rights of 
their own citizens, the Uyghurs being a prime example. There 
are many other examples that are of great concern to us. They 
violated their agreement in regards to Hong Kong, the one 
country, two systems. I have joined with Senator Rubio and 
others in a bipartisan effort to make it clear there will be 
consequences to that violation of international agreements. 
They represent direct security threats on what they are doing 
in the China Sea. They always raise an issue as to the security 
of Taiwan. And the list goes on and on and on.
    But, I want to use my time to follow up on our own 
hemisphere, as the Ranking Democrat on the Western Hemisphere, 
to talk about China's influence in our own hemisphere. And I 
will follow up on the points that Senator Menendez made during 
his opening statement, during his questioning.
    The United States should have a strategic advantage over 
China in our hemisphere. We have historic ties. We have 
cultural and geographical ties; we have a history. We are the 
preferred partner. However, we have seen some really disturbing 
trends in recent years. The Belt and Road Initiative: 19--19 
Latin American and Caribbean nations have entered into economic 
agreements with China. We look at, on the health front, Brazil, 
with COVID-19 vaccines. We look at the community of Latin 
American and Caribbean nations, the CELAC, they have entered 
into a 5-year cooperative agreement with China. And we know 
that China wants to use its economic power to undermine our 
economic system so that they determine the rules of 
international engagement, rather than in market economies, such 
as the United States. So, we have joined, in a bipartisan 
effort, as Senator Menendez said, the United States, in the 
Advancing Competitiveness and Transparency and Security in the 
Americas Act. Senator Menendez, Senator Rubio, Senator Cruz, 
and Senator Kaine--we have all joined together.
    So, my question to Secretary Chung is, what can we do? What 
are we doing now, recognizing that China has made unprecedented 
inroads in our own hemisphere, to shore up the economic ties? 
And how can you work with Congress to make it clear that this 
is an all-U.S. effort, that there is no division here in our 
commitment to have closer ties with the countries within our 
own hemisphere?
    Ms. Chung. Thank you for your question, Senator.
    First of all, in terms of the--during the COVID era, we 
have seen China, again, deliver masks, PPEs. Some of it faulty. 
Some of them had to be returned. So, going back to the question 
of, Can you trust what China delivers? While the United States, 
we provided over $20 billion globally for the COVID effort, and 
$140 million just in WHA, the Western Hemisphere. That includes 
PPEs, lab equipment, detection, and also 3,000 ventilators.
    Now, beyond the immediate donations, which address the 
immediate needs, we are looking farther down the road. How do 
we help in the economic recovery efforts? And that is where, 
Senator, when you talked about the whole-of-government effort, 
our America Crece Initiative, the Growth of the Americas 
Initiative, comes in. We want to help these countries, because 
we expect, in 2020, a GDP decline of 9 percent due to the COVID 
and ongoing issues. How do we help them recover in a way that 
is transparent and long-lasting and sustainable? So, through 
the America Crece Initiative, we bring in whole-of-government, 
all the interagency together, and we are forging new 
relationships through DFC, through investment agreements, 
through further discussions on, How do we develop the trade 
frameworks within these countries so that we can have long-
lasting relationships and economic growth beyond the immediate 
needs of the COVID pandemic?
    Senator Cardin. Let me make two other suggestions that 
might help in this area.
    One is the U.S. participation in the OAS. We passed, in our 
committee, legislation that would strengthen the parliamentary 
role within the OAS to make it clear that this is an 
organization that we can better utilize to improve America's 
influence in our own hemisphere. We are members of the OSCE, as 
I am sure you are aware. Our participation there has made a 
much stronger relationship between Europe and the United States 
on the basic principles of our Nation. And I think we can do 
the same within OAS. And I do not think it has been used as 
effectively as we need to.
    And the second point--I get your response to both, if I 
might--is the Caribbean nations. There are many Caribbean 
nations. They are relatively small. And it does not take a lot 
of attention to make sure that we have their support on the 
global community within the United Nations and in our own 
hemisphere. We found, within OAS, we did not get the type of 
support we wanted from the Caribbean states. So, it does not 
take a lot of attention. And China is giving them that 
attention, and the United States is not. So, I would just urge 
us to recognize that we can do a lot more with a relatively 
small amount of funds in some of these small island states.
    Your response?
    Ms. Chung. Thank you, Senator.
    On the OAS, we have seen it as a multilateral institution 
that actually works now. Under the leadership of Ambassador 
Carlos Trujillo, we have engaged, revived the ability of the 
members to speak up against the democratic--anti-democratic 
forces in Venezuela, Cuba, and Nicaragua.
    And another way that we are trying to utilize the OAS is to 
provide space for Taiwan, our partner in the region. Last year, 
we had a humanitarian assistance conference for Venezuela that 
was held at the OAS. And we were able to get Taiwan's head of 
the TECRO to come deliver remarks at the Hall of the OAS and 
announce a $500,000 donation to the Venezuelan humanitarian 
effort. That is unprecedented, to have Taiwan be there, and 
that probably made our friends in Beijing very unhappy. But, 
again, we are trying to provide that space for Taiwan as well 
as other democratic actors in the region.
    Another area where we have provided that space is through 
the Inter-American Development Bank, IDB. This is where China 
provides .004 percent of the contributions, and yet last year 
China tried to demand that, when it hosted that meeting in 
Chengdu, that (a), that Guaido's representative--President 
Guaido's representative, would not be welcome; and (b), 
Taiwan's representative would not be welcome. And Taiwan is an 
observer to the IDB. So, the region, and in concert with the 
United States, pushed back on China's attempts to try to create 
its own rules and regulations in an international body, and it 
was rejected, and the meeting was not held in Chengdu. It was 
held in Ecuador instead.
    So, these are some examples where we can use a multilateral 
organization space to work together with our allies to speak 
up.
    In terms of the Caribbean, as I said earlier, Secretary 
Pompeo is in the Caribbean today. He is on the flight right now 
to Guyana and Suriname, onwards to Brazil and Colombia, but two 
countries that recently held successful democratic elections, 
and to reinforce our partnerships and our long-lasting 
relationships with the Caribbean. Last year, I joined Deputy 
Secretary Sullivan at SOUTHCOM with Admiral Faller and inviting 
all the Caribbean members to a resilience conference to talk 
about how the countries can work together with the United 
States to combat disaster resiliency in the face of hurricanes. 
And we continue to engage the Caribbean to the Caribbean 
Security Initiative and the 2020 U.S.-Caribbean Partnership in 
many ways across the region. And, in addition to that, the 
Caribbean also is home to four countries that have diplomatic 
relations with Taiwan. So, we continue to reinforce those 
relationships, and Taiwan is closely monitoring and enhancing 
their relationships with those countries, as well, in 
recognition that Beijing is constantly trying to flip those 
countries.
    The Chairman. Thank you----
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    We will now move to Senator Romney, who is supposed to be 
with us virtually also.
    Senator Romney.
    Senator Romney. I am with you virtually. Thank you.
    And I want to begin by expressing my appreciation to the 
members of this panel for the work that you are doing in our 
behalf. I think it is perhaps the most important work that is 
going on in our government, because I think the issue of our 
decade, and perhaps beyond that, is going to be how to deal 
with the emergence of China as a great power. And they would 
hope to become the greatest and only great power. So, I salute 
your work.
    I just want to underscore a few things I think we know. We 
know that China's GDP will surpass our own by a lot, just given 
the size of their population, ultimately. We know that, at this 
stage, their procurement is pretty close to equal ours. 
Military procurement, that is. And so, in the future, with a 
greater economy, they will be able to substantially out-invest 
us, in terms of procurement. We know that, geopolitically, they 
are rising, and we are not. They are lining up people to 
support them. People who, in the past, have not supported them 
are now coming to their side. That is, in part, because they 
see where the power goes. Friends often go where they believe 
their interest is going to be best protected. And, as China 
becomes stronger, we may find that they are able to collect 
something which they have never had before, which is friends.
    I think President Trump, by the way, was right to confront 
China and to push back against their trade practices. I think 
he made a mistake by not doing so in collaboration with our 
allies, and being able to have much more clout pushing against 
them. I think Secretary Pompeo was right to have spoken so 
forcefully to awaken our allies to the threat posed by China 
and to encourage a collaboration with them.
    I would also note that many of us have very great concerns 
about the human rights abuses going on in China, the outrageous 
treatment of minorities, the Uyghurs, people of religious 
faith, the people of Hong Kong. It is simply extraordinary. We 
also see their activities in the South China Sea with great 
alarm.
    But--it is my own view, but it is very unlikely that they 
will change these practices in a very significant way until 
they feel pain. And the only pain that we are going to be able 
to exert, other than words and people decrying them, would be 
economic pain. And so, the question that I would ask with 
regards to our panel, and Secretary Stilwell in particular, is, 
are our allies and other nations that are--that follow the rule 
of law, whether, you know, India, Japan, South Korea, the EU--
are they poised to combine, at some point, and to develop a 
collaborative trade policy which will exert such pressure on 
China that they will be diverted from the course they are on 
and move towards a--comporting with the international order? 
Are we there? And, if we are not there, what do we need to do 
to get there?
    Mr. Stilwell. Senator, thank you for that great question.
    It is--it pretty much encapsulates my entire time in this 
job and a lot of success that we have seen in this regard, in 
getting others to find their voice. I mentioned, the Europeans, 
of late, after Wang Yi's not-so-successful tour, have also 
begin to acknowledge the problem.
    As we all know, China uses its economic clout as a cudgel 
to force countries to do things that are not in its own 
interest. And the way many portray this in this new great-power 
competition is the simple act of talking about it, 
transparency. Because we know the information environment 
inside the PRC is clogged, it is one way--you know, those who 
speak out, like Dr. Li Wenliang, who pointed out the problems 
with corona, are oftentimes squelched. And that is because the 
government fears transparency. They do not want to be seen, 
what is happening in Xinjiang.
    And so, we identify that this is a values issue, where they 
are using slave labor to produce things that we appreciate here 
in the West. And I think those of us in the free world are 
smart enough to take action--economic action to address this 
sort of behavior. And so, you have linkages between economic 
interest and values and who we are. And the United States--
Secretary Pompeo, the President--have all been very vocal about 
this, as you said, is to connect those two.
    What you have--the result of that, then, is, you have got 
companies leaving China. You know, when you arrest Australian 
reporters--or you threaten to arrest them because of something 
that is happening in Australia, you now have zero Australian 
reporters in the PRC. You can imagine, businesses are going to 
feel the same thing with this new national security law. 
Article 38 says that if you have said anything derogatory about 
the PRC or about the government, that you are subject to 
arrest. All these things work against that juggernaut that you 
described, Senator, of this inevitability of Chinese domination 
of the global economy. And, at the same time, we are seeing 
great work and cooperation on the economic side. Again, Japan, 
$2 billion to re-shore out of Taiwan--TSMC, the world's 
greatest chip manufacturer, looking to re-shore here into 
Arizona, creating American jobs.
    So, I do not think it is as inevitable as they would make 
it sound. I do think the U.S. has been able to generate 
cooperation with allies, partners, definitely in the East Asia 
Pacific region, and elsewhere, as everyone recognizes the 
threat.
    Thank you.
    Senator Romney. Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Senator Romney. My--I know my time is up. I just want to 
underscore, I believe the importance of combining with these 
other nations on a collaborative basis to confront China.
    Thank you.
    The Chairman. Thank you. I appreciate it.
    For those of us that are attending via the Internet, I 
would appreciate if you would put a clock in front of you for 
the 5 minutes. There is--we have heavy attendance today, and 
everybody wants a shot at this, so to--for respect of fellow 
members, I would appreciate it if those of you who are not here 
with the clock in front of you, like those of us that are here 
have, if you would have your staff or someone keeping track of 
that, we would--all of us would greatly appreciate that.
    Senator Shaheen, who is not with us digitally, welcome.
    Senator Shaheen. Always in person, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen. Thank you, to each of our panelists, for 
being here. We really appreciate your insights.
    And, as you all and my colleagues have said so eloquently, 
China certainly represents a threat to the United States, both 
economically and militarily.
    Ambassador Reeker, economic and governance circumstances in 
the Western Balkans really make that region particularly 
appealing for China. Can you talk about what we are doing? What 
is our strategy to address China in the Western Balkans?
    Ambassador Reeker. Thank you, Senator Shaheen. As you know, 
it is always a pleasure for me to discuss the Western Balkans.
    Senator Shaheen. I knew that.
    [Laughter.]
    Ambassador Reeker. And we have really seen, I think, some 
great developments there. As I mentioned in my remarks, as we 
have discussed across the panel today, China poses a threat in 
that region, as well, where they seek to divide these small 
countries from their Western orientation. But, we have, as we 
do with all of Europe, been engaging to make them aware of the 
threat and the challenge, the problems with the Chinese debt 
diplomacy. And we focus on reciprocity and resilience. And, for 
us, in the Western Balkans, as you are keenly aware, we focus 
on helping all of those countries expand their Western 
orientation. We have seen great success there; Northern 
Macedonia becoming, in spite of the virus this year, the 30th 
member of NATO. Prosperity begins with security. We think 
expanding the NATO alliance to include those countries, like 
Montenegro, as well, just a couple years before, has been a 
very positive step.
    The Three Seas Initiative was developed by countries, a 
dozen countries in the Central and Eastern European region, to 
provide alternatives, particularly in a north-south direction, 
for trade and infrastructure. And we have stepped in to support 
the Three Seas, not as a member, but as an interested partner. 
And Secretary Pompeo outlined, as I mentioned, that the 
Development Finance Corporation is offering up to a billion 
dollars in matching investment funds for opportunities 
throughout that region.
    So, we continue to engage with them. And you have seen, 
recently, the great strides that were made between Serbia and 
Kosovo in their long-term problem, which has hindered the whole 
region, by focusing on the economic side, through the great 
efforts of the White House and Special Presidential Envoy 
Grenell bringing the leaders together, not to tackle the most 
difficult neuralgic issues of recognition, but focusing on 
things they could do to normalize economic relations between 
Serbia and Kosovo. And that has given us some new 
opportunities, as well.
    Senator Shaheen. Can I--I am sorry to interrupt, but--and 
perhaps Assistant Secretary Stilwell would like to weigh on 
this--but, Serbia has actually become a key partner for China 
in--and actually has opened an innovation center with Huawei 
for digital transformation. So, do we have a strategy for 
addressing Serbia and the other countries' interest in 
partnering with China on Huawei and those investments that 
China might be making in that area?
    Ambassador Reeker. Go ahead.
    Mr. Stilwell. Senator, yes, we do. It--I mean, look at the 
work with the UK and helping them understand the downside of--
and national security risks with that. Look at----
    Go ahead.
    Senator Shaheen. [Inaudible.]
    Mr. Stilwell. Okay. So, the strategy is transparency. These 
decisions are made in a nontransparent way by, you know, 
incentives and--call it ``bribes'' with these leaderships of 
these countries to make decisions that are not necessarily in 
the interest of their own people.
    And so, we have focused heavily on making these sorts of 
transactions more transparent.
    Senator Shaheen. And so, what, specifically, has been our 
success in Serbia? Have we been able to get the Serbs to help 
us with the transparency piece?
    Ambassador Reeker. I think it is a work in progress, 
Senator. I think the more we can build our relationship with 
Serbia and help them understand that we are open to their 
interest in being more and more a part of the West, they will 
come to see the same things other European countries are 
realizing: who are the partners they can rely on, what are, you 
know, trusted vendors, in terms of developing high-tech 
infrastructure, the 5G Prague proposals, for instance, which 
set out parameters for dealing with high tech. The European 
Union has developed its own security toolbox. Serbia keeps an 
eye on these things, and it is something we need to let them 
come to that realization that there are options.
    Senator Shaheen. Well, as we talk about trust and reliance, 
what kind of challenge does it present for our partners in 
Europe when we do things like remove troops from Germany 
without consulting with our partners before making that 
decision? Does that undermine our reliability with our 
partners? And what does that say about our ability to get 
cooperation when we are combating China?
    Ambassador Reeker. As you know, I spent some time at 
European Command prior to taking over this job. And we were 
then already focused on the challenges, as outlined in the 
National Security Strategy, of great-power competition, 
including China. I think the real message that we have sent to 
partners is evident, for instance, in the December 2019 NATO 
Leaders Statement out of London, where we declared, for the 
first time, that NATO should address opportunities and 
challenges of China stemming from the PRC's growing influence.
    We do this all together. We have been addressing things 
like force posture over time. I will leave that to my Defense 
Department colleagues to get into the details of that. But, I 
think we have got this, and we are getting it right. The 
eastern partnerships enhance forward presence. The things that 
we did in response to Russian threats, direct existential 
threats, we need to look at the broader range of threats, like 
cyber and hybrid, China being very much a part of that, as 
well.
    And that is what we are doing collaboratively. I think we 
have actually strengthened the alliance. Certainly, you have 
seen the progress on burden-sharing and resources. And I think 
some of the steps we are taking on the force posture are really 
positive developments that reflect these kinds of more 
contemporary concerns that they have.
    Senator Shaheen. Well, I am out of time, so I will not ask 
you the follow-up, but I am not sure I got an answer to my 
question about Germany.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Barrasso, are you with us?
    No, I am told.
    Senator Portman.
    [Pause.]
    The Chairman. Apparently not.
    Senator Paul.
    [Pause.]
    The Chairman. Senator Young.
    [Pause.]
    Senator Young. Mr. Chairman?
    The Chairman. And who is that?
    Senator Young. Yeah, this is Senator Young. Am I jumping 
the gun, here?
    The Chairman. You--we can hear you loud and clear, Senator. 
The floor is yours for 5 minutes.
    Senator Young. All right. Well, thank you, Mr. Chairman.
    And, Ms. Chung, building on my colleague Senator Cardin's 
questions earlier, the Administration has repeatedly warned 
Latin America and Caribbean countries that China's economic 
engagement with the region may foster corruption and lead to 
unsustainable debt traps, as we have seen in other areas around 
the world. How have government officials, private-sector 
leaders, and civil-society groups in the region responded to 
those accusations?
    Ms. Chung. Thank you for your question, Senator.
    As you have seen, China not only uses debt diplomacy and 
poor-quality infrastructure and nontransparent practices, but 
we see their investment hurting the environment, violating 
local labor laws. We have brought these issues to light with 
the region, raised it with our government counterparts, but 
also getting the voices out from local partners, local NGOs, 
local journalists, youth groups. That is where we see the 
power, when we have the regions speaking out for themselves 
about some of the concerns that China brings to the region.
    One example is in Ecuador, the Coco Coda Sinclair Dam. As 
we know that the Chinese funded that under President Correa's 
term. That dam has 7,000 cracks, and they are growing every 
day. It has killed workers. It has displaced people. It has put 
people--villages out of jobs. It has, because of its corrupt 
nature, put people in jail. People have seen, in the region and 
throughout the world, the dangers of what Chinese investments 
can bring. Again, appealing at first--low prices, great terms; 
but, the long-term, the hidden costs are what people are 
understanding.
    So, I think countries and governments are more aware of 
these dangers, more than ever, and taking a more cautious 
approach. Again, doing more due diligence. In the end, it is 
the governments that will decide whether or not to take such 
deals. But, the more that we have civil society and others 
speak out and see the ramifications of what Chinese investment 
means, beyond economics--again, to the environment, to labor 
laws, to society overall--I think that that understanding and 
that knowledge is growing.
    Senator Young. Yeah, that seems to be the key, you know, 
whether it is our bilateral negotiations and diplomatic 
relations or work--when we work through the IMF and other 
multilateral institutions, to the extent we can bring 
transparency to a lot of these decisions made by governments, 
that oftentimes leads to positive results.
    How is the Administration using DFC, the Development 
Finance Corporation, and other forms of foreign assistance and 
incentives to strengthen U.S. partnerships and counter Chinese 
influence in the region?
    Ms. Chung. Thank you for the question, Senator.
    DFC is, again, a powerful tool that we have and think more 
strategically about our engagement in the region and in working 
with our partners. Just 2 days ago, DFC announced they would 
work in partnership with Taiwan to provide SME funding, 
financing, as--from the COVID recovery. And this was just 
announced as of----
    Senator Young. I am sorry, Ms. Chung.
    Ms. Chung. I am sorry.
    Senator Young. I regret--you know, as--I said ``in the 
region.'' I was sort of vague. But, again, in Latin America, in 
the Caribbean countries----
    Ms. Chung. Yes.
    Senator Young. --are these tools, these instruments of 
diplomatic and developmental power being brought to bear in 
that region? If so, how?
    Ms. Chung. Yes. And that is the importance of what I am--my 
point is that Taiwan and the United States are working together 
in Latin America. So, they announced financing to provide SME 
loan support for Latin America--the Central American region 
through the CABEI, the Central American Bank of Economic 
Integration. So, that is one example of where we are providing 
that funding into the region.
    There is also a $26 million loan that DFC has provided to 
provide telecom towers in Peru and Ecuador, 500 telecom towers. 
And this addresses both our strategic interests as well as a 5G 
telecommunications interest that--where China is trying to take 
over and really control that sector.
    And then, working with others to make sure that--working 
with the countries in the region to make sure that they have 
the right tools to be able to assess and do the due diligence 
through programs like America Crece.
    Senator Young. So, this demonstrates, your last point 
there, how this region, the Caribbean and Latin America, that 
whole basin, is really instrumental in countering China. You 
have 9 of Taiwan's 15 diplomatic partners located in that 
Caribbean basin region. And I am grateful for your efforts and 
those of your entire team to ensure that Taiwan has the 
wherewithal to counter Chinese nefarious activity. So, thank 
you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you, Senator Young.
    And Senator Coons, who is with us live.
    Senator Coons. Yeah, thank you, Chairman Risch, Ranking 
Member Menendez, for this important hearing.
    And thank you, to our witnesses.
    China is, as we all recognize, the greatest foreign policy 
challenge the United States faces today, and how we engage with 
China will shape this century, our place in the world, and our 
role. And there is bipartisan recognition, we are better 
equipped to compete with China if we work closely with our 
allies and partners from around the world, in particular, who 
share not just our interests, but our values. And so, I want to 
commend Senator Menendez, Senator Rubio, and others, for the 
crafting and introduction of the ACTSA bill.
    Senator Young. So, I have been trying----
    Senator Coons. Todd?
    Senator Young. --every day----
    Senator Coons. Senator Young.
    The Chairman. Senator Young, you are still with us.
    Senator Coons. I will keep going, if I may.
    The Chairman. Please do.
    Senator Coons. I just wanted to commend the introduction of 
a bipartisan bill that recognizes the significance, the 
centrality of Latin and South America, which are not only 
closest to us geographically, but integral to our country's 
culture, our economy, our role in the world. And China's 
efforts to undermine or replace our relationships in this 
region, as well as in the Indo-Pacific, are concerning, even 
alarming.
    There are positives. We have all talked about the DFC. The 
good news, I think, is that, in every region, we want to see 
more of this powerful tool that can help advance transparency 
in American engagement. One of my real concerns is ways in 
which the Trump administration has enabled China's growing 
influence by threatening and, in some cases, succeeding in 
abruptly withdrawing troops or withdrawing us from 
international organizations. So, let me ask a few questions 
designed to get some clarity around that, if I might.
    Mr. Stilwell--or Assistant Secretary Stilwell, if I might, 
just to put a point on that. The Administration reportedly 
weighed withdrawing troops from South Korea, a move that 
garnered bipartisan concern on this committee and on the Hill. 
Can you assure us the Administration is no longer considering a 
withdrawal of troops from South Korea, and that, if any such 
changes were made, it would not happen without close 
consultation with our allies and partners, as well as with 
Congress?
    Mr. Stilwell. Thank you, Senator.
    Of course, these issues all require cooperation, so--
agreed, we will consult and--but, there is no discussion of 
that in the State Department.
    Senator Coons. Thank you. I respect and recognize that the 
Administration is being forward-leaning in engagement with 
Taiwan. We are in a moment of great, I think, regional 
challenge. And I was wondering whether, as some commentators 
have suggested, there is some consideration of ending strategic 
ambiguity and clarifying our commitment to Taiwan, and whether, 
if there were to be a public change in that position, the--
there would be consultation before that decision was taken.
    Mr. Stilwell. Senator, that is a very good question. It has 
been one that has been very publicly discussed. I gave a 
speech, at the Heritage Foundation, on clarifying the Six 
Assurances. The rationale behind that is to prevent and reverse 
PRC's squeezing of China's international--of Taiwan's 
international space, and get it back into a position that looks 
something like what we agreed to in 1979 with the Taiwan 
Relations Act. And that clarification is important. However, 
this was not an indication of a change in strategy or policy. 
It was simply reversing what we have seen in--as far as picking 
off Taiwan partners, as far as keeping Taiwan from attending 
the World Health Assembly, which the one place that figured out 
corona first, and understood it best, were the people that 
could have helped out, had they been allowed to participate, 
and any number of other multilateral activities that Taiwan is 
allowed to participate in meaningfully. And so, we are working 
hard to clarify that.
    Thank you.
    Senator Coons. Thank you.
    Ms. Chung, if I might, in the time I have got left. You 
mentioned the DFC being on track to deploy 12 billion in 
financing to Central America and the Caribbean. Tell me how 
State and USAID are coordinating. OPIC was long a piece of a 
development strategy. DFC has a broader range of tools and 
resources and reach. And I think, if we are to use the DFC as a 
way to advance our values, in terms of transparency and higher 
labor standards and higher environmental standards, there also 
has to be, internally, coordination with the USAID. How do you 
see that proceeding? And do you see any role for the DFC and 
for our presence in the region to directly combat digital 
authoritarianism and strengthen civil society, as is urged in 
the bipartisan legislation, ACTSA, that was referenced earlier 
by the Ranking Member?
    Ms. Chung. Thank you for the question, Senator.
    In terms of USAID and State, we are in lockstep on our 
China strategy through the America Crece, which is an 
interagency effort, but also through USAID's Clear Choice 
framework that looks at governance, that makes sure that a 
procurement and civil society are all involved in the 
transparency efforts, and to bring those issues to light when 
we hear about opaque deals from China or any other country. So, 
we are very--we are working very closely. We are looking at 
USAID's programs and State programs to make sure we are closely 
aligned. And the programs I would do on anticorruption and 
civil society strengthening all go to build that space so that 
China's malign influence do not come and take over that space. 
So, we are very much closely aligned with USAID.
    One example is in the illegal fishing area, which recently 
we saw in the Galapagos. USAID has programs with the World 
Wildlife Fund to do--to work on natural resource strengthening 
programs. That also enables local groups to be able to fight 
back when we see Chinese fishing ships come back into the 
region.
    And, in terms of DFC and working on digital 
authoritarianism, there is no better example in the region than 
in Maduro's regime, the authoritarian regime of Maduro, and 
working in close concert with China. And China's ZTE has long 
had a relationship with the Maduro regime in providing them 
carnet de patria, which spies on civil society and opposition 
leaders, and determines how--who gets what food allocations 
within that country. And so, right now, of course, we are not 
engaging in DFC in Venezuela, but, in a democratic future, when 
we have a democrat transition in that country, we would love to 
bring DFC into it and help rebuild.
    Senator Coons. Thank you.
    Thank you, to all the witnesses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coons.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Welcome, to each of you.
    Mr. Stilwell, a few months ago, Deputy Secretary Biegun 
testified before this committee, and we talked about reviewing 
the Obama administration's 2015 guidelines for diplomatic 
relations with Taiwan, which prohibit our Taiwanese partners 
from displaying their flags and insignia. As you know, I filed 
legislation to change those guidelines. But, as I have 
emphasized, the State Department does not need that legislation 
to pass to change the Obama guidelines. The Administration 
could make those changes right now.
    Deputy Secretary Biegun said he was not familiar with the 
issue when he testified before this committee. And, as you 
know, in written follow-up, he stated that changing the 
guidelines would be in tension with the Taiwan Relations Act. 
That is a curious statutory interpretation and an odd position 
for the State Department to take. As far as I can see, there is 
nothing in the TRA that requires these guidelines. Rather, it 
is a policy decision to be made by the Administration.
    What, in your judgment, in the TRA justifies preventing our 
Taiwanese allies from displaying their sovereign symbols?
    Mr. Stilwell. Senator, thank you for that question.
    We have been discussing this concept of strategic ambiguity 
with respect to Taiwan, and the--you know, I mentioned earlier, 
the speech we gave at Heritage that helps to clarify those 
things that need clarification, as you suggest right now with 
this particular issue. But, one of the issues in the TRA that 
speaks to this is the decision to leave the question of 
sovereignty undecided, ambiguous. We will not take a position 
on sovereignty. This is part of the back-and-forth between the 
mainland and Taiwan. What we--what the Taiwan Relations Act and 
the Administration policy wants is for this to be resolved 
peacefully and through dialogue, not with coercion or use of 
force. And so, the question of sovereignty was decided to be 
left undecided and to be worked out between the two parties.
    Senator Cruz. Are you testifying to this committee that the 
Taiwan Relations Act mandates the 2015 guidelines?
    Mr. Stilwell. The guidelines follow from the--Taiwan's--
Taiwan Relations Act, I believe----
    Senator Cruz. No, they did not exist prior to 2015, and the 
reason they were enacted was because, in 2015, the Taiwanese 
raised their flag over their Twin Oaks estate in DC, and the 
Chinese government got mad, and the Obama State Department 
decided to kiss up to China and change the rules and appease 
them. But, prior to 2015, there were no guidelines. Prior to 
2015, Taiwanese military officials were allowed to wear 
military insignia. That did not magically change--the statute 
did not magically change, did it?
    Mr. Stilwell. Sir, the broad sweep of the Taiwan Relations 
Act did not change. It is the same.
    Senator Cruz. And was it in violation of that statute when 
Taiwanese military officials were wearing military insignia 
prior to the 2015 guidelines?
    Mr. Stilwell. Senator, I will simply say that, on the 
question of sovereignty--and these are all related--that they--
leaving that decision between those two--it is best in--the 
interpretation is to leave that decision undecided. But, let me 
just note that this Administration has gone very far in 
reversing all of the--those decisions that have been made in 
the past, to clarify, to support. You saw the Secretary of 
Health and Human Services attended. You have a Under Secretary 
in the State Department in Taiwan right now. So, I believe what 
we are doing is definitely in alignment with your interest, as 
well as to support Taiwan, and to make sure that this--that 
they have the ability to resist coercion by the Chinese.
    Senator Cruz. So, I do not disagree that policy has 
improved under this Administration. It is not surprising to me 
that these guidelines were issued under the Obama 
administration and under the leadership of Secretary of State 
John Kerry. Their policy position was far weaker and entailed 
far more appeasement to the Chinese Communists than the Trump 
administration has had. These policy guidelines are utterly 
inappropriate, in my view, for a Trump administration or for a 
Department of State led by Mike Pompeo. They are not consistent 
with the stated policy positions of the principals. It is a 
matter of discretion. Your argument that the statute mandates 
it is not a good-faith argument.
    And so, I would urge State to revisit this issue, because 
you have the ability to change these guidelines right now. It 
was the Obama administration that made them up, and it did so 
at the behest of the Chinese Communists. And if you can make 
them up to make the Chinese Communists happy, you can repeal 
them to make the Chinese Communists unhappy. And I get that the 
Chinese government would be unhappy at repealing them. I view 
that as a feature, not a bug.
    Ms. Chung, as you know, there is broad concern over China's 
predatory investments throughout Latin America, alongside 
separate but related concerns about how China dominates 
important industries, including the critical mineral supply 
chain. I have introduced legislation, the ORE Act, which would 
onshore the supply chain for such minerals. But, of course, the 
concern over China's control is global.
    In Latin America and beyond, China has specifically sought 
to dominate the global supply of lithium. They currently 
control half of the global production of lithium and 60 percent 
of the battery production capacity. Argentina, Chile, and 
Bolivia, known as the Lithium Triangle, has 70 percent of the 
world's lithium reserves. And China has been pouring resources 
into the region.
    What steps are we taking to help these countries protect 
their natural resources and to ensure that they do not fall 
victim to Chinese predatory practices?
    Ms. Chung. Thank you for the question, Senator.
    As you say, the Lithium Triangle in South America, it is--
is critical area where Chinese are very heavily interested in 
maintaining that--imports from that area. We are talking to 
these various governments about proper measures--again, due 
processes, screening measures, CFIUS-like investment screening 
measures--before signing deals with China or any other country. 
I think these are steps that, through technical delegations, we 
are having active discussions with. In addition to that, we 
have a--the Critical Minerals Working Group with Canada, and 
both of us are very keenly aware of the sensitivities of supply 
chains, and working more with the industries themselves. So, we 
are building upon these discussions with Canada and our 
neighbors in the Western Hemisphere, but this is of critical 
interest to us.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, to all three, for your service.
    It is hard to overestimate the value of the gift that we 
have handed China through this Administration's mismanagement 
of America's COVID-19 outbreak. First, it bolsters China's 
argument that autocratic or semi-autocratic forms of 
government, complete with the set of population control tools 
that are being pioneered in Beijing, are more effective at 
meeting modern threats than democracy. When a democracy cannot 
get this epidemic under control after a half a year, when an 
autocracy can get it under control in a matter of months, they 
believe that that strengthens their argument.
    And second, our failure has given China this massive head 
start in the contest for global economic influence. China's GDP 
contracted by 6 percent in the first quarter; it expanded by 3 
percent in the second quarter. Ours contracted by 3 percent in 
the first quarter; it contracted by 34 percent in the second 
quarter. And it is not just that autocratic governments were 
able to get this under control. South Korea did not have a 34 
percent contraction in the second quarter; they had a 2 percent 
contraction. And so, it is not that democracies are unable to 
get COVID under control, but our failure to do so, as the 
worlds most notable and leading democracy, has strengthened 
China's argument that countries should follow their model, and 
has just handcuffed our economy. I mean, our business leaders 
cannot even travel around the world, because America is the 
``sick child'' today. Well, China now steps into that vacuum.
    We have compounded that error by withdrawing from the WHO. 
In Latin America, increasingly, reports suggest that those 
countries are relying on China, not the United States, in order 
to help them deal with COVID-19. China made a $2 billion 
commitment. News, just earlier this month, that State 
Department detailees will be removed from WHO regional and 
field offices all over the world. One of China's preeminent 
defense planners at a conference in 2018 hailed Trump's America 
First strategy, saying, and I quote, ``As the U.S. retreats 
globally, China shows up.''
    And so, my question is this for the panel. And I would love 
your thoughts. You may contest the premise of my question. How 
has the United States failure to control COVID strengthened 
China's hand? And how has our withdrawal from the WHO allowed 
for China to gain prominence on issues of global health?
    Mr. Stilwell. Senator, that is a fantastic question. And I 
appreciate the chance to lay out some of the thought process 
that went behind this.
    I think, in large part, the--there are a couple of key 
failures here. One is the failure of China to control what 
started off as a simple public health problem. And when they 
did control it in the town of Wuhan, where we had a consulate--
we have a consulate--they did it by very inhumane and heavy 
handed tactics. They welded people into their homes. They 
rounded them up if they were sick, and pretty much isolated 
them against their will. They separated parents from their 
special-needs children, and those children died from exposure 
because they were left. So, that is a model--that is certainly 
a model for dealing with this that I do not think any American 
would tolerate.
    Secondly, we are the third-largest country in the world. We 
had 22,000 people coming from China for at least 3 weeks after 
the Chinese knew that this was a problem. And we were the first 
to close our borders to China, and then to others on the 31st 
of January, to deal with this.
    Third, if you look at the numbers, originally the--we did 
not put our numbers out per capita. And being such a large 
country, when you compared our numbers to Belgium and Germany 
and others, they looked worse, but, in fact, per capita, were 
better.
    Fourth, the--we are not an island. The countries that have 
done so well--Korea, as you mentioned, Taiwan, New Zealand--
were able to cut themselves off from the rest of the world and 
prevent the disease from coming in. But, they also cut 
themselves off from commerce, travel, tourism, and all the 
rest. And those countries now, especially in the Pacific, are 
having a very hard time, economically, as the disease 
eventually will make its way into their countries.
    And so, as you know, this whole problem began with the 
Chinese failure to deal with its World Health Organization 
requirements through the International Health Regulations to 
report these things.
    Secondly, their intrusion into multilateral organizations 
like the U.N. and the WHO had the WHO leadership telling the 
world, ``It is okay. I can give you documentation.'' As late as 
mid-February, they were saying, ``Do not overreact to this. 
There is no human-to-human transmission,'' when the fact is, 
there was. And so, that--the U.S. contributes between 400- and 
500-million dollars per year to WHO. The Chinese contribute 
around 40 million----
    Senator Murphy. I think--I appreciate your answer, and I 
appreciate the fact that you have got to sort of hold the line 
here of the Administration. But, the failure to acknowledge 
that we have done grave damage to America's reputation in the 
world by not being able to control this virus, in the way that 
plenty of other democracies were able to, I think, you know, 
speaks to a real blind spot. And, let us just remember, it was 
the President of the United States who was the greatest 
cheerleader for China's response to COVID in January, February, 
March, and April. There was no one who was standing up more 
vocally for China's transparent response, their effective 
response, than this President. That made it hard for a lot of 
other people to get tough on China, when the leader of the free 
world refused to do so.
    So, I hope that we can, as a committee, have a little bit 
more nuanced discussion about the effects of our failure on 
COVID, and its impact on our reputation and ability to 
influence events around the world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Perdue, are you with us?
    [Pause.]
    The Chairman. If not, we will go to Senator Kaine. Is 
Senator Kaine with us?
    [Pause.]
    The Chairman. Senator Merkley, you are up.
    Senator Portman. Senator Portman is with you.
    The Chairman. Oh. There you are, Senator Portman. Thank you 
very much. We will--Senator Portman, I guess you are here, on 
seniority on our side. So, I guess we will go to Senator 
Portman, and then we will go to--then to you, Senator Merkley.
    Senator Portman, you are up.
    [Pause.]
    Senator Portman. Thank you, Senator Risch. Can you hear me 
okay?
    The Chairman. I can hear you now.
    Senator Portman. Okay. Well, first of all, I really 
appreciate you having the hearing. I have enjoyed listening to 
our witnesses, and hearing your and Senator Menendez's opening 
comments.
    I have a question for each of the witnesses, just quickly, 
if we could, at the start.
    We have so many challenges with China. And, as former U.S. 
Trade Representative, we have not even gotten into some of the 
detailed trade challenges that we have had, but competitiveness 
and--and we talked about the human rights challenges, we have 
talked about the challenge to our technology and our 
innovation, which I want to talk about in a moment. But, each 
of the witnesses, just very, very quickly, how would you 
describe our relationship with China? And specifically, would 
you consider China to be an adversary, a global competitor, an 
enemy? How would you describe China today in relation to its 
relationship to the United States?
    The Chairman. Mr. Stilwell, why do you not--start with you, 
and----
    Mr. Stilwell. Senator, thank you for that question. I can 
answer that fairly question.
    Our official policy is, China is a strategic competitor. I 
will note that internal conversations in the PRC, they refer to 
the United States as ``the enemy.'' They have been doing that 
since 1950. In 2012, in the headline of the People's Daily, 
when one of their Communist Party members ended up on the 
Chengdu Consulate, the headline was, ``The Comrade Wang Lijun 
Has Defected to the Enemy,'' unashamedly noting that. And so, 
if you look at the difference in approaches and attitudes 
toward each other, I think you can see that the approach from 
the Trump administration was long overdue, yet we are not using 
the word ``enemy.'' We are simply competing. And, in simply 
competing, we are having great effect in normalizing Chinese 
behavior in the United States, and its adverse behavior in the 
United States and elsewhere in the world.
    And a number of folks who are coming in support verbally 
and strongly from these two regions and all others is growing 
considerably as people recognize that the economic threats--you 
do not have to bow to those, you can stand up for your 
sovereignty.
    Thank you.
    Senator Portman. Anyone else have a different description 
other than ``strategic competitor''?
    Ambassador Reeker. Senator, it is Phil Reeker, from the 
European Bureau. I would echo that the term ``strategic 
competitor,'' as we describe it, certainly, in the National 
Security Strategy, but to point out that, in Europe, we see 
this as the PRC trying to establish their own strategic 
foothold there and, indeed, promote an authoritarian model of 
governance and state-controlled economy, and challenge U.S. 
national security by weakening our political and economic and 
military ties. Indeed, over the last, say, 12 years, the PRC 
gained increasing influence over European markets and supply 
chains, something the Europeans, particularly since COVID, have 
been focusing on, in terms of resilience, and working with us 
on that. The 2008 financial crisis really exposed that, where 
the PRC, with lots of cash, came in and targeted investment 
strategies in strategic industries and critical infrastructure, 
including ports and other things.
    We have seen a real sea change, particularly in the last 3 
years, this ``awakening'' that Secretary Pompeo has talked 
about, due to our own realization of China's long-term 
strategy, sharing that with our European partners and allies, 
including at NATO, where we have officially put into NATO's 
doctrine, going forward, to look at the challenges and 
opportunities of the PRC as a strategic competitor. And you 
have seen the Europeans, of course, adopt investment screening 
mechanisms at the national level. The EU, itself, adopting, for 
instance, a cyber-sanctions thing. They had their first 
designation of a Chinese entity under their cyber sanction 
regulation.
    Senator Portman. Thank you, Ambassador Reeker. Thanks for 
that. Let me get to another question.
    And, first of all, I appreciate the hard work that you are 
doing in Europe. And I think people have begun to wake up to 
the challenge. And, having been in Europe pre-COVID to talk 
about some of these challenges, they do need to wake up, and 
they can--you mentioned the CFIUS-type screenings in Europe, 
kind of, catching up. You know, they are looking to us to 
provide some information there to understand better how they 
can screen investments.
    You know, certainly, the challenges we face, we talked 
about this morning, the answer is, let us work with the--with 
others, and require China to do certain things, and impose on 
China, you know, some additional level-the-playing-field 
fairness, and so on. And I do not disagree with that. And I 
mentioned trade earlier. That is an example where sometimes 
they have done things that are just wrong, either by 
subsidizing or by selling below cost, and violate the 
international norms.
    But it seems to me, a lot of our more productive approach 
to China would be getting our own house in order. The 
competitiveness would be the most obvious example of that.
    But, there is another one that I have worked on a lot with 
some colleagues on the committee, including the bipartisan 
leadership of this committee, and that is, how do you safeguard 
American intellectual property, American innovation, and 
American taxpayer-paid research? And we have legislation called 
the Safeguarding American Innovation Act. It comes out of a 
year-long investigation into this issue and was able to expose 
that, really, for two decades, China has been systematically 
targeting American researchers, usually, again, U.S. taxpayer-
paid research, and systematically taking that research back to 
China.
    Since we came out with our report, and since we had a 
shocking hearing on this topic about what has happened, the 
FBI, Department of Justice, U.S. Attorneys have stepped up, and 
there have been several great public arrests of Chinese 
researchers, particularly with their Thousand Talents Program, 
who have, again, taken U.S.-paid research, and taken it to 
China to help fuel the Chinese economy, really, over the last 
two decades, and also the Chinese military, because some of 
this research is actually military research.
    So, that legislation, we are trying to get passed on the 
floor now. We have 19 bipartisan cosponsors, including Chairman 
Risch. It is not only the result of a year-long investigation 
and a hearing, it has also been reported out of the Homeland 
Security, Governmental Affairs Committee. And I will tell you, 
we are now told that the FBI is opening a new China-related 
investigation every 10 hours, with about 2500 open 
counterintelligence investigations across the country. That is 
public information. And so, we know more, in classified 
settings we cannot talk about today, but the point is, our 
American research, our innovation, has been going out the door 
to--particularly to China--other countries, as well, but China 
is, through its Thousand Talents Program, is the main 
perpetrator.
    And my point is, we have five things in this legislation we 
have to do internally to tighten up. And this is not about 
telling China what they have to do. Frankly, it is about 
telling our universities and our research institutions and our 
Federal agencies, like NIH, National Science Foundation, the 
Department of Energy, and others, they have to tighten up. It 
is tightening up our visa requirements when we know people are 
coming here to steal technology. We need a way to help the 
State Department be able to screen those folks.
    So, I wonder if any of you have any comments on 
safeguarding America's Innovation Act and the need for us to 
get our own house in order here to be able to protect taxpayer-
paid research, and to be, therefore, more competitive in an 
increasingly difficult climate with China.
    Mr. Stilwell. Senator, I will say, very briefly, you saw 
the closure of the Houston Consulate. This is just the tip of 
the iceberg of all the things that we have been doing that 
align very nicely with what you are discussing.
    Thank you.
    Senator Portman. Yeah.
    The Chairman. Thank you.
    Senator Portman, I--we have--we are really short on time 
here. If you have some additional follow-ups----
    Senator Portman. I would just ask Senators--for the record, 
Mr. Chairman. And thank you for the time.
    The Chairman. Yeah. That is--that would be the way to do 
it, is to send a question for the record. And I have no doubt 
that the witnesses will respond promptly and appropriately. So, 
thank you very much.
    For the information of the committee, we have got a couple 
of people yet to ask questions. And time is up on the vote. We 
have two votes. I am going to try to stall the floor as long as 
I can, until they send somebody up to arrest us. But, in the 
meantime, Senator Merkley, why do you not----
    Senator Merkley. Well, thank you, Mr. Chairman.
    And I will ask our team up here to be as brief as you can 
so that I can--we can get to the other Senators who have not 
been able to ask questions.
    Deputy Chung, there has been a lot of discussion of 
strategic ambiguity in regard to Taiwan. An article by the 
president of the Council of Foreign Relations, Richard Haas, 
said that it is time to have to have strategic--to put an end 
to strategic ambiguity, that it has run its course. This is in 
the context of whether we would defend Taiwan if it was 
attacked. Others have said, ``No, that would be a big mistake. 
You might actually encourage an attack, but we should have a 
much stronger, clearer, well-coordinated position with the rest 
of the developed world, in terms of the economic sanctions that 
would occur in--and perhaps including closing our countries to 
Chinese products, which would be devastating to China if they 
were to attack.'' And others have said, ``No, let us just keep 
encouraging their participation in international organization. 
That is enough.''
    Where are you on this spectrum?
    Ms. Chung. Thank you, Senator, for the question.
    Our relationship with Taiwan and the Western Hemisphere has 
really been unprecedented in the past 2 years.
    Senator Merkley. Do not give me the whole history, because 
we are on very short time.
    Ms. Chung. Yep.
    Senator Merkley. I am asking where you are on this spectrum 
of strategic ambiguity and the tools that we have.
    Ms. Chung. We are very clear on partnering with Taiwan, and 
we have had nine of their countries that recognize it, but 
seven additional countries in the region that have trade 
offices. So, we want to enhance our relationship, and we want 
to build upon this partnership with Taiwan. We are doing more 
trilaterally, more joint financing, and certainly more 
partnerships, like the Global Cooperation Training Framework, 
to build out what we can do together with Taiwan. So, much more 
forthright and public about our partnerships in the Western 
Hemisphere.
    Senator Merkley. Okay.
    Do you share the concern that the growing military capacity 
of China, and the growing, kind of, adventurism of President Xi 
make this an important topic for us to keep thinking about?
    Ms. Chung. I think--globally, that is true. In the Western 
Hemisphere, of course, we are looking at all action that China 
is doing to come into the region.
    Senator Merkley. Thank you very much.
    Mr. Reeker, China is financing a quarter of the coal 
projects around the world--either financing them or offering to 
finance them, including countries like Turkey and Bosnia and 
Herzegovina. And are we working to provide financing for 
cleaner energy strategies as we see the impacts of what is 
happening here in the United States with the hurricane 
intensity and the fire intensity?
    Ambassador Reeker. Senator, I mentioned earlier the Three 
Seas Initiative, which includes some of the countries you have 
mentioned--Bosnia, Herzegovina, for example. A lot of what the 
Three Seas Initiative is designed to develop are new, modern 
infrastructure, including energy infrastructure. And the DFC, 
as Secretary Pompeo announced, has put forward up to a billion 
dollars in----
    Senator Merkley. So, is this a yes? That we are trying to 
discourage the Chinese sale of coal plants around the world?
    Ambassador Reeker. We certainly are trying to give these 
countries options for not taking Chinese debt diplomacy and 
other engagements so that they know----
    Senator Merkley. Thank you.
    Assistant Secretary Stilwell, it worries me the 
Administration has not renewed the J-1 visas for a number of 
the foreign journalists employed by the U.S. Agency for Global 
Media. They often help us shine a light on issues around the 
world that puts them in a dangerous place with their home 
countries. This is--includes the challenge of Chinese 
journalists who might be sent home to China. And we know what 
happens when people are in disfavor back home. Should we work 
together to renew those J-1 visas, these folks who are working 
in partnership with us who may be at risk if exported back 
home--deported?
    Mr. Stilwell. Senator, this is obviously a complicated 
question. I will note that the PRC's using of its, ``media,'' 
which is, in fact, a state organization, and claiming that they 
are journalists, endangers everybody. It endangers all Chinese 
folks who are trying to do good journalism. And so, you know, 
the Administration has taken steps to rectify that by 
addressing the issue on I-visas to make sure that----
    Senator Merkley. But, wait, what--here is why I am 
confused. Why is it complicated? These folks are working for 
us, they are being employed by us, they are helping us shine a 
light on their home countries, often in unfavorable way, puts 
them at enormous risk if they are returned home. It has always 
been standard to continue to extend their visas as long as they 
are still working for us. Why would we--why is it complicated? 
I mean, why would we not protect them after they have worked in 
partnership with us?
    Mr. Stilwell. Senator, I am going to have to get back to 
you on that one, but----
    Senator Merkley. Okay. Look forward to that, because this 
is--I do not think this has gotten attention, and it places 
people at grave risk.
    And finally, Mr. Reeker, there is a lot of pressure that 
China is putting on countries, using its economic clout, not to 
be critical of their enslavement of a million Uyghurs. That 
pressure includes pressure on the Organization of Islamic 
Cooperation. Those countries were quite vocal about the impact 
of the Rohingya in Burma, but they have been cowed, discouraged 
to comment on the treatment of the million Muslims enslaved in 
China. Are we working with the OIC to give them, kind of, the 
strength to speak up on human rights, including the abuses in 
China?
    Ambassador Reeker. Senator, thanks for highlighting that. 
My Bureau does not work with the OIC directly, but we do work 
with our European partners. And just yesterday, when Foreign--
--
    Senator Merkley. Yes.
    Ambassador Reeker. --Secretary Raab was here from Britain, 
we highlighted very much, in the conversation with Secretary 
Pompeo, the horrors of the repression in Xinjiang.
    Senator Merkley. Are the Europeans really joining us in 
this effort?
    Ambassador Reeker. We are seeing a lot of outspoken 
statements, including from our British partners yesterday, not 
only Xinjiang, but also the human rights violations in Hong 
Kong, speaking up for them. And we do see that in a number of 
fora. It would be good if the Islamic world spoke up for 
exactly the----
    Senator Merkley. Did Disney make a mistake by working in 
close cooperation with the regional government in China that is 
enslaving the Uyghurs?
    Ambassador Reeker. I am not familiar with Disney in this 
capacity.
    Senator Merkley. This is the filming of the film ``Mulan.''
    Ambassador Reeker. I am not familiar with it.
    Senator Merkley. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Merkley.
    That--I am told there is no one else online.
    And, Senator, did you want the floor for a second?
    Senator Menendez. Just very briefly, Mr. Chairman.
    I have a series of other questions, which I am going to 
submit for the record--the Mekong River, on China's fishing off 
of Ecuador, and what that means in a World Heritage site, and a 
few others. I would appreciate substantive responses to them.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Menendez.
    For the information of all members, the record will remain 
open until the close of business on Friday. We ask the 
witnesses to please respond as promptly as possible. Your 
responses will also be made a part of the record.
    And thank you, to the three witnesses. You have been very 
patient with us. And we look forward to your responses. So, 
thank you with that.
    And the committee is adjourned.
    [Whereupon, at 12:09 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Assistant Secretary David R. Stilwell to Questions 
                  Submitted by Senator Robert Menendez

                            south china sea
    I welcomed the Administration's clarification of our legal position 
on China's unlawful claims in the South China Sea earlier this year. 
However, as you know, international law is not self-enforcing:
    Question. What is the Administration doing to implement this new 
approach?

    Answer. The United States is committed to upholding a rules-based, 
free, and open South China Sea. We continue to bolster our security and 
economic relationships with Southeast Asian claimants. We have made 
clear that we stand by our Southeast Asian allies and partners in 
defending their sovereign rights in the South China Sea, and we are 
willing to consider various options available to deter and defend 
against coercion.
    In August, the Administration imposed visa restrictions on People's 
Republic of China (PRC) individuals responsible for, or complicit in, 
either the PRC's large-scale reclamation, construction, or 
militarization of disputed outposts in the South China Sea, or its use 
of coercion against Southeast Asian claimants to inhibit their access 
to offshore resources. These individuals will now be inadmissible into 
the United States, and their immediate family members may be subject to 
these visa restrictions as well. In addition, the Department of 
Commerce has added 24 PRC state-owned enterprises to the Entity List, 
including several subsidiaries of China Communications Construction 
Company (CCCC), for their role in Beijing's militarization of the South 
China Sea.

    Question. What consultations have you had with partners and allies 
on their statements and actions?

    Answer. The United States continues to engage regularly and at all 
levels with allies and partners on the importance of maintaining a 
rules-based and free and open South China Sea, including on both 
strategic and legal matters. In recent months, a number of countries 
have formally protested PRC maritime claims at the United Nations, 
including Australia, France, Germany, Indonesia, Malaysia, the 
Philippines, Vietnam, and the UK.
                        digital authoritarianism
    Authoritarian nations, such as China and Russia, are utilizing 
emerging technologies in new ways to surveil and repress both domestic 
and foreign populations, as well as manipulate democratic elections. 
Furthermore, these countries are currently spreading their models for 
digital authoritarianism to other countries who may be attracted to 
these new modes of social control.

    Question. What is the Administration's strategy to counter the 
spread of digital authoritarianism and the malign use of digital 
products and services in the Indo-Pacific?

    Answer. We work with allies and partners to promote an open, 
interoperable, reliable, and secure global Internet based on shared 
democratic values and respect for human rights, both online and 
offline, as embodied in the National Security and Cyber Strategies. 
Through diplomatic engagement and foreign assistance programs, we 
oppose digital authoritarianism by bolstering partners' political will 
and technical capacities, and empowering civil society. The 
Department's Digital Connectivity and Cybersecurity Partnership 
promotes increased connectivity and a competitive global marketplace 
for the digital economy by supporting and regulatory reforms, U.S. 
export assistance, and capacity building.

    Question. How is the U.S. engaging our allies and partners to 
dissuade them from integrating technologies and techniques predicated 
on digital authoritarianism?

    Answer. Guided by the 2018 National Cyber Strategy and the National 
Strategy to Secure 5G, the United States leads the international 
community in bilateral and multi-lateral fora to oppose digital 
authoritarianism. The Department's programs and policy efforts seek to 
universalize the framework for responsible state behavior in cyberspace 
we have promulgated in the U.N. and elsewhere; defend human rights 
online, including affirming people have the same rights online as they 
do offline; encourage allies and partners to restrict use of untrusted 
5G and other critical ICT networks vendors; promote multi-stakeholder 
internet governance models; build cyber capacity; combat disinformation 
online; and counteract use of the Internet for terrorist purposes.

    Question. Authoritarian nations, such as China and Russia, are 
utilizing emerging technologies in new ways to surveil and repress both 
domestic and foreign populations, as well as manipulate democratic 
elections. Furthermore, these countries are currently spreading their 
models for digital authoritarianism to other countries who may be 
attracted to these news modes of social control: Did the President of 
the United States give a green light to the President of China to build 
his concentration camps?

    Answer. This Administration's actions to stop human rights abuses 
in Xinjiang speak volumes. The President has personally heard from 
Uyghurs affected by the PRC's campaign of repression, including Jewher 
Ilham, who is the daughter of prominent Uyghur scholar Ilham Tohti, who 
was given a life sentence in 2014. More than any other government, the 
United States has taken concrete action to combat the PRC's campaign of 
repression in Xinjiang, to include visa restrictions, financial 
sanctions, export restrictions, import restrictions, and the release of 
a business advisory. We have also joined with like-minded partners in 
publicly condemning these human rights abuses.

    Question. What is the Administration's position on China's use of 
water that flows from Tibet, like the Mekong, and its impact on 
Southeast Asia and the Indo-Pacific region?

    Answer. The PRC's unilateral decisions to alter upstream water 
flows on the Mekong without sharing sufficient data with downstream 
neighbors have exacerbated a historic drought. We stand with the region 
and the Mekong River Commission (MRC) in calling for more transparent 
data sharing and encourage countries of the Mekong region to hold the 
PRC accountable to its pledge to share its water data in partnership 
with the MRC. Mismanagement by the PRC of the many rivers in the Indo-
Pacific poses an economic and security risk for the region. We urge 
countries in the region to work together to manage critical natural 
resources and river basins as a means of improving water security.

    Question. Is there any plan to include water security into the 
National Security Strategy for the region and explore using platforms 
like the Lower Mekong Initiative or U.N. forums to create more 
international awareness about this?

    Answer. The Mekong-U.S. Partnership, which succeeds the Lower 
Mekong Initiative, will continue to strengthen water security and the 
rules-based approach to transboundary governance through the MRC. We 
also work with U.S. interagency partners to address water issues 
regionally and globally under the U.S. Global Water Strategy. With 
regard to the Convention on the Law of the Non-navigational Uses of 
International Watercourses, the United States, like many other 
countries, is not a party. We believe that many of the concepts in the 
convention can be a useful resource to countries seeking to work 
together to improve water security, as can many of the resources 
available via the U.N. Water interagency coordinating mechanism.

    Question. I remain deeply concerned with China's pattern of 
aggression in territorial disputes with India. From the 2017 Doklam 
standoff, to the recent violence along the borders in Sikkim and 
Ladakh, to China's new claims to Bhutanese territory, the Chinese 
government has sought to redraw the map of South Asia without 
respecting the region's people or governments. Such aggression resulted 
in the tragic violence along the Line of Actual Control earlier this 
year, and the international community must be clear that such behavior 
is unacceptable. The U.S.-India partnership can play a vital role in 
responding to Chinese aggression, and it is especially important that 
this partnership rest on the democratic values that the Chinese 
government lacks: How has the Department engaged with the Indian 
government to develop a diplomatic strategy against Chinese efforts to 
violate the sovereignty of countries in South Asia?

    Answer. The Department has engaged closely with the Indian 
government to resist Beijing's efforts to violate the sovereignty of 
countries in South Asia. Our growing defense ties and regular high-
level engagements with India, including the Quad, State-DoD 2+2 
Ministerial Dialogues, calls with senior Indian officials to discuss 
the border situation, and engagements by our Ambassador in New Delhi, 
reinforce our shared commitment to a free and prosperous South Asia. In 
addition, Deputy Secretary of State Biegun's COVID-19 coordination 
calls with Indo-Pacific counterparts, including Indian Foreign 
Secretary Shringla, have fostered like-minded cooperation on supporting 
South Asian countries vulnerable to PRC debt and economic pressure. We 
will continue to use upcoming dialogues to discuss the challenges that 
China poses to India and the region, and to offer U.S. support to India 
and other South Asia nations that find their sovereignty and security 
at risk as a result of China's continued aggression.
                                 ______
                                 

         Responses of Ambassador Philip T. Reeker to Questions 
                  Submitted by Senator Robert Menendez

    Question. Who is the day-to-day lead within the Europe bureau on 
coordinating U.S. policy with the continent on China?

    Answer. Deputy Assistant Secretary Alexander Alden oversees the 
Office of European Union and Regional Affairs and the Office of Policy 
and Global Issues. In this capacity, he is responsible for 
strengthening U.S.-EU relations and for coordinating efforts to counter 
Chinese regional influence with the relevant offices and bureaus within 
the Department.
                              human rights

    Question. Europe has also been accused of pulling punches when it 
comes to criticizing China's human rights record.
    Specifically, how can we better partner with Europe to counter 
these abuses, especially in Xinjiang and Tibet?

    Answer. The United States actively consults with the European Union 
and our European partners on how to respond to the PRC's egregious 
human rights abuses in Xinjiang and elsewhere. This includes informing 
European capitals about the reputational, economic, and legal risks of 
doing business with supply chain links to forced labor and other human 
rights abuses in Xinjiang and throughout China. In July, the 
Department, along with Treasury, Commerce, and Homeland Security, 
issued a Xinjiang Supply Chain Business Advisory. Several European 
governments have expressed interest in developing the kinds of advisory 
and punitive tools the United States uses to deter businesses, 
including banks, from dealing with supply chains tainted by forced 
labor and other human rights abuses. At the 74th United Nations General 
Assembly in 2019, we joined the United Kingdom's joint statement on 
Xinjiang, along with 17 European signatories, and we co-sponsored a 
side-event with the UK, Canada, Germany, and the Netherlands on the 
situation in Xinjiang. We will continue to engage regularly with our 
European partners and Allies to advocate for respect for human rights 
and fundamental freedoms in China while encouraging safe haven, 
treatment, travel assistance, and other assistance to Uyghur and other 
refugees and asylum seekers from there.

    Question. Who is in charge of coordinating U.S.-EU human rights 
policy on China?

    Answer. The Department of State's Bureaus of Democracy Human 
Rights, and Labor; International Organization Affairs; and European and 
Eurasian Affairs conduct regular dialogues and engagements with the 
European Union, including on the subject of human rights in China.

    Question. What would you characterize as `wins' in this category?

    Answer. Since the release of the 2017 National Security Strategy, 
we have engaged with Europeans on the China Challenge. European 
governments and the EU are taking action to confront the PRC on its 
human rights record and reject PRC attempts to coerce them into silence 
or compliance. We see progress on European `pushback,' whether it is a 
decision in Sweden or Belgium to close a Confucius Institute in favor 
of freedom of expression; the desire of the Czech Senate President to 
visit Taiwan despite threats of retaliation from the PRC; the United 
Kingdom's joint statement on Xinjiang, made along with 17 European 
signatories at the 74th United Nations General Assembly in 2019; and 
the side-events we co-sponsored with the UK, Canada, Germany, and the 
Netherlands on the situation in Xinjiang. Several European governments 
have expressed interest in developing the kinds of advisory and 
punitive tools the United States uses to deter businesses, including 
banks, from dealing with supply chains tainted by forced labor and 
other human rights abuses. We also welcome the EU High Representative 
for Foreign Affairs and Security Policy Joseph Borrell's announcement 
that the EU is ``working on a comprehensive and coordinated EU 
response'' to address the erosion of Hong Kong's freedoms, after UK, 
France, and Germany announced the suspension of their extradition 
treaties or pending treaty negotiations with Hong Kong. Coordination on 
human rights policy issues will also be an important focus of the 
upcoming U.S.-EU Dialogue on China.

    Question. Has the U.S. urged Europe to change its views on the 
Confucius Institutes and do you sense that European attitudes are 
shifting on these Chinese cultural and educational efforts?

    Answer. We have shared our experiences countering the Chinese 
Communist Party's malign influence with European partners, including 
issues related to research integrity, academic freedom, free speech on 
campuses, and Confucius Institutes. Recent decisions in Europe to 
shutter Confucius Institutes and increased scrutiny by European 
legislators and journalists of PRC influence on university campuses 
show that our engagement with likeminded partners is making a 
difference and attitudes are indeed changing. European governments and 
civil society are increasingly aware and active.
                                 ______
                                 

  Responses of Principal Deputy Secretary Julie J. Chung to Questions 
                  Submitted by Senator Robert Menendez

    Question. COVID-19 response in Latin America: Latin America is the 
current epicenter of the COVID-19 pandemic. China's Foreign Minister 
recently announced a $1 billion loan program for COVID vaccine access 
in the region. While USAID has delivered over 2,000 ventilators to the 
region, I am concerned that the Trump administration's efforts once 
again fall into the category of over promise and under deliver. Our 
record is further complicated by the Administration's deportation of 
dozens of COVID-positive immigrants to Guatemala and Haiti. We must do 
more to show our hemispheric partners that we are in this fight 
together:
    Given the importance of the need for access to a future vaccine, 
how is the United States supporting countries in Latin America and the 
Caribbean to ensure equitable vaccine access across the region?

    Answer. USAID is committed to supporting global access to safe and 
efficacious vaccines against COVID-19 when available. USAID is working 
with the National Security Council, State Department, and interagency 
partners to ensure that needs in Latin America and the Caribbean are 
appropriately prioritized in the global response efforts. USAID is a 
longstanding Gavi donor, and since 2001, has supported Gavi to 
vaccinate more than 822 million children in 73 countries--preventing 
more than 14 million future deaths. In February 2020, the U.S. 
Government announced a budget request for a new, $1.16 billion 
contribution to Gavi over fiscal years 2020-2023. USAID has been a 
major partner in health development in the LAC region over the past 50 
years and can build upon those past investments to support vaccine 
access.

    Question. China and Environmental Concerns: For the fourth 
consecutive year, a large Chinese fleet was illegally fishing at a 
short distance from the boundaries of the Galapagos Islands, 
threatening the marine life and biodiversity of a recognized U.N. World 
Heritage site and potentially violating Ecuador's sovereignty. 
Overfishing has many environmental repercussions and a detrimental 
effect on tourism, which is a major source of income in Ecuador. The 
Government of Ecuador, however, does not have enough capacity to detect 
and deter Chinese fishing vessels, leaving illegal fishing to continue 
unabated:
    Can you explain the implications of these incidents and China's 
broader environmental record in Ecuador?

    Answer. Beyond the serious implications of illegal, unreported, 
unregulated fishing, the previous Ecuadoran administration of Rafael 
Correa engaged with the PRC with a disregard for the environment, rule 
of law, and responsible practices. For example, 13 workers died due to 
unsafe working conditions at the PRC-financed and built Coca Codo 
Sinclair dam. The hydroelectric plant has never become fully-
operational due to corruption and faulty construction. A sinkhole that 
caused the oil spill earlier this year may have resulted from activity 
associated with this dam. The U.S. National Response Team provided 
assistance to help mitigate the impact of the oil spill on local 
communities, the environment, and provided guidance to avoid the 
sinkhole reaching the dam intake and rendering it completely useless.

    Question. How can the U.S. support Ecuador's efforts to deter these 
practices?

    Answer. The United States supports partners like Ecuador in 
protecting ocean resources through the sharing of information, as well 
as by providing technical advice and assistance. Recently, in 
coordination with the Ecuadoran Navy, the U.S. Coast Guard cutter 
Bertholf completed a joint patrol to detect and deter potential IUU 
fishing near the Galapagos. Additionally, USAID is helping build 
increased transparency and accountability into the management of 
natural resources in the face of informal and illegal extractive 
activities that affect livelihoods and the health of ecosystems. 
Through America Crece, the U.S. is supporting Ecuador and other 
countries in the hemisphere to evaluate infrastructure projects for 
quality and transparency.

    Question. As you know, I and members of the Senate Foreign 
Relations Committee introduced bipartisan legislation last month to 
strengthen U.S. competitiveness in Latin America and the Caribbean and 
address China's economic, security, and intelligence engagement. The 
bill, Advancing Competitiveness, Transparency, and Security in the 
Americas Act (ACTSAA) requires the Departments of State and Treasury to 
provide technical assistance to regional partners to help them 
safeguard their infrastructure from predatory foreign investment, 
similar to the Committee for Foreign Investment in the U.S. (CFIUS). 
What initial steps have been carried out on this front?

    Answer. We have a shared interest with our partners throughout the 
Western Hemisphere in ensuring that predatory buyers do not endanger 
our collective security by exploiting the global economic crisis to 
gain control over sensitive technologies and critical infrastructure. 
We have encouraged our allies and partners to protect critical 
infrastructure and sensitive technology and information through 
rigorous, transparent, whole-of-government foreign direct investment 
screening processes focused on national security risks, while still 
allowing capital flows to energize economic recovery. Working closely 
with Treasury and other interagency partners, we deployed interagency 
technical teams to countries such as Brazil, Canada, and Chile that 
have sought to develop their capacity to institute national security 
investment screening.

    Question. Can you briefly outline how the Administration 
prioritizes DFC engagement in the region?

    Answer. The U.S. International Development Finance Corporation 
(DFC) plays a critical role in leveraging the power of private sector 
investment to advance U.S. foreign policy objectives in the Western 
Hemisphere. Ensuring a robust recovery from the economic effects of the 
COVID-19 pandemic will require significant private investment and the 
DFC has committed to spur at least $12 billion in private investment in 
Latin America and the Caribbean over the next 5 years. The Department, 
both through our embassies and through the Secretary's role as Chairman 
of the DFC Board of Directors, is working closely with DFC to identify 
investment opportunities, particularly in less developed countries and 
in certain sectors that may need greater assistance in facilitating 
private investment. Through DFC and other economic foreign policy 
tools, the Administration is providing our partners with alternatives 
to unfair and opaque Chinese economic practices and promoting U.S. 
solutions, rooted in transparency and the rule of law. As such, the DFC 
plays a key role in advancing Administration's multi-pronged strategy 
for countering the malign aspects of China's engagement and ensuring 
the United States remains the region's preferred trade and investment 
partner.

    Question. ACTSAA requires the designation of a China Engagement 
Officer at WHA embassies to report on China's presence in the region. 
Can you outline the reporting officers you have in the region?

    Answer. Our embassies are staffed with officers conducting 
political, economic, consular, and public diplomacy efforts to maximize 
the U.S. role as the partner of choice in the Western Hemisphere. They 
monitor and respond to Chinese activities in their respective host 
countries. All of our embassies and many of our consulates in the 
Western Hemisphere have officers responsible for performing these 
functions.
    We also have a Regional China Officer (RCO) based in Lima, Peru, 
who tracks regional trends and supports our reporting and public 
outreach teams at our missions in the field. We look forward to hosting 
three additional WHA-focused Regional China officers, who will be based 
in Bridgetown, Montevideo, and Panama City starting in fall 2021. These 
officers lead and coordinate our strategy to counter China's malign 
activities by assessing the PRC's drive for influence in the region and 
developing effective responses to that.

    Question. ACTSA requires the Executive branch to provide our 
regional partners with assistance on cyber-security and cyber-defense. 
Can you briefly outline initial efforts?

    Answer. The U.S. Government provides cybersecurity technical 
assistance to partners in the Western Hemisphere. For example, the 
Department of State funds partners like the Organization of American 
States Inter-American Committee Against Terrorism (OAS-CICTE) 
Cybersecurity Program to carry out cybersecurity capacity building 
activities in the region. The Department also funds Western Hemisphere 
countries to participate in global programs, such as the George C. 
Marshall Center's Program for Cyber Security Studies. Through the 
Global Defense Reform Program, the Department will embed a 
cybersecurity and policy advisor within Ecuador's Ministry of Defense 
Joint Cyber Defense Command. The Department provides technical 
assistance to promote best practices for a national approach to 
cybersecurity under the Digital Connectivity and Cybersecurity 
Partnership initiative.

    Question. Does China play a role--either direct or indirect--in 
violations of human rights in Latin America and the Caribbean? If so, 
please cite specific examples.

    Answer. The People's Republic of China's (PRC) aggressive efforts 
to expand market share for state-affiliated firms, carry out 
infrastructure projects, implement disinformation campaigns, and export 
surveillance and censorship tools play a direct and indirect role in 
human rights violations in Latin America. The lack of transparency in 
transactions with the PRC and PRC-based entities, as well as an 
increase of the region's dependence on debt financing from the PRC, 
empowers corruption. The PRC's infrastructure projects often ignore 
both labor and environmental laws, undermining individual workers' 
rights and labor standards more generally. The PRC's control over local 
media outlets through bribes and other means silences investigative 
journalists who draw attention to human rights abuses and suppresses 
negative stories of the PRC's activities in the region. The PRC's 
export of surveillance and control equipment to the region also 
increases the risk to human rights defenders and those willing to 
expose human rights violators.
                                 ______
                                 

         Responses of Ambassador Philip T. Reeker to Questions 
                    Submitted by Senator Ben Cardin

    Question. To what do you attribute the recent shift in attitude of 
European nations away from a China policy organized around economic 
engagement toward one of limiting China's influence in Europe?

    Answer. Since the publication of the National Security Strategy in 
2017, the United States vigorously engaged with our European Allies and 
partners to alert them to threats posed by the People's Republic of 
China (PRC). Accelerated investment and acquisition of European 
companies by PRC companies has led Europeans to understand their 
economies are targets of Beijing's Made in China 2025 strategy, 
resulting in Europeans beginning to develop national and EU-wide 
investment screening mechanisms. The ``Transatlantic awakening'' on the 
PRC has deepened over the last year. Revelations of human rights abuse 
in Xinjiang, Beijing's targeting of Hong Kong with national security 
laws, and increasing PRC hostility toward Taiwan and others in the 
South China Sea have led Europeans to recognize the implications of 
enabling the malign activities of the Chinese Communist Party (CCP). 
With the outbreak of the COVID-19 pandemic Europeans suffered tragic 
consequences of Beijing's disinformation campaigns and lack of 
transparency. Continued U.S. engagement with European counterparts to 
highlight the nature and the pattern of CCP aggression has further 
shifted attitudes in Europe and contributed to the development of 
strategies and mechanisms to make Europe more resilient and better able 
to counter PRC malign influence.

    Question. How has Beijing responded to efforts by European leaders 
to reduce interdependence and balance relations?

    Answer. I believe Beijing has been surprised by the speed and 
degree to which many European leaders have reacted negatively to PRC 
bullying and disinformation efforts. In 2019 the European Commission 
issued its ``Strategic Outlook'' on EU-China relations that 
characterized the PRC as a partner, a competitor, and a systemic rival. 
The PRC is facing headwinds on a variety of issues in Europe, including 
investment screening, 5G, domestic interference, and multilateral 
engagement. The CCP is also facing increasing European public and 
parliamentary criticism on human rights, Hong Kong, aggression in the 
South China Sea, interference on university campuses, and many other 
issues. European public polls show increasingly unfavorable views of 
the PRC generally, and European politicians are increasingly forthright 
in calling out and countering PRC malign influence. The frosty 
receptions to the recent fence-mending trips to Europe by Foreign 
Minister Wang Yi and Politburo member Yang Jiechi reveal the degree to 
which European leaders are reducing dependence and rebalancing 
relations with the PRC.

    Question. How will the economic impact of the COVID-19 pandemic 
affect the relationship between European countries and China?

    Answer. Supply chain disruptions caused by the COVID-19 pandemic 
and the severity of their impact on the health and livelihood of 
Europeans have heightened concerns about Europe's economic dependence 
on the PRC. Europe's auto and electronics industries were among the 
hardest hit, while many countries experienced shortages of 
pharmaceutical ingredients and other critical medical supplies imported 
from China.
    The pandemic has created a greater sense of urgency to diversify 
supply chains that are predominantly rooted in the PRC in order to 
boost European resilience. The EU has long sought to reduce dependence 
on other countries for critical materials and technologies, as 
evidenced by its new Industrial Strategy for Europe, released in March. 
The European Commission issued guidelines to coordinate the EU's 
approach to investment screening in light of the COVID-19 crisis and to 
protect the EU's critical assets and technologies from potential 
hostile takeovers and investments by non-EU companies.

    Question. What are the prospects for an EU-China investment 
agreement, and what might that entail?

    Answer. The EU seeks an EU-China Comprehensive Agreement on 
Investment (CAI) in order to create new investment opportunities for 
European companies by opening the PRC market and eliminating 
discriminatory laws and practices that prevent them from competing on 
an equal basis with PRC companies.
    In 2016, the two sides agreed on the scope of the agreement which 
would go beyond a traditional investment protection agreement to cover 
market access for investment, and ensure a level playing for EU 
companies in the Chinese market. As we understand, negotiations are 
complete on chapters relating to: the behavior of state-owned 
enterprises, forced technology transfer, and transparency of subsidies. 
Despite the political will to complete negotiations by the end of 2020, 
the EU has indicated it will not move forward until China makes 
significant concessions on the key remaining chapters relating to 
market access, environment, and labor. As European Council President 
Charles Michel recently said, ``Europe is a player, not a playing 
field.''
    The U.S. Government shares many of the EU's concerns regarding PRC 
trade and investment practices and a lack of reciprocal market access. 
The State Department is taking actions along with the interagency to 
ensure a level economic playing field for American companies and to 
counter Beijing's efforts to reshape the open, market-oriented, rules-
based economic order to its advantage.

    Question. What does the future of the 17+1 initiative look like?

    Answer. The 17+1 initiative is one mechanism that the PRC has 
sought to use to expand its influence in Central and Eastern Europe. It 
includes the countries in the region and fits into larger PRC ``Belt 
and Road'' and ``Silk Road'' initiatives. The PRC attempts to use these 
relationships to gain a toehold in the EU and Schengen Zone and, 
therefore, access to Western Europe as well. In practice, however, the 
17+1 has consisted more of photo-ops with officials than of concrete 
outcomes.
    The future of the 17+1 is unclear. In 2020, its annual summit was 
postponed due to the coronavirus pandemic. The PRC's overly aggressive 
pushing of its agenda, both surrounding the pandemic response and on 
other issues such as Hong Kong, has turned off European partners, who 
were already disillusioned by unfulfilled promises, and tempered their 
enthusiasm about 17+1. PRC FDI in the EU has been declining in recent 
years, reaching a 5-year low in 2019 of 11.7 billion euros, with the 
Central Europe region accounting for just 3 percent of that figure. 
Increased trade has benefited the PRC more than the European countries, 
as the increase has been mostly in Chinese exports, and Chinese 
ambassadors in Europe have sought to use European dependence on 
investments in, and trade with, China to soften or influence EU policy 
towards China, and/or to retaliate against steps or policies Beijing 
does not like. All 17 countries in the initiative have seen their trade 
deficit with the PRC increase since the group was established in 2012.

    Question. How can the U.S. take advantage of the weakening 
relationship between China and CEE countries to counter China's 
influence in that region?

    Answer. We are developing partnerships with European governments 
and institutions to ensure that our relationships with the PRC are 
based on reciprocity, transparency, accountability, and respect for 
rule of law, property, labor rights, and human rights. Together with 
Europe, we need to ensure a constructive and results-oriented 
relationship with the PRC.
    In recent years, there has been a ``Transatlantic Awakening'' to 
the PRC Challenge, with increased European pushback. Examples include 
decisions by Sweden and Belgium to close Confucius Institutes; the 
Czech Senate President's visit to Taiwan despite threats of retaliation 
from the PRC; and an EU report exposing and condemning PRC 
disinformation tactics during the COVID pandemic. Both sides of the 
Atlantic see the need to curb PRC aggression, assert our sovereignty, 
and protect our economies.
    The United States strongly supports the Three Seas Initiative 
(3SI), which aims to improve North-South infrastructure between the 
Baltic, Black, and Adriatic seas. The 3SI also has an important 
geopolitical dimension. The PRC uses infrastructure investments and 
offers of economic gain to create dependencies, to expand its political 
influence, and to turn countries away from the West, democracy, and the 
rule of law; the 3SI builds resilience against that threat.
    With the United States driving the debate about trusted 5G vendors, 
Xinjiang, and Hong Kong's autonomy, we have given these topics a global 
platform and rallied countries in Europe and beyond to push back 
against the PRC.

    Question. How have European countries responded to the United 
States' strategic approach to China?

    Answer. We see a Transatlantic strategic alignment on the People's 
Republic of China (PRC) developing over a shared threat perception and 
common purpose to protect our democracies, open societies, and 
economies. In recent years, European governments have rolled out 
stronger investment screening regulations modelled on FIRRMA and CFIUS 
legislation and adopted an EU-wide investment screening mechanism. The 
EU identification of the PRC as an ``economic competitor'' and 
``systemic rival'' and the adoption of a toolbox of measures to secure 
5G networks are also important steps. Europeans have advocated for 
greater market reciprocity and a level playing field for European 
companies, understanding the threat that a state-controlled economy 
poses to free market values and intellectual property rights.
    Earlier this year European legislators launched a global 
initiative, the Inter-Parliamentary Alliance on China, that 
acknowledges the need for a whole-of-government approach. The U.S. 
National Security Strategy also recognizes the need to use all 
government tools in efforts to counter the PRC. At the 2019 Leaders 
Meeting, NATO Allies formally declared for the first time that the 
PRC's growing influence and international policies present `challenges 
and opportunities' that need to be addressed by the Alliance. In 
September, France, Germany and the UK submitted a joint note verbale in 
the U.N. against the PRC's claims in the South China Sea. We joined our 
G-7 counterparts in condemning the PRC's violation of the Sino-British 
Joint Declaration on Hong Kong. We have also seen European leaders, at 
all levels, reaffirm shared Transatlantic values of transparency and 
free speech by speaking out publicly about the PRC's aggressive 
disinformation campaigns throughout the COVID pandemic, as well as its 
human rights violations in Xinjiang, the repression of protesters in 
Hong Kong, and its hostile actions toward Taiwan. These are just a few 
of the indicators of that growing strategic alignment between the 
United States and our Allies and partners in Europe with regard to the 
PRC.

    Question. What effect has the United States' withdrawal from 
multilateral organizations like the WHO had on relations between China 
and Europe?

    Answer. While the United States and many of our likeminded partners 
have our differences on the subject of multilateralism, we agree that 
these institutions should be rooted in democratic values and hew to 
their missions. The United States and the Department are committed to 
upholding the U.N. and related institutions that have fostered global 
peace and prosperity over the past 75 years, including by continuing to 
be the largest financial contributor to these organizations. We have 
provided over $12.2 billion to international organizations in fiscal 
year 2019 alone. The United States' demonstrated commitment to the U.N. 
and related agencies is critical to the U.N. accomplishing its mission, 
maintaining its integrity and impartial role of serving all its 
Members, and rejecting efforts of the People's Republic of China (PRC) 
that seek to coopt the U.N. to accomplish its own authoritarian goals.
    Over the last 3 years we have seen an increased awareness in many 
European countries, what Secretary Pompeo has referred to as a 
``Transatlantic awakening to the China Challenge.'' U.S. diplomats from 
the Secretary on down have been engaging--virtually or otherwise--on 
China-related issues throughout Europe. Positive results from our 
substantial diplomatic engagement contrast sharply with the growing 
backlash to the PRC's heavy-handed ``mask diplomacy'' and its angry 
reaction to European criticism of its COVID response. European 
audiences got to see firsthand just how the Chinese Communist Party 
handles criticism and questions, and they did not like what they saw. 
Europeans are also increasingly concerned about the Chinese Communist 
Party's exploitation of multilateral bodies.

    Question. What would be the benefits of working more closely with 
our European allies to mitigate security and other threats posed by 
China?

    Answer. Europe is home to many of America's closest and most 
capable Allies. When we have common purpose, our European Allies and 
partners are force multipliers in any endeavor the United States 
undertakes. That is the greatest benefit of working with them to 
mitigate threats posed by the People's Republic of China (PRC). The 
Transatlantic Alliance underpins the standards of cooperation and 
coordination in the international system that developed after World War 
II. European governments share our interest in preserving and promoting 
democratic and free market values. Our European Allies and partners 
also wield global influence and can be intermediaries to gain more 
supporters to a common cause. Our NATO Allies recognize the PRC's 
international policies present challenges that must be addressed, 
together as an Alliance, to ensure Transatlantic security. Systemic 
connections between the United States and our European Allies and 
partners on finance, trade, defense, supply lines, IT, media, and 
research and development enables us to advance broad agendas when we 
work together.
                                 ______
                                 

    Responses of Assistant Secretary David R. Stilwell to Questions 
                 Submitted by Senator Edward J. Markey

    Question. The Taiwan Fellowship Act, modeled on the Mansfield 
Fellowship Program between the United States and Japan, establishes a 
2-year fellowship exchange program for Federal Government employees in 
all three branches of government to learn, live, and work in Taiwan. 
This legislation looks to expand bilateral cooperation with Taiwan at a 
time that China seeks to isolate the island nation diplomatically:
    Do you personally support this concept and how would you 
characterize the level of support from Taiwan authorities?

    Answer. The Department appreciates and shares many of the bill's 
sentiments. The Administration is committed to supporting Taiwan as it 
faces an ongoing PRC pressure campaign to shrink Taiwan's international 
space. We would consider any exchange program that deepens U.S. 
Government employees' understanding of Taiwan and its system of 
governance an important component of our relationship with Taiwan. Next 
steps moving forward should be taken in careful coordination with the 
Department of State and the American Institute in Taiwan. As Department 
experts have conveyed to Senate staff, the text as written is 
prescriptive in ways that would result in heavy costs. We look forward 
to continuing to work with Congress to ensure any bill text that 
proceeds is framed as permissive authorities and preserves our shared 
goals as well as the Department's flexibility. Further, AIT Taipei has 
reported that the Taiwan Authorities similarly welcome the Act.

    Question. The Taiwan Fellowship Act, modeled on the Mansfield 
Fellowship Program between the United States and Japan, establishes a 
2-year fellowship exchange program for federal government employees in 
all three branches of government to learn, live, and work in Taiwan. 
This legislation looks to expand bilateral cooperation with Taiwan at a 
time that China seeks to isolate the island nation diplomatically:
    Of the funds appropriated by Congress in fiscal year 2018, 2019 and 
2020 for the American Institute in Taiwan (AIT), what amount of funds 
went unobligated?

    Answer. The unobligated balances for the American Institute in 
Taiwan (AIT) over the past 3 fiscal years are as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Question. Given the emphasis the Secretary has placed on 
international law--in this instance hy has the Administration not 
sought Senate ratification of the U.N. Convention on the Law of the 
Sea?

    Answer. This Administration has reaffirmed that the 1982 Law of the 
Sea Convention generally reflects customary international law and that 
the United States will continue to exercise its rights and jurisdiction 
and perform duties in accordance with applicable international law, 
including customary international law.

    Question. Please describe the degree to which U.S. security, 
commercial, and environmental groups and interests have urged you and 
other senior Department leaders to pursue ratification of UNCLOS.

    Answer. U.S. Chamber of Commerce and key American players in the 
oil and gas, telecommunications, deep seabed mining, and shipping 
industries have in the past supported the United States becoming a 
party to this Convention.
                                 ______
                                 

         Responses of Ambassador Philip T. Reeker to Questions 
                   Submitted by Senator Edward Markey

    Question. At this week's virtual summit between Xi Jinping and 
three EU leaders, the Europeans reportedly raised China's human rights 
issues directly to China's leader--from Hong Kong, to the Uyghurs, to 
Tibet. European leaders are seeking major trade concessions from 
Beijing, yet they weren't shy about their support for universal values:
    Did the EU-China summit reaffirm that European allies can be vital 
partners in speaking out and standing against Beijing's authoritarian 
and expansionist behavior?

    Answer. The EU and our European partners share our commitment to 
the promotion of universal human rights around the world, including in 
the People's Republic of China (PRC). We welcome unequivocal statements 
by our partners to this end, including European Council President 
Michel's statement following the September 14 EU-China summit on Hong 
Kong, Xinjiang, Tibet, press freedom, and individual human rights 
cases. We coordinate regularly with our European partners on human 
rights issues and welcome opportunities to speak jointly with them on 
human rights in the PRC, such as at the U.N. side-events we co-
sponsored in March and September 2019 with Canada, Germany, the 
Netherlands, and the UK focused on human rights issues in Xinjiang and 
as indicated by the July 2020 G-7 foreign ministers' statement on Hong 
Kong. focused on the situation in Xinjiang.

    Question. The EU's top foreign policy official recently wrote that 
Europe should seek to cooperate closely with countries that champion 
multilateralism and international law. On balance, have our European 
allies and partners been supportive of the Trump administration's exits 
or planned exits from institutions and agreements including but not 
limited to the Paris Climate Agreement, the Treaty on Open Skies, the 
World Health Organization, and the Joint Comprehensive Plan of Action?

    Answer. The United States and our European Allies and partners 
agree that multilateral institutions should be rooted in democratic 
values and hew to their missions. The United States and the Department 
are committed to upholding the U.N. and related institutions that have 
fostered global peace and prosperity over the past 75 years, including 
by continuing to be the largest financial contributor to these 
organizations. We provided over $12.2 billion to international 
organizations in fiscal year 2019 alone. The United States' 
demonstrated commitment to the U.N. and related agencies is critical to 
the U.N. accomplishing its mission, maintaining its integrity and 
impartial role of serving all its Members, and rejecting efforts of the 
People's Republic of China that seek to coopt the U.N. to accomplish 
its own authoritarian goals.
    EU President Charles Michel stated following the 22nd bilateral EU-
China Summit in June that ``[e]ngaging and cooperating with China is 
both an opportunity and necessity. But, at the same time, we have to 
recognize that we do not share the same values, political systems, or 
approach to multilateralism.''
    We continue to protect multilateral bodies as Transatlantic 
partners. One example that demonstrates our continued shared values in 
multilateral bodies is our commitment to protect intellectual property. 
The Transatlantic community has thrived like no other part of the world 
since World War II, in part because our countries protect intellectual 
property. This year, Secretary Pompeo led a global diplomatic effort, 
working with our European Allies and partners, to make sure that the 
next director general of the World Intellectual Property Organization 
would be one who protects intellectual property rights on behalf of the 
world, not on behalf of China.
    The Administration is advocating for greater transparency and 
greater accountability in the multilateral sphere and encouraging our 
European Allies and partners to also hold these bodies accountable. In 
May the President announced the United States would terminate its 
relationship with the World Health Organization (WHO). The President 
has been clear that the WHO needs to reform, starting with its 
independence from the Chinese Communist Party, and making substantive 
improvements to the organization's ability to prepare for, prevent, 
detect, and respond to outbreaks of dangerous pathogens with 
transparency and accountability. In May 2020, the World Health Assembly 
unanimously adopted a resolution that called for the establishment of 
an independent panel to evaluate the global response to the pandemic of 
COVID-19, including, but not limited to, an assessment of the WHO's 
performance, as well as an investigation of the origin and spread of 
novel coronavirus SARS-CoV-2. Consistent with our long-standing policy, 
the United States will continue efforts to reform WHO and other 
international organizations to ensure they operate transparently and 
fulfill their mandates, as well as to urge WHO Member States to support 
the U.S. call for reforms that strengthen transparency and 
accountability.
    On the Open Skies Treaty, although Allies do not all agree with our 
decision to withdraw, they share our concerns regarding Russia's 
violations and acknowledge that Russia bears the responsibility for the 
erosion of the European security architecture through its repeated 
violations of its arms control, nonproliferation, and disarmament 
commitments and obligations, not to mention its actions in 
contravention of Helsinki Final Act principles. We continue to work 
closely with our Allies and partners to find common ground to move 
forward collectively, including to address Russian non-compliance.

    Question. The Pew Research Center survey released this week shows 
severe declines in European views of the United States. Additionally, 
in all 9 European countries surveyed, the percentage of people who 
believe China has done a good job in handling the pandemic is more than 
twice as high as the percentage saying the United States has responded 
well to COVID-19. Is China's ``mask diplomacy'' in Europe succeeding?

    Answer. In light of European audiences' awareness of the origins of 
COVID-19, China's ``mask diplomacy'' has had limited effectiveness. 
European journalists have largely shown the PRC's ``gifts'' to be 
rooted in political opportunism rather than altruism. They have 
highlighted the low-quality of donated PPE and PRC attempts to leverage 
contributions for propaganda efforts.
    Pew's research does indicate, however, that PRC practices of data 
manipulation, censorship, and media control over international 
reporting within China, has been successful at misleading European 
publics as to the extent of their efficacy while obscuring the 
authoritarian actions they have used to clamp down on the spread of 
COVID-19.

    Question. Secretary Pompeo recently unveiled the Report of the 
Commission on Unalienable Rights. Do our European allies share the view 
laid out in the report that there has been a ``proliferation'' of human 
rights and we should make a distinction between ``inalienable rights'' 
and those that are ``ad hoc?''

    Answer. Shared democratic values and traditions define the 
Transatlantic relationship and underpin the free world. As EU High 
Representative Josep Borrell wrote in a September 1 article, the EU's 
``long, shared history and shared values with the United States bring 
us closer to Washington than to Beijing.'' On the margins of the U.N. 
General Assembly, the United States issued a Joint Statement, signed by 
some European Allies and partners, which called on nations to recommit 
themselves to the founding principles of the 1948 Universal Declaration 
of Human Rights.
    Regarding the matter of potential distinctions among rights, the 
commission drew attention to the difference it saw between unalienable 
rights--that is, those pre-political rights inherent in all persons at 
all times, which may not be forfeited or transferred--and those rights 
created by positive law by different nations and sub-national entities. 
That such a distinction exists reinforces the essential commitment all 
freedom-loving nations must make to the unalienable rights in the 
Universal Declaration of Human Rights that comprise our shared values.
                                 ______
                                 

    Responses of Assistant Secretary David R. Stilwell to Questions 
                     Submitted by Senator Ted Cruz

    In 2015, the Obama-Biden State Department issued ``Guidelines on 
Relations with Taiwan,'' which prohibited our Taiwanese allies from 
displaying their flags and other symbols of their sovereignty in 
official capacities or at official U.S. functions. I have filed 
legislation, the Taiwan Symbols of Sovereignty (SOS) Act, S. 3310, 
mandating the reversal of that prohibition, and have in the meantime 
urged the Trump administration to do so in the absence of a 
Congressional mandate. On Sept 17 you testified to the Senate Foreign 
Relations Committee (SFRC) that the prohibition is either required by 
or aligns with the Taiwan Relations Act (TRA), and more specifically 
that ``the Guidelines follow from'' the TRA. Elsewhere in your 
testimony, you suggested the TRA is the basis for a policy of strategic 
ambiguity in which the U.S. does not take a stance on Taiwanese 
sovereignty, which in turn justifies the prohibition.
    Please answer the following three questions.

    Question. What is the language in the TRA that is the basis for the 
prohibition on our Taiwanese allies displaying symbols of their 
sovereignty? In answering this question please quote the language from 
the TRA directly and identify the sections, paragraphs, and as relevant 
subparagraphs where that language is located.

    Answer. The United States recognizes the People's Republic of China 
as the sole legal government of China, and, within this context, has 
maintained unofficial ``commercial, cultural, and other relations'' 
with Taiwan, as further memorialized and facilitated by the Taiwan 
Relations Act (TRA). Across multiple Presidential administrations, U.S. 
guidance to Executive Branch agencies is premised on this unique 
unofficial relationship and the President's constitutional authorities 
relating to issues of recognition and to the conduct of U.S. foreign 
relations. The TRA provides additional support for and acknowledges the 
Executive Branch's discretion in the conduct of the relationship with 
Taiwan.

    Question. Was the U.S. policy before the ``Guidelines'' were issued 
in 2015 consistent with the TRA? If not, please quote the language from 
the TRA with which it was inconsistent directly and identify the 
sections, paragraphs, and as relevant subparagraphs where that language 
is located.

    Answer. The U.S. one China policy is guided by the Taiwan Relations 
Act (TRA), the three Joint Communiques and the Six Assurances. The 
United States recognizes the People's Republic of China as the sole 
legal government of China, and, within this context, has maintained 
unofficial ``commercial, cultural, and other relations'' with Taiwan, 
as further memorialized and facilitated by the TRA. Across multiple 
Presidential administrations, U.S. guidance to Executive Branch 
agencies is premised on this unique unofficial relationship and the 
President's constitutional authorities relating to issues of 
recognition and to the conduct of U.S. foreign relations.

    Question. In what sense does a policy of ambiguity align with the 
active prohibition set out in the 2015 ``Guidelines,'' as opposed to a 
policy in which the U.S. maintains ambiguity about the Taiwanese 
displaying symbols of their sovereignty, which was the pre-
``Guidelines'' status quo?

    Answer. The description of U.S.-Taiwan policy in this question is 
not accurate. Our Guidelines are instructions on how to engage Taiwan 
within the parameters of our long-standing one-China policy, which is 
guided by the Three Communiques, the Taiwan Relations Act, and the Six 
Assurances. As such, the 2015 State Department-issued Guidelines did 
not represent a change in U.S. policy.
                                 ______
                                 

    Responses of Assistant Secretary David R. Stilwell to Questions 
                    Submitted by Senator Cory Booker

    Question. China's Support for Multilateralism and ``Vaccine 
Nationalism'': Since the Trump administration withdrew from UNESCO and 
the U.N. Human Rights Council, China announced itself as the ``champion 
of multilateralism,'' filling the void left by the United States.
    China appears to have worked hard to present the Trump 
administration as ``unilateralist'' and China, in contrast, as 
committed to multilateralism and support for global institutions such 
as the World Health Organization:
    How, if at all, is the Administration responding?

    Answer. The United States remains an indispensable, committed 
partner of the international community, including at the U.N. and its 
specialized agencies and related organizations, and continues to be the 
largest funder of international organizations, providing over $12.2 
billion in fiscal year 2019. This Administration will continue working 
to ensure that respect for human rights, the dignity and worth of 
individuals, peaceful resolution of conflict, sustainable economic 
prosperity, national sovereignty, transparency, good governance, and 
the rule of law remain priorities at the U.N. and its specialized 
agencies and related organizations.
    The People's Republic of China has expanded its malign influence 
throughout the multilateral system, including the World Health 
Organization, to advance its own narrow foreign policy interests, often 
at the expense of the health and safety of the global community. The 
Department has been working diligently to push back against the PRC's 
problematic behavior and authoritarian ideology within the U.N. and its 
specialized agencies and related organizations and to strengthen the 
institutional integrity of these organizations by improving their 
transparency, accountability, and effectiveness.

    Question. Is the Administration's position that it will not 
participate in COVAX, the global partnership of 172 countries that will 
develop and share access to a vaccine, because it is loosely associated 
with China?

    Answer. The United States has invested more than $10 billion to 
rapidly develop COVID-19 vaccines, therapeutics, and diagnostics and to 
expand domestic manufacturing capacity. These efforts will benefit the 
global community by bringing safe and effective medical countermeasures 
to market faster. The Administration's decision not to participate in 
multilateral initiatives such as the Access to COVID-19 Tools 
Accelerator (ACT) or the COVAX facility was based on several factors. 
The Department of Health and Human Services and USAID are engaged in 
technical conversations with the Coalition for Epidemic Preparedness, 
Gavi (both of which are public-private global health partnerships), and 
other partners to advance global efforts to develop and deploy life-
saving vaccines and therapeutics as quickly, and as broadly as 
possible.

    Question. Does the Administration believe it can compete with China 
by gambling the lives of Americans with only American vaccine 
candidates, and cutting off access to vaccine candidates that a 
majority of countries in the world will be able to access?

    Answer. The United States Government remains committed to ensuring 
Americans have access to a safe and effective COVID-19 vaccine. The 
United States Government has invested more than $10 billion to 
accelerate the research, development, and manufacture of COVID-19 
vaccines, therapies, and diagnostics, including supporting 
international vaccine candidates developed by global pharmaceutical 
companies. As President Trump has said, the United States is ``willing 
to work with anybody that's going to get us a good result.''

    Question. What if one of the U.S. vaccine candidates does not prove 
safe or effective or takes longer to be approved, while a COVAX vaccine 
proves to be more effective--is the Trump administration prepared to 
answer why Americans could be at the back of the line for doses to a 
vaccine?

    Answer. The Department continues to engage with international 
partners to exchange information and best practices on vaccines, 
therapeutics, and other measures to combat COVID-19 and to build global 
capacities necessary to prevent the next pandemic. In response to the 
pandemic, the Department has worked closely with FEMA and other federal 
agencies to secure medical supplies for domestic needs, and the 
Department remains poised to support ongoing Administration response 
efforts. Through decades of scientific collaboration and investments in 
global health security, the United States has built a network of 
international partners that we will continue to leverage to enhance 
domestic and global health security.

    Question. How is the Administration holding the CCP accountable for 
its human rights abuses? What actions are being taken to help prevent a 
further worsening crackdown in Inner Mongolia?

    Answer. The State Department is outraged by the People's Republic 
of China's (PRC) ongoing targeting and abuse of human rights activists 
and members of ethnic and religious minority groups. The U.S. 
Government has taken concrete action to respond to the human rights 
crisis in the People's Republic of China, to include visa restrictions, 
export restrictions, import restrictions, financial sanctions, and 
multilateral initiatives.
    Following decades-long oppression in Tibet and a devastating 
campaign of repression in Xinjiang, the Chinese Communist Party seeks 
to erode the unique culture of ethnic Mongols in Inner Mongolia as well 
by, for example, replacing Mongolian with Mandarin Chinese as the 
language of instruction in schools.
    The United States seeks to preserve the distinct religious, 
linguistic, and cultural identity of the PRC's ethnic Mongolian 
population. We will continue to promote accountability for those who 
commit human rights abuses, and to impose costs on the individuals and 
entities that carry out or enable abuses. We also encourage other 
members of the international community to take similar steps.

    Question. Suppression of Journalists/Human Rights Abuses: The 
Chinese Communist Party's (CCP) reflexive repression has already 
resulted in horrific consequences for minority groups in Xinjiang and 
Tibet, in addition to human rights activists throughout China. 
Unfortunately, the CCP's campaign continues to broaden, most recently 
in Inner Mongolia where authorities are targeting ethnic minority 
Mongols:
    What have you conveyed to Chinese government authorities regarding 
this outrageous behavior targeting this accredited Los Angeles Times 
journalist? How should the U.S. respond to deter this type of behavior?

    Answer. The United States condemns the PRC's detention and physical 
harassment of Alice Su, a reporter for the Los Angeles Times, who was 
in Inner Mongolia covering protests against a new PRC policy reducing 
the use of the Mongolian language in education. Independent journalists 
play a vital role in transparency in China, and the world saw firsthand 
the negative implications of censorship when COVID-19 broke out in 
Wuhan. Independent journalism is also critical to shedding light on the 
PRC's efforts to Sinicize its ethnic minorities in Xinjiang, Tibet, and 
Inner Mongolia. It is reprehensible that the PRC has suppressed 
protests by ethnic Mongolians seeking to express their legitimate 
concerns and protect their mother tongue against discriminatory 
measures, just as it has suppressed similar protests in Tibet and 
Xinjiang.

    Question. What is the State Department doing to change the 
perception that we have forgotten Africa?

    Answer. Secretary Pompeo and Under Secretary Hale both traveled to 
Africa this year to underscore our long-standing commitment to our 
partnership, strengthen economic ties, and support the next generation 
of Africans. The Administration's new Prosper Africa initiative is 
bringing together U.S. Government resources to two-way expand trade and 
investment. For the past decade, the Young African Leaders Initiative 
(YALI) has promoted leadership, entrepreneurship, effective public 
administration, and strengthening of civil society. These initiatives 
will continue to provide critical opportunities to African youth, who 
are the future leaders of their communities.

    Question. What lines of effort exist to promote the assistance we 
are providing and the longstanding partnerships we have with African 
institutions?

    Answer. The U.S. advances peace and security by strengthening our 
defense and development partnerships with African governments, Regional 
Economic Communities, and the African Union to reinforce democracy, 
human rights, and rule of law. We help partners counter malign actors 
by harnessing the power of markets, promoting good governance, and 
strengthening institutional capacities, including in health. Over the 
past decade, we provided over $100 billion in global health funding and 
nearly $70 billion in overseas humanitarian assistance. To develop 
Africa's future workforce, we also provide critical education, 
especially for women and youth.

    Question. It has been nearly a year since the State Department 
unveiled its Indo-Pacific Strategy. What success has the strategy had 
in countering this Chinese initiative so far?

    Answer. Through the Indo-Pacific Strategy, the United States works 
with allies and partners to advance open investment environments; free, 
fair, and reciprocal trade; good governance; and freedom of the seas. 
Since 2017, this strategy has helped the U.S. and our partners in 
countering Beijing's malign actions, which threaten the peace and 
security of the Indo-Pacific region. The United States and a diverse 
chorus of partners now speak in terms of the Indo-Pacific with a shared 
vision and vocabulary, as seen in ASEAN's Outlook on the Indo-Pacific. 
Under the Indo-Pacific Strategy, the United States has elevated 
commercial diplomacy tools, sharpened transparency and governance tools 
under the Indo-Pacific Transparency Initiative, and expanded security 
partnerships with Indo-Pacific partners. Alongside our likeminded 
allies in this effort, we can prevail against Beijing's malign behavior 
and strategic competition.

    Question. What are some examples the Department can point to where 
U.S. Government efforts have either repelled Chinese attempts to gain 
influence or otherwise increased our own standing in the region?

    Answer. The Administration's Prosper Africa program is intended to 
significantly increase two-way trade and investment. We actively 
promote U.S. firms and solutions. For example, the U.S. Export-Import 
Bank recently financed $5 billion for U.S. exports to Mozambique. 
Chicago's Weldy Lamont won a $100 million grid-extension contract to 
increase energy access in Senegal, beating out a Chinese competitor. 
Botswana's recent termination of Beijing's faulty roadway projects 
underscores the importance of our quality-driven, long-term investment 
model.

    Question. Aggressive Chinese Diplomacy: In recent years, the 
Chinese foreign ministry appears to have instructed its embassies 
overseas to adopt a more aggressive tone against the United States and 
our allies. Called ``wolf-warrior diplomacy,'' this approach seems to 
represent a transition in Chinese diplomacy from conservative, passive, 
and low-key to assertive, proactive, and high-profile--and to reflect a 
sense of increasing nationalism within China. We have seen an increased 
willingness among Chinese ambassadors to engage in public speaking and 
publish op-eds in an effort to push significant disinformation 
campaigns that attack the West and promote a version of Chinese 
economic, political, and diplomatic engagement that is disconnected 
from reality:
    What is the Department's observation about the effectiveness of 
this Chinese campaign?

    Answer. Chinese diplomats have indeed grown more strident and 
aggressive in their public and private remarks, both at home and in 
third countries. The German Marshall Fund has found that, since the 
first Hong Kong protests erupted in March 2019, Twitter accounts 
connected to PRC Embassies, Consulates, and Ambassadors have increased 
250 percent. This is in stark contrast to the PRC's censorship of 
social media at home, including outright blocking of platforms like 
Twitter and Facebook. This newfound aggression in seeking to control 
the information narrative has been matched by diplomatic aggression--to 
include outright threats against third counties' sovereignty, security, 
and economic well-being. However, in most cases these attempts have not 
resulted in the cowing of foreign leaders or publics.
    To the contrary, this belligerence has revealed CCP malign intent 
more clearly to a global audience, and most countries have responded by 
publicly rejecting Beijing's increasingly threatening approach. In 
addition to not bowing to Beijing's demands, public opinion polls 
reveal a souring of views of the Chinese government's tone and behavior 
in more and more countries. In particular, countries' rejection of the 
PRC's cover-up of COVID-19, disinformation efforts around its origins 
and spread, and transactional approach to medical supplies, have 
further exposed the limits of Beijing's aggressive diplomatic efforts.

    Question. What is the State Department's strategy for counteracting 
wolf-warrior diplomacy?

    Answer. The Department's tracking of Beijing's so-called ``wolf-
warrior'' diplomacy has shown this strategy often backfires, angering 
the very audiences Beijing hopes to influence. For example, Global 
Engagement Center analysis of Foreign Minister Wang Yi's recent trip to 
Europe showed that digital and social media conversations in Europe 
about the visit were predominately negative.
    The Department, however, is not just monitoring CCP attempts to 
influence global conversations. Across the Department and at our posts 
around the world, our teams are focused on sharing accurate information 
about the United States, our policies, and values while building 
resiliency to CCP propaganda and disinformation. Public Affairs 
Officers at U.S. embassies and consulates, working with their local 
staff, use their own media platforms, local contacts, speaker and grant 
programs, and a variety of other tools to ensure that local governments 
and publics see PRC aggression clearly. Beijing's ``wolf-warrior'' 
efforts work against Beijing--their threats against local leaders, 
companies, and publics almost always result in a strong and negative 
response in these countries, further raising collective alarm about 
Beijing's malign activities abroad.

    Question. What is the Department doing to lift the curtain on 
China's anti-democratic, neocolonialist diplomatic and economic 
engagement?

    Answer. We are working every day to raise awareness of the PRC's 
malign activities around the world. As mentioned in my testimony, the 
Department has reorganized and retooled to confront the global threat 
from the CCP in recent years, and every office and bureau is focused on 
this global foreign policy challenge. We recognize that messaging is a 
critical component of our campaign to reveal the PRC's malign 
activities abroad; this includes both private messaging to local 
governments as well as public messaging efforts.
    All of our diplomats in the field are empowered to speak on China 
issues, and are raising awareness of PRC malign intentions every day. 
The greatest tool in this effort is transparency: exposing PRC malign 
actions helps foreign audiences understand the threat Beijing poses to 
their country's own national interests and well-being. We are also 
eager to use the new Counter China Influence Fund (CCIF) to support our 
posts in their programmatic and messaging efforts to expose PRC malign 
influence. On the economic front, our posts are taking advantage of the 
many new tools at their disposal to provide alternatives to Beijing's 
predatory lending, including the Development Finance Corporation (DFC), 
which helps meet local development needs without resorting to Beijing's 
unsustainable lending.

    Question. In the year that has passed since the signing of this 
joint statement, what areas has the State Department identified as 
being ripe for cooperation, technical assistance, and capacity 
building? Are any programs yet underway?

    Answer. The Department of State deepened cooperation with the 
African Union Commission (AUC) by increasing technical assistance in 
support of African Continental Free Trade Area (AfCFTA) negotiations to 
assure a level playing field for U.S. business. Capacity building 
programs have included: Department-funded U.S. exchange programs for 13 
AUC trade officials on trade, digital trade and intellectual property 
rights; a USDA-funded policy workshop to draft the AfCFTA Sanitary and 
Phytosanitary annex; a training seminar for 30 AfCFTA negotiators on 
IPR coordinated by the Department with support from USTR, USPTO, and 
the U.S. Copyright office; and USAID-funded advisors on technical 
barriers to trade and digital trade.
              chinese use of technology for malign intent
    In August 2019, the Wall Street Journal reported that Huawei 
technicians helped the governments of Uganda and Zambia spy on 
political opponents by intercepting their encrypted communications and 
social media, and by using cell data to track their movements. Just 
last month, researchers at a UK mobile security company discovered 
malware pre-installed on new smartphones marketed in Africa, made by 
the Chinese manufacturer Transsion.
    Transsion is the fourth largest mobile handset maker (by sales) in 
the world, behind Apple, Samsung, and Huawei, and the leading seller of 
mobile phones in Africa. The affected devices are Transsion's low-cost 
``Tecno W2'' Android phone models. Researchers observed 95 percent of 
the affected devices operating in Cameroon, Cote D'Ivoire, Democratic 
Republic of the Congo, Egypt, Ethiopia, Ghana, and South Africa. 
Compromised mobile devices could enable malicious activity, such as 
credential stealing or espionage, placing users' personal information 
and data at risk of monitoring or interception. Furthermore, 
communicating with users of these devices, including third parties and 
partner organizations, could result in the compromise of shared 
information:

    Question. What kinds of specific initiatives or lines of effort 
does the State Department have in place to counteract this type of 
malicious activity?

    Answer. The Department's efforts seek to promote an open, 
interoperable, secure, and reliable Internet and promote best practices 
for cybersecurity. Allowing untrusted, high-risk vendors, such as 
Huawei, into any part of 5G networks makes critical systems vulnerable 
to disruption, manipulation, and espionage, and puts sensitive 
government, commercial, and personal information at risk. To counter 
this threat, the Department has led an international campaign to 
convince our partners and allies to exclude untrusted vendors from 
their information and communications technology networks and services.

                                  [all]
</pre></body></html>
